<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 106-]
[From the U.S. Government Printing Office]



 
DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
              AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    [The following testimonies were received by the 
Subcommittee on Commerce, Justice, and State, the Judiciary, 
and Related Agencies for inclusion in the record. The submitted 
materials relate to the fiscal year 2004 budget request for 
programs within the subcommittee's jurisdiction.]

                         DEPARTMENTAL WITNESSES

                             THE JUDICIARY

 Prepared Statement of Leonidas Ralph Mecham, Director, Administrative 
                       Office of the U.S. Courts

                              introduction
    Chairman Gregg, Senator Hollings, and Members of the Subcommittee: 
thank you for giving me the opportunity to present the fiscal year 2004 
budget request for the Administrative Office of the United States 
Courts (AO).
    Let me first take a moment to thank you for your help in conference 
on the fiscal year 2003 appropriation for the AO. I am grateful of your 
support in providing the AO with an increase in funding above the 
fiscal year 2002 appropriation. Crafting an acceptable conference 
agreement within the limited allocation you were provided was a 
difficult challenge. Your continued support and recognition of our 
service to the courts are very much appreciated.
                   role of the administrative office
    Created by an Act of Congress in 1939, the Administrative Office of 
the United States Courts serves as the central support agency for the 
federal court system, with key responsibility for judicial 
administration, program management, and oversight.
    As such, the AO is the focal point for judiciary communication, 
information, program leadership, and administrative reform. Our 
administrators, accountants, systems engineers, analysts, architects, 
lawyers, statisticians, and other staff provide professional services 
to meet the needs of judges and staff working in the federal courts 
nationwide. We also staff the judiciary's policy-making body, the 
Judicial Conference of the United States, and its 24 committees.
                       security of the judiciary
    During this past year, in the wake of the events of September 11, 
2001, and the anthrax incidents that followed, a principal focus of the 
AO has been to provide additional guidance on security and emergency 
preparedness to the courts. We have consulted with experts, analyzed 
alternatives, and taken numerous steps to ensure the safety and 
security of federal judges, judiciary staff, jurors, attorneys, the 
public, and others associated with the judicial process. These efforts 
would not have been possible without your support in providing the 
judiciary with $129 million in emergency supplemental funding during 
fiscal year 2002. I would like to take a few moments to highlight how 
we have used these monies as well as share with you some of the 
initiatives we have undertaken in the area of security during the last 
year.
Emergency Supplemental Funding
    First and foremost, the supplemental funding enabled the judiciary 
to augment the U.S. Marshals Service's workforce with 106 new court 
security inspectors who will oversee courthouse security and coordinate 
on- and off-site protection of judges in each of the 94 districts and 
12 regional courts of appeals. The funding also covered the costs 
associated with 358 new Court Security Officers (CSOs) to provide a 
higher level of security, including extended evening and weekend 
coverage, enhanced perimeter and internal security patrols, 100 percent 
identification checks, and visual inspection of vehicles. The inability 
to provide expanded hours of security coverage in courthouses had been 
a major weakness in the judiciary's security program. Your assistance 
in addressing this need is very much appreciated.
    In addition, the supplemental funding is being used to pay for such 
things as bomb detection equipment, enhanced x-ray equipment for 
screening, bullet-proof vests for CSOs, security enhancements around 
the perimeter of courthouses, ballistic hardening of screening posts, 
and special security requirements for courts handling high-threat 
trials.
    We also used emergency supplemental funding to enhance the physical 
security of the Thurgood Marshall Federal Judiciary Building. Monies 
have been used to upgrade the fire control system which includes 
accessible features for secondary locations. Vehicles no longer are 
allowed to park or idle outside the building. We have purchased new 
state-of-the-art x-ray machines and video surveillance cameras, 
installed protective film on perimeter windows, purchased evacuation 
chairs, radiological monitoring devices, and are pursuing other 
security upgrades based on expert security advice, and assessment 
reports.
Safe Mail Handling
    As I mentioned in my testimony before the Subcommittee last year, 
immediately following the incidents of anthrax-contaminated mail, the 
AO began sending nearly all correspondence to the courts via e-mail or 
facsimile transmission. In addition, consultant architectural services 
were obtained to study several existing courthouse mail facilities and 
handling practices to help develop procedures, standards, and 
infrastructure for safe mail handling in federal courthouses. In July 
2002, the Judicial Conference endorsed recommendations regarding safe 
mail handling procedures, and the construction of centralized mail 
rooms in courthouses using $12 million in fiscal year 2002 emergency 
supplemental funding. AO staff then developed guidelines and 
specifications for prototype mail rooms based on the size of the 
courthouse and the potential volume of mail.
Emergency Preparedness
    Also during fiscal year 2002, the AO established the Judiciary 
Emergency Preparedness Office to give direct guidance and other 
assistance to courts for emergency preparedness, crisis response, and 
continuity of operations plans. Such plans focus on the safety of 
judiciary employees and the public, and ensure that essential functions 
and activities are not interrupted for long and that critical functions 
resume as quickly as possible. During the past year, representatives 
from this office have briefed nearly 2,000 members of the judiciary on 
the emergency preparedness program.
Continuity of Operations Planning (COOP)
    And, with the help of an independent consultant, prototype 
Continuity of Operations Plan (COOP) templates and instructional 
materials have been developed for each court type based on the actual 
COOP plans developed with AO assistance by the courts in New York after 
the terrorist events of September 11, 2001. Representatives from the 
courts contributed to the development of the COOP template by 
identifying specific issues courts need to consider in creating their 
local plans. The final template was distributed to the courts in 
November 2002 and will help them identify vulnerabilities in the event 
of a crisis, do the advanced planning necessary to maintain normal 
operations, and conduct the extensive coordination required among local 
organizations. Courts can access templates and checklists about 
emergency preparedness on the judiciary's Emergency Preparedness 
Office's website. These templates will be refined and updated based on 
experience and feedback from the courts.
Court Operations Support Center
    We are particularly grateful for your endorsement in the conference 
report of the recommendations of the Court Operations Support Center 
and Continuity of Operations Housing Plan report that we provided to 
the Subcommittee in November 2002. The establishment of a small leased 
facility at least 20 miles outside of Washington, D.C. will help ensure 
the continuity of critical court support operations in the event that 
administrative and automation support functions are shut down as a 
result of closure of the Thurgood Marshall Federal Judiciary Building. 
While the primary purpose of the facility will be continuity of 
operations, consistent with the conference report direction, we intend 
to provide telework opportunities for judiciary employees at this 
facility as well. We will work quickly to establish this facility, and 
I will keep you apprized of its progress.
Courts Supported in High-Profile Trials
    The ongoing terrorist threat to our nation and increased focus of 
federal law enforcement resources on homeland security also mean that 
the federal courts are likely to be the forum for many more highly 
publicized and security-sensitive criminal proceedings. We've already 
had the Richard Reid case in Massachusetts and the John Walker Lindh 
case in the Eastern District of Virginia. We know of several more that 
are upcoming, including the Zacarias Moussaoui case, also in the 
Eastern District of Virginia. The courts hosting these trials face 
unprecedented and extraordinary challenges involving a wide range of 
issues from heightened security concerns, greater information 
technology support needs, and furnishing closed-circuit broadcasts of 
the proceedings to victims' families.
    The courts rely on the AO to provide support and advice to them on 
all of these issues. AO staff met with court staff from the Court of 
Appeals for the Fourth Circuit and the Eastern District of Virginia to 
discuss the possibilities of using videoconferencing for emergency 
appeals resulting from terrorist-related cases in the circuit. The AO 
also arranged for classified briefings from the National Security 
Agency (NSA) for judges and others to discuss increased risks from 
terrorists trials. In Massachusetts, staff, working with NSA 
representatives, conducted an information security analysis at the 
district and appellate courts, followed by briefings for court staff 
and judges.
    I look forward to working with you and the Members of this 
Subcommittee as we develop more specific plans to ensure that the 
federal courts are safe and readily accessible to the public. Even in 
the face of the grim realities of a terrorist attack, chemical or 
biological contamination, or natural disaster, we are doing our best to 
ensure that the business of the judiciary can and will continue without 
disruption.
              relationship with the u.s. marshals service
    In my role as Secretary to the Judicial Conference, one of my 
primary responsibilities is to carry out and implement policy decisions 
of the Judicial Conference. Not surprising, providing for the safety 
and security of federal judges, judiciary staff, jurors, attorneys and 
other participants in the judicial process has always been a top 
priority for the judiciary.
    On May 5, 1981, Chief Justice Warren Burger met with Attorney 
General William French Smith to discuss the need for improved court 
security. Following this meeting, in July 1981, Attorney General Smith 
formed a task force to examine court security requirements and make 
recommendations for improvements. The task force report was issued in 
March 1982.
    To quote from the Joint Statement of the Chief Justice and the 
Attorney General before the Judicial Conference of the United States on 
March 11, 1982:
    The provisions of adequate security services to all the 
participants in the federal judicial system, most especially the 
Judiciary itself, is a critical element in the relationship between the 
Department of Justice and the Federal Courts. If we cannot ensure the 
safety of all participants in the judicial process, we cannot maintain 
the integrity of the system, we cannot--in sum--``establish justice,'' 
as mandated in the preamble to the Constitution of the United States.
    The statement goes on to point out that the needs of the judiciary 
had risen dramatically due to the increase in the number of judges, the 
increase in the number of cases, combined with the increasingly complex 
and sensitive nature of the cases and people involved. Mr. Chairman, it 
is disturbing to note that twenty-one years later these statements are 
even more relevant.
    Today, the federal courts are at risk from domestic and 
international terrorists, organized domestic and international criminal 
organizations, and litigants distressed at the outcome of their 
individual cases. And, because of the role the judiciary plays in the 
prosecution of international and domestic terrorists, as well as the 
high profile of judges and court facilities in most communities, 
security threats to the federal judicial system will no doubt continue 
to increase.
USMS Staffing Shortfalls
    The judiciary is a strong advocate for the resource needs of the 
U.S. Marshals Service (USMS). But the judiciary has no binding 
authority over the general level of security services provided it by 
the USMS. By statute, the judiciary depends on the Executive Branch's 
USMS as its security provider. This relationship makes it difficult for 
us to ensure the judiciary receives the security services it requires.
    During the past several years, the U.S. Marshals Service has 
experienced severe personnel resource deficiencies, particularly at 
courts along the Southwest border and in cities with burgeoning 
criminal caseloads. The Marshals Service could not redeploy sufficient 
resources to these areas without severely short-changing others. The AO 
recently learned that the USMS' budgeting model identified personnel 
shortages of approximately 1,200 positions. The USMS is operating at 70 
percent of its required staffing. It is critical to the welfare of the 
judiciary that the USMS be adequately staffed to perform all of its 
various missions so that judicial security does not take a back seat to 
other USMS priorities. We are, so to speak, at the mercy of the USMS, 
the Department of Justice, and the Office of Management and Budget in 
terms of their ability to provide the number of deputy marshals 
necessary to ensure the judiciary has a top notch security program.
    For more than a year, Judge Jane Roth, Chair of the Judicial 
Conference Committee on Security and Facilities, and I have been 
working with the Department of Justice and Director Reyna in an attempt 
to evaluate the USMS staffing requirements and develop a multi-year 
strategy to raise the number of funded marshals. To be frank, achieving 
a collaborative effort has not been easy, but the Department has 
recently decided to seek input from the judiciary in the development of 
a revised staffing formula.
    During consideration of the third fiscal year 2002 Emergency 
Supplemental, Senator Graham was successful in amending the bill on the 
Senate floor to include funding for the hiring of 200 additional deputy 
U.S. marshals for the protection of the judiciary. With your help in 
conference, $37.9 million was provided to support up to 250 new 
positions for the USMS. Unfortunately, certain funds in the Act were 
included on a contingent basis--contingent on the President submitting 
an official budget request designating those funds as an emergency 
requirement. In a letter dated August 6, 2002, I wrote to the President 
on behalf of the Judicial Conference to urge expeditious submission of 
an official budget request so these critically needed resources could 
be released. The President declined to take that action.
    For fiscal year 2003, through your leadership in conference on the 
Omnibus Appropriations Bill, $7.9 million was included for 58 
additional deputy U.S. marshal positions for the protection of the 
judiciary for high threat trials, and for districts demonstrating the 
highest priority needs. For fiscal year 2004, while the President's 
budget for the U.S. Marshals Service seeks $26.6 million for 231 
additional deputy U.S. marshal positions, it also includes a general 
base reduction of $25.1 million to this same account. I am concerned 
that judicial security may suffer as a result.
Comprehensive Study on Judicial Security
    As I have tried to lay out before you, the AO and the Judicial 
Conference have been concerned with the state of judicial security and 
the unique position the judiciary finds itself in with regard to its 
dependence on the Department of Justice for some time. Before September 
11, 2001, the AO and the Judicial Conference Committee on Security and 
Facilities had undertaken a comprehensive look at various aspects of 
judicial security. Working with a private security contractor, the 
findings of the review were issued in November 2001. Enhancements 
funded by the three emergency supplementals and the initiatives that 
have been undertaken by the AO to strengthen the security of the courts 
were key recommendations contained in this comprehensive review.
    In fact, the 106 supervisory-level deputy U.S. marshal positions 
included in the emergency supplemental to coordinate judicial security 
in the 94 districts and 12 regional circuits were a direct outgrowth of 
a recommendation of the independent security experts. Congress has now 
transferred the funding to the USMS, Salaries and Expenses account, but 
I am grateful that you have included statutory language to ensure the 
funding and positions will continue to be assigned to court security. 
District marshals and judges have seen improvements in security with 
the addition of the new security positions.
    In the conference report accompanying the fiscal year 2003 Omnibus 
Appropriation Bill, you have directed the U.S. Marshals Service to 
conduct a study with an independent consultant on the management of the 
Court Security program and the unique relationship between the Federal 
Judiciary, the U.S. Marshals Service, and the Federal Protective 
Service in administering the Court Security program and providing 
facilities security for the judiciary. Mr. Chairman, consistent with 
our responsibility to monitor the provision of court security and our 
personal concern for the safety of the public, litigants, attorneys, 
jurors, judges, court staff and others in the judicial process, I 
respectfully urge you to permit the judiciary to share its views 
regarding the management of court security during the course of this 
study. Certainly the outcome of the study will have profound 
implications for the future delivery of judicial security. Judge Jane 
Roth and I hope that you will meet with us if you believe changes to 
our security arrangements are warranted.
                  administrative office budget request
    The fiscal year 2004 budget request for the Administrative Office 
of the U.S. Courts is $70,584,000, representing an increase of 
$7,497,000, or 11.9 percent above the fiscal year 2003 available 
appropriation. While the percentage increase we are seeking appears 
significant, it should be noted that more than three-fourths of the 
requested increase for the AO, $5,842,000, is necessary to support 
adjustments to base. These adjustments are mainly comprised of standard 
pay and general inflationary increases, funding to replace a lower 
level of fee carryover with appropriated funds, and $400,000 to restore 
funding for critical cyclical replacement of information technology 
equipment that had to be deferred into fiscal year 2004. We are highly 
dependent on personal computers, data networks, and telecommunications 
to conduct AO business and support the courts. Funds must be available 
to ensure security and replacement of essential equipment.
    The remaining increase of $1,655,000, which I will describe in 
greater detail in a moment, is requested to support new security 
requirements, strengthen programmatic oversight, audits, reviews and 
assessments, allow us to fund an increase in the transit subsidy 
benefit for AO employees, and implement a cafeteria-style flexible 
benefit program.
AO Staff Support for the Courts
    Specifically, $958,000 is requested to provide nine additional FTEs 
for program and security oversight. Continuing to develop new programs 
and systems while supporting a court system whose proportional growth 
far outpaces that of the AO is a daunting task. The staffing level in 
the AO has remained essentially the same over the last ten years, while 
court staffing has grown by 20 percent during the same time period, 
thus adding substantially to the AO workload.
    Each vacancy that occurs is carefully evaluated and used to fulfill 
our highest priority needs. Nowhere has this been more evident than 
with our increased focus on security and emergency preparedness. 
Without additional funding, we have had to shift duties and 
responsibilities to meet the most pressing and immediate requirements 
of the courts, and this has meant shortchanging other needs. For 
example, during fiscal year 2002, the AO devoted $1 million and 8 FTEs 
to homeland security efforts. Roughly 50 AO employees devoted staff-
hours equivalent to 8 FTEs, developing and implementing enhanced 
judicial security programs--fulfilling responsibilities and carrying 
out duties other than those for which their positions were originally 
funded to support.
    I am proud of my staff and their dedication to serving the needs of 
the courts. However, because sufficient resources must be committed to 
core functions such as running key systems, providing basic payroll, 
personnel, and financial management services, and supporting the 
committees of the Judicial Conference, program oversight functions are 
in serious need of additional resources.
    The nine additional FTEs we are requesting will be applied to the 
following functions: adding staff to the facilities and security 
program to ensure greater emphasis on the planning aspects of emergency 
preparedness and crisis response; providing greater focus and support 
to the probation and pretrial services program, which currently has 
only 36 AO staff supporting 8,000 probation and pretrial services 
personnel in 94 districts nationwide, and a budget of $850 million; 
and, increasing program oversight and efficiency reviews to assist the 
courts in areas such as automated case management, financial 
management, and developing strengthened procurement policies and 
procedures.
    Mr. Chairman, I hope you can assist us with this much needed 
request for additional staffing at the AO.
Cafeteria-Style Flexible Benefits Program
    As you may recall, the Judicial Conference is seeking legislation 
that would provide the judiciary with the authority to use appropriated 
funds and/or fees to help defray the cost of providing supplemental 
benefits to judiciary employees. Approval of the legislation will allow 
a full-flexible cafeteria plan to be available to all judiciary 
employees, including the AO, providing a supplemental benefits package 
that is competitive with those already provided throughout the private 
sector and state governments. Benefits that may potentially be offered 
in a cafeteria plan include such items as a dental program, a vision 
program, and life insurance, as well as short-term and long-term 
disability insurance.
    While the House passed its Federal Courts Improvement Bill with 
this needed authorization in it, the Senate failed to act on the 
measure during the 107th Congress. However, in anticipation of the 
enactment of legislation in fiscal year 2003 allowing flexible 
cafeteria-style benefits to be offered to the judiciary, our fiscal 
year 2004 request includes $432,000 to begin implementing such a 
program for AO employees. A similar request implementing the program 
judiciary-wide is included in the Salaries and Expenses account.
Transit Subsidy
    Pursuant to the Transportation Equity Act for the 21st Century 
(Public Law 105-78), the AO implemented a transit subsidy benefit for 
its employees with available funding in fiscal year 2000. The benefit 
is currently $60 per month with a participation rate of approximately 
60 percent. Executive Order No. 13150 provided for an increase in the 
allowable benefit to $100 per month in January 2002. The AO is 
requesting $265,000 to increase the subsidy to the currently authorized 
amount of $100 per month.
    The already limited parking available in and around the Thurgood 
Marshall Federal Judiciary Building has been further reduced by the 
loss of parking spaces at Union Station due to security considerations. 
Compounding the situation is the elimination of nearby parking as a 
result of the construction of Station Place, which has necessitated 
employees of the AO to seek parking in remote locations that are 
unsafe. This, coupled with the continuing increase in traffic 
congestion in the Washington, D.C. area, has increased AO employee 
interest in the transit subsidy program. The requested program increase 
of $265,000 will allow us to increase the benefit for AO employees to 
the authorized level of $100 per month and cover the cost of an 
anticipated increase in the participation rate to 70 percent.
                  responsibilities and accomplishments
    As I mentioned earlier, the Administrative Office has key 
responsibility for judicial administration, program management, and 
oversight. It supports the Judicial Conference and its 24 committees in 
determining judiciary policies, and develops new methods, systems, and 
programs for conducting the business of the federal courts. The AO also 
assists the courts in implementing better management practices, 
developing and supporting innovative technologies that enhance the 
operations of the courts, and collecting and analyzing statistics on 
the business of the federal courts for planning and determining 
resource needs.
    It assists the courts in program management, addressing areas such 
as case management, jury administration, defender services, court 
interpreting services, and court reporting. One of our major areas of 
support is of the probation and pretrial services program for which we 
are seeking additional oversight positions. In fiscal year 2002, 
probation and pretrial services offices supervised a record number of 
offenders and defendants (143,672) living in our communities on 
pretrial release, probation, parole, or supervised release. The AO 
staff provided policy guidance and program support to a system that 
encompasses 94 districts in 500 locations. The staff develop and 
administer national contracts for drug testing and electronic 
monitoring and help support 500 local purchase orders for substance 
abuse and mental health treatment. The AO also provides financial 
management services to the judiciary including budget formulation, 
execution, and accounting; and personnel and payroll support for 32,000 
judiciary employees. It supports the facilities and security needs of 
over 800 facilities housing judiciary operations, and conducts 
training, audits, and reviews to ensure the continued quality and 
integrity of federal court operations.
    In addition, the AO provides necessary support services to other 
entities including the Judicial Panel on Multi-District Litigation and 
the Foreign Intelligence Surveillance Court.
    Throughout 2002, the AO excelled in its day-to-day 
responsibilities. Let me take a moment to highlight just a few of these 
areas.
Financial Stewardship
    Working with the courts to ensure the efficient and effective use 
of resources is a key AO function. It is imperative that we do all in 
our power to ensure that the monies appropriated to the judiciary are 
utilized prudently; assets and resources are protected from loss, 
waste, or abuse; operations are efficient and effective; financial 
reports are timely, accurate, and reliable; and business practices 
comply with applicable laws and regulations. In 2001, a Management 
Oversight and Stewardship Handbook was published and training on 
management oversight was provided to chief district judges and chief 
bankruptcy judges. In 2002, a companion program was launched for court 
executives. The AO has held two of six planned workshops of the new 
training program, Management in the Judiciary: The Rules, Tools and 
Tips of Good Stewardship. To date, 110 court executives have received 
training. The remaining 332 will receive training in fiscal years 2003 
and 2004.
Strengthened Internal Controls
    Good internal controls are systematic safeguards that ensure 
objectives are achieved and assets are protected. With the 
participation of court managers, AO staff is developing a model 
internal controls handbook to assist court leaders in managing their 
courts. The handbook will identify the minimum procedural checks and 
balances that should be in place for finance, travel, procurement and 
contracting, property, human resources, information technology, 
records, and statistical reporting.
Information Technology
    Another key responsibility of the AO is developing, implementing, 
and supporting new automated systems and technologies for the courts. 
One of our largest automation initiatives in recent years is the Case 
Management/Electronic Case Files (CM/ECF) project, which permits courts 
to receive documents over the Internet and maintain electronic case 
filings. We began national roll-out of CM/ECF in 2001. By March 2003, 
about 130 district and bankruptcy courts had begun or completed 
implementing the new systems and national implementation in all courts 
should be completed in 2005. More than 27,000 attorneys have already 
filed documents electronically and more than 6 million cases involving 
more than 15 million documents are in the electronic files systems. In 
fact, several recent mega-bankruptcies were filed electronically, 
enhancing both public access and case management. In 2002, the total 
number of Public Access to Court Electronic Records (PACER) accounts 
topped 200,000. These systems will save considerable court resources 
while also significantly improving public access to federal court 
records.
    Many systems have also been developed through the energy and 
creativity of AO-court partnerships. Probation and pretrial services 
officers who, as I noted earlier, supervise well over 100,000 persons, 
have started using the Probation and Pretrial Services Automated Case 
Tracking System-Electronic Case Management (PACTS-ECM), which in 2002 
went live in 17 districts. It is a comprehensive system designed to 
help probation and pretrial services officers by making offender case 
information more easily accessible. The system electronically 
generates, stores, and retrieves investigation and supervision case 
information, and provides digital images of offenders. It also has 
remote capabilities to allow officer access while in the field. The 
PACTS-ECM system is an invaluable resource as the number of offenders 
released from Federal prison who are serving terms of supervised 
release continues to escalate.
                               conclusion
    Mr. Chairman, Members of the Subcommittee, I do not believe that 
any one agency in the executive branch or the legislative branch offers 
the broad range of services and functions that the AO provides to the 
federal courts. However, in the interest of time and the particular 
focus of this hearing, I have tried to limit my testimony to our fiscal 
year 2004 budget request and the role of the AO in enhancing judicial 
security and ensuring the safe and uninterrupted delivery of justice. 
We take our responsibilities and service to the courts seriously and 
are always looking for ways to improve. I ask your support in 
accomplishing this by granting the increase the AO is seeking for 
fiscal year 2004. Thank you.
                                 ______
                                 

   Prepared Statement of the Honorable John G. Heyburn II, Chairman, 
   Committee on the Budget, Judicial Conference of the United States

                              introduction
    Chairman Gregg, Senator Hollings, Members of the Subcommittee, 
thank you for giving me the opportunity to present the judiciary's 
fiscal year 2004 budget request.
    Before addressing our fiscal year 2004 request, on behalf of the 
entire judiciary, I want to express our appreciation for the funding 
levels provided to the judiciary for fiscal year 2003. We understand 
the difficult decisions and concerns that you faced, and will continue 
to face, balancing the needs of the newly-established Department of 
Homeland Security, the ongoing war against terrorism, the war in Iraq, 
and the funding needs of numerous domestic entities, while trying to 
hold down spending. Although we did not get all the funding we 
requested, we are very grateful that you and your dedicated staff 
worked with us to fund the judiciary's most pressing needs.
                            budget overview
    The budget request the judiciary has submitted for fiscal year 2004 
is that which is necessary to maintain our current staff and operations 
and to allow the courts to handle growing workload and other critical 
needs. The appropriations request is 10.8 percent over the available 
appropriations for fiscal year 2003. We realize that this request is 
higher than the 3.8 percent increase requested for discretionary 
spending, with the exception of homeland security, in the President's 
Budget. Although we are mindful of the need for fiscal restraint, now 
more than ever a strong judiciary is critical to the protection of our 
citizens. Threats to homeland security potentially involve civil or 
criminal actions that will require court orders and adjudication in 
this nation's courts.
    For all judiciary accounts, we are requesting a $530 million 
increase in appropriations over the enacted appropriations for fiscal 
year 2003. Nearly two-thirds of this requested increase ($338 million) 
is required to maintain current operations with pay and benefit 
adjustments, inflationary adjustments, increases in GSA space rental 
costs, an increase in filled Article III judgeships, and continued 
security measures. The remainder ($192 million) is primarily to provide 
for the programmatic and workload-related needs such as high-profile 
terrorist trials, the unprecedented numbers of bankruptcy filings, and 
significant increases in the probation and pretrial services workload 
as criminal filings continue to rise and as the number of offenders 
released from prisons into our communities with a need for drug and 
mental health treatment steadily increases. A detailed explanation of 
our fiscal year 2004 request is included as an appendix.
                         protection of freedom
    In these uncertain times, with our nation's safety and freedom 
threatened as it has never been before, our three branches of 
government must work together to protect the safety of our citizens and 
our heritage of freedom. A strong, independent federal judiciary, 
providing equal justice to all, is at the heart of what this nation 
stands for. As Chief Justice Rehnquist noted in his 2002 year-end 
report on the federal judiciary, there is a fundamental interdependence 
of our three separate branches of government when it comes to funding 
our nation's priorities, and we look to the Legislative and Executive 
Branches for support, funding and staffing.
                           workload increases
    The workload asked of the judiciary is truly uncontrollable, 
whether it is processing criminal, civil, or bankruptcy cases; or 
providing jury services, supervision and treatment of defendants and 
released felons, or representation to those financially unable to 
obtain private counsel. The judiciary has no major program which can be 
cut or deferred, only the people who provide those services, the 
systems that support them, and the facilities that house them. 
Therefore, when funding is reduced, the only place the reduction can be 
taken is in the staff and the supporting systems that perform those 
essential services.
    While we are not at a point where I would use the term crisis, I am 
very concerned about certain workload indicators that I believe are 
heading in the wrong direction, likely as a result of resource 
shortfalls.
    Pending criminal and bankruptcy cases have grown by 38 percent and 
17 percent respectively between 1998 and 2002. This means that the 
number of cases terminated is less than the number of new cases filed. 
The number of judges and court staff has not kept pace with the growth 
in caseload, and a disturbing argument could be made that this lack of 
judicial resources has resulted in a growth in backlogs.
    I am also concerned about our law enforcement function, probation 
and pretrial services. The caseload in these offices has grown by 
approximately 16 percent between 1998 and 2002. That in itself is 
significant, but in addition, the nature of their work has also 
changed. Officers are supervising more hardened offenders as evidenced 
by their more extensive criminal histories and the 67 percent increase 
in the average prison sentence. Furthermore, over this same time period 
the number of offenders with mental health conditions has grown by 81 
percent, and the number with substance abuse problems has grown by 48 
percent. While the number of officers has kept pace with the growth in 
the overall number of cases during this period, there has been no 
increase associated with the increased risk presented by these cases. 
Within the same relative level of staffing, our probation and pretrial 
services officers must devote a higher level of supervision to the more 
hardened criminals and those with drug abuse and mental health issues, 
which means they must devote less time to their other cases. On the one 
hand, I applaud them for prioritizing limited resources to the more 
complex cases, but on the other hand, I am concerned that the level of 
supervision of their other cases could pose a higher risk to the 
community in the long run.
    The courts experienced record workload increases in fiscal year 
2002. Bankruptcy filings grew 8 percent, civil filings in the U.S. 
district courts climbed 10 percent, criminal cases rose 7 percent, and 
the number of persons under probation supervision and supervised 
release as well as the defendants in the pretrial services systems each 
increased by 4 percent.
    As we look to what the future will bring, we note that in 
Conference report on the fiscal year 2003 appropriations, additional 
funds were provided to the U.S. Attorneys ``to aggressively prosecute 
cases of corporate fraud'' and the funding provided to the FBI included 
increases to combat violent crime and white collar crime. And, the 
Bureau of Prisons inmate population has reached an all-time high of 
165,000. Approximately 80 percent of these prisoners will be released 
to the community and will be under the supervision of probation 
officers at the completion of their sentences.
    These are just a few of the indicators that point to continued 
increases in workload for the federal judiciary. In fiscal year 2003, 
because of limited funding, we will be unable to provide for the full 
complement of staffing required to meet the workload requirements. I 
urge the Subcommittee, as you determine your funding priorities in this 
constrained environment, to consider providing the federal courts with 
the resources required to perform the very important functions assigned 
to them by the Constitution and the Congress. Without the funding 
increases needed to address growing workload, I believe the judicial 
system, and those who depend on it to resolve disputes, will begin to 
suffer.
                              judicial pay
    The need to increase judicial pay continues to be one of the most 
pressing issues facing the judiciary. Federal judicial salaries have 
lost 23.5 percent of their purchasing power since 1969, while during 
this same time period private sector wages have increased by 17.5 
percent. More than 70 Article III judges, all of whom have life-time 
appointments, left the bench between 1990 and February 28, 2003--either 
under the retirement statute if eligible or simply resigning--as did a 
number of bankruptcy and magistrate judges. Another judge resigned at 
the end of February, and two more judges have announced their intention 
to retire from federal bench later this year. During the 1960s only a 
handful of Article III judges retired or resigned. Many judges no 
longer take senior status and we are losing their valuable 
contributions as they seek private sector employment and compensation. 
A study of 1999 data indicated that senior judges participated in 15 
percent of appeals and presided over nearly 20 percent of trials.
    Recently, the report of the National Commission on the Public 
Service, also called the Volcker Commission, supported the need to 
address this issue. In its final report, the Commission said, ``The lag 
in judicial salaries has gone on too long, and the potential for 
diminished quality in American jurisprudence is now too large. Too many 
of America's best lawyers have declined judicial appointments.'' The 
salary differential when compared with the legal education profession 
has become quite dramatic. In 1969, the salaries of district court 
judges had just been raised to $40,000 while the salary of the dean of 
Harvard Law School was $33,000 and that of an average senior professor 
at the school was $28,000. That relationship has now been erased. The 
salaries of professors and deans at the twenty-five law schools ranked 
highest in the annual U.S. News and World Report survey found that the 
average salary for deans of those schools was $301,639. The average 
base salary for full professors at those law schools was $209,571, with 
summer research and teaching supplements typically ranging between 
$33,000 and $80,000. This compares with a district court judge's salary 
of $154,700. The Volcker Commission's report stated, ``Judicial 
salaries are the most egregious example of the failure of federal 
compensation policies. . . . Unless this is revised soon, the American 
people will pay a high price for the low salaries we impose on the men 
and women in whom we invest responsibility for the dispensation of 
justice''. The Commission expressed similar concerns about the 
inadequacy of congressional and executive salaries and recommended, 
``Congress should grant an immediate and significant increase in 
judicial, executive, and legislative salaries to ensure a reasonable 
relationship to other professional opportunities.''
    I know that to address this issue requires a broad Congressional 
consensus. Nevertheless, this Committee can take a small, but vital 
step in the right direction by including the funding for the annual ECI 
adjustment for judges in this bill.
                             new judgeships
    Despite the substantial increase in workload, there has not been a 
major judgeship bill creating additional Article III judges since 1990 
or a bankruptcy judgeship bill since 1992. We are grateful for nine 
district judgeships added in the fiscal year 2000 appropriation, the 
ten additional district judgeships added in the fiscal year 2001 
appropriation, and the 15 additional permanent and temporary district 
judgeships Congress authorized in November 2002 as part of the 
Department of Justice authorization act. However, the need for 
additional appellate, district and bankruptcy judges is critical. For 
example, in 1992, when the last bankruptcy judgeships were created, 
each bankruptcy judge handled an average of 2,998 cases; each now 
handles an average of 4,777 cases. Likewise, appellate and district 
judges are handling more cases. We hope that you will support and 
provide funding for the Judicial Conference requests to create 57 
additional Article III judgeships and 36 bankruptcy judgeships.
                          court support staff
    The court support staff are the backbone of court operations. From 
intake to disposition, it is the clerk's staff, along with the pretrial 
services and probation officers who keep the wheels of justice running 
smoothly. In order to ensure that resources are distributed as required 
by workload, the judiciary has developed scientifically-derived 
staffing formulas to construct the budget request and to allocate funds 
to the clerks' offices and to the probation and pretrial services 
offices. As filings and other workload factors fluctuate from year to 
year, the application of the formulas to the individual court units 
provides a corresponding increase or decrease in funding. This ensures 
the equitable allocation of resources to meet workload requirements.
    For the duration of the Continuing Resolutions this year, the 
clerks' offices and probation and pretrial services offices were held 
to a spending level significantly below the fiscal year 2002 
allotments, which put a major strain on the staffs. Most offices were 
unable to fill critical vacancies, and were anticipating the 
possibility of RIFs and furloughs. We are grateful for the fiscal year 
2003 appropriation, which will allow the courts the funding necessary 
to maintain a current services level of operations for the remainder of 
the year. However, it will not allow us to fully fund the formulas that 
provide for the staff necessary to keep pace with steadily growing 
workload. The gap between required staff levels and funded staff levels 
continues to grow.
                    probation and pretrial services
    Federal probation and pretrial services officers protect the public 
through the investigation and supervision of defendants and released 
offenders within the federal criminal justice system. Pretrial services 
officers investigate the backgrounds of defendants charged with a 
federal crime, recommend in a report to the court whether to release or 
detain a defendant, and supervise those who are released to the 
community while they await their day in court. The probation officer 
enters the scene upon a finding of guilt, investigating the offender to 
provide the court with a presentence report, and supervising all 
offenders conditionally released to the community. As an example of the 
dedication of these officers and the difference they make in our 
communities I would like to tell you a success story that took place in 
the Eastern District of Virginia.
    ``JB'' began his three-year term of supervised release after 
serving time at the Federal Correctional Institution in Butner, North 
Carolina on a conviction for making bomb threats. He had a long-
standing history of mental health problems characterized by anger, 
suspicion, paranoia, and aggressiveness. The FBI, the local police 
department, and JB's former employer--the target of JB's bomb threats--
were extremely anxious about JB's release because of his unstable 
mental condition.
    Supervision in this case became difficult even before release. JB's 
request to relocate to his hometown in the Middle District of North 
Carolina was turned down because he had sent numerous threatening 
letters to his parents. With no acceptable release plan, he was to be 
released to Richmond--where he had no ties and where his former 
workplace was located.
    A senior Probation Officer (PO) in Virginia Eastern initiated 
contact with JB before he was released. She established and maintained 
contacts with local law enforcement, corporate security for the victim, 
and the probation office in the Middle District of North Carolina. She 
found JB temporary housing and placed him in treatment. She also began 
a close collaboration with the Richmond Behavioral and Health 
Authority, where JB was to participate in a program for homeless people 
in need of mental health treatment. This community resource provided 
the medication and treatment necessary to stabilize JB's mental 
condition and helped him with housing and job placement.
    The PO met with JB within 30 minutes of his release from custody. 
She conducted a thorough initial interview and gave him clear, detailed 
instructions as to what he was to do next. After that first contact, 
the PO closely monitored JB, speaking with him by telephone daily, when 
necessary. With each change of residence or job, the PO made a prompt 
on-site inspection and added new landlords and employers to her list of 
collateral contacts.
    Because the PO monitored JB's case very closely, she was able to 
identify potential danger signals and intervene quickly before a crisis 
arose, and to clarify what she expected of JB in each change of 
circumstance. She reinforced her expectations of him by using a blend 
of explanations, warnings, and incentives. For example, when JB took up 
photography as a hobby, the PO first set clear limits for this 
potentially intrusive activity. She then both monitored JB's work and 
complimented his growing skill. The PO also helped JB deal with the 
requirements of managing an independent life--serving as case manager 
and service broker with mental health counselors, employers, landlords, 
Social Security Administration officials, and family members. She 
encouraged JB in his successes and consoled him in his disappointments, 
while--within the bounds of confidentiality--also keeping her law 
enforcement and corporate security contacts informed of his activities 
and progress.
    As a result of these efforts, JB got a job at a local YMCA, where 
he became a productive, well-liked employee and served as their 
unofficial photographer. He became stabilized on medication and began 
receiving monthly social security disability benefits. JB occasionally 
visited his hometown, under the supervision of the North Carolina 
Middle probation office, and his relationship with his family improved 
so much that the district accepted him for courtesy supervision.
    When JB ended his term of supervised release, he was stable, back 
in his hometown with his family, equipped with a new skill, and able to 
support himself. The PO and the collateral network she developed 
provided the structure, control, treatment, and support necessary for 
JB to succeed and for the public to remain safe. Her efforts laid the 
foundation for JB's continued success in the future.
    Helping past offenders avoid becoming repeat offenders, while 
protecting the community, is the primary goal of supervision. With 
insufficient staffing resources and limited funds for programs that 
help offenders become productive members of our communities, we 
increase the risk to those communities.
    Persons under supervision have increased by 16 percent since 1998. 
More growth is expected for fiscal years 2003 and 2004. Further, the 
level of danger posed by many of those under supervision and their 
attendant drug and mental health problems has soared.
                           defender services
    Defender Services is also affected by the increase in criminal 
cases and the number of terrorist trials. In addition to the projected 
growth in representations in fiscal year 2004, the current projections 
for fiscal year 2003 exceed the funding provided. This means that some 
panel attorney payments likely will have to be deferred into fiscal 
year 2004, further raising the requirements for that year.
    We are grateful for the panel attorney rate increase to $90 per 
hour provided in fiscal year 2002. This was the first significant raise 
in private panel attorney hourly rates in most judicial districts since 
1986, and it was badly needed. The judiciary is collecting information 
in response to the Committee's questions about the extent to which the 
new rate has solved problems in obtaining adequate counsel for Criminal 
Justice Act (CJA) representation. However, even in a district where the 
$90 rate may now allow a court to obtain qualified counsel to accept 
CJA appointments, lawyers are accepting the cases at a significant 
financial sacrifice which ultimately will not bode well for the 
criminal justice system.
    To ensure that the panel rates do not further decline, in real 
terms, below the rates envisioned by the CJA, the Judicial Conference 
again has requested that the Congress raise the rate to $113 per hour. 
Even at $113 per hour, CJA counsel, who provide representation 
guaranteed by our Constitution, would be underpaid compared to rates 
paid by many federal agencies to private lawyers. In a survey of hourly 
rates paid to private counsel by government agencies conducted in 2001, 
the General Accounting Office found that the average hourly fees paid 
to private counsel ranged from $125 to $357, depending on the agency 
and the type of legal services. In addition, the average hourly billing 
rate charged by privately retained counsel, according to The 2002 Small 
Law Firm Economic Survey (Altman Weil, Inc.), is approximately $190 for 
sole practitioners and partners in small law firms. The judiciary and 
panel attorneys understand that CJA hourly rates were not intended to 
match those that lawyers charge their private clients. It is the 
judiciary's view that panel attorneys' compensation should cover 
reasonable overhead and a fair hourly fee, which warrants raising the 
CJA rate to $113.
    In deciding to continue to seek a nationwide $113 hourly rate for 
fiscal year 2004, the judiciary considered the possibility of proposing 
geographic-based rates. In addition to the reasons supporting a $113 
rate, the judiciary took note of several factors regarding geographic-
based rates, including that the cost of living in an area is not the 
only factor in a court's ability to recruit and retain qualified 
attorneys to accept CJA appointments. For example, in a low-cost rural 
area where there is a minimal retained federal criminal practice and a 
limited pool of lawyers with federal criminal defense experience, a 
higher rate may be needed in order to provide sufficient incentive for 
attorneys to invest the time required to develop the necessary 
expertise and to then be willing to take on a substantial portion of 
the CJA caseload. The judiciary will continue to examine options, such 
as geographic-based rates, in developing its future funding requests.
    We are also requesting, for the first time, an increase in the 
maximum hourly rate to $157 for panel attorney compensation in capital 
cases. The $157 hourly rate represents the $125 rate adjusted for the 
cumulative cost-of-living adjustments provided for in the Antiterrorism 
and Effective Death Penalty Act of 1996. Counsel accepting appointments 
to capital cases typically are sole practitioners or are from small, 
independent firms, which do not have other attorneys willing or able to 
subsidize the cost of the CJA work. The amount of time that the 
attorneys need to devote to these capital cases is so extensive that it 
is generally impossible for the attorneys to handle other cases 
concurrently. The current maximum capital hourly rate of $125 is 
significantly below the market rates charged by lawyers for providing 
representation in comparable high-stakes, complex, and time-consuming 
cases. An increase would be the first in the maximum rate for capital 
cases since it was set statutorily in 1996. The cost of this increase 
is only $2.9 million. We urge you to consider it.
                             court security
    We appreciate your continued support of our Court Security program 
and understand your concerns regarding budget administration and 
oversight of the program. This is a unique account--appropriated to the 
judiciary but primarily managed by the Department of Justice. The 
safety of the public, litigants, attorneys, jurors, judges, court staff 
and others in the judicial process is of primary concern to us, and we 
are fully committed to working with the USMS to make sure that the 
program is successful and that the resources you provide are managed in 
the most efficient and effective manner. You have directed the USMS to 
conduct a study on the management of this program, and we respectfully 
ask that the judiciary be involved actively in this study since the 
mission of the program is so important to us.
    In these troubled times when courthouses are such visible targets 
for terrorists, our Court Security program is more critical than ever. 
Court Security Officers (CSO) and security systems are key aspects in 
providing physical security to the courts. Statistical data provided by 
the USMS indicates that our security process detected 641,489 weapons 
such as guns, knives, and other items prohibited in courthouses in 
fiscal year 2002. The USMS also reported the detention or arrest of 16 
persons related to security breaches in courthouses during the year. I 
will share with you a few stories illustrating the vigilance and 
professionalism of our CSOs.
    In October of 2002, in the district of Colorado, a CSO intercepted 
an individual attempting to gain entrance into the courthouse with a 
.380 caliber automatic handgun concealed in a leather carrying case. 
The individual was also in possession of a loaded magazine. The 
individual was taken into custody.
    In December of 2001 in the Federal Courthouse and Post Office in El 
Dorado, Arkansas, two CSOs noticed a man in the Post Office lobby with 
a gun and badge. Although it is a reasonably large city, one of the 
CSOs recognized this man as an individual who some years before had 
been in court for a civil charge and was considered to have mental 
health problems. The two CSOs approached him and had to fight him to 
the floor. The individual had a fake badge and a real gun. He was 
apprehended, charged and found guilty of several charges including 
carrying a weapon into a federal building.
    In February of 2002, an individual used a hammer to shatter the 
glass in the front entrance door of the U.S. Federal Building at 
Beckley, West Virginia. Two CSOs quickly subdued this individual and 
restrained him until he was taken into custody by the U.S. Marshals 
Service.
    During a court session in the Southern District of Ohio a prisoner 
attempted escape. The prisoner was able to get out of the courtroom and 
almost out the front door, but two CSOs tackled and apprehended him at 
the front entrance.
    We appreciate your increased support and funding for this program. 
While we recognize the practical reasons for transferring the 106 
supervisory deputy marshal positions, approved by Congress in the 
fiscal year 2002 supplemental appropriation, to the USMS in fiscal year 
2003, these positions are a linchpin to effective security of our 
courthouses, and we look for your support to ensure that they will 
continue to be dedicated to courthouse security, and to our 
participation in the study on the management of the Court Security 
program.
               cafeteria-style employees benefits program
    For the past several years, the judiciary has been a leader in 
offering enhanced benefits to employees. Long-term care was introduced 
in 1999, followed by the existing flexible benefits plan, introduced in 
fiscal year 2000, which offers pre-tax benefits such as flexible 
spending accounts for health care, dependent care, payment of health 
insurance premiums, and commuter reimbursement. The judiciary was able 
to implement these benefits within the existing statutory framework and 
without requiring additional funds. We would like to do more for our 
employees to stay competitive in an era when skilled workers change 
jobs frequently. This is especially important to the judiciary as the 
work force of tempered professionals reaches retirement age and we are 
looking to maintain a qualified, stable work force. We cannot continue 
to be competitive in the employment market with substandard benefits, 
and so we are seeking legislation and funding to establish a cafeteria-
style benefits program that would be funded in part by a modest per-
employee contribution by the judiciary. The combined employee and 
employer contributions could eventually be used to purchase benefits 
from a menu of choices such as dental insurance, vision insurance, 
leave conversion, expanded commuter subsidies, short-term and long-term 
disability, and prescription drug insurance and mental health insurance 
to plug gaps in the Federal Employees Health Benefits (FEHB) programs. 
Benefit programs like these are common in state governments, the 
private sector, and other federal agencies such as the Federal Reserve, 
Federal Deposit Insurance Corporation, Comptroller of the Currency and 
the Postal Service--entities with which we compete for professional 
staff.
    Although the House passed the Federal Courts Improvement Bill with 
the needed authorization allowing us to use appropriated funds and/or 
fees to help defray the cost of providing these supplemental benefits, 
the Senate failed to act on the measure during the 107th Congress. 
However, in anticipation of the enactment of legislation in fiscal year 
2003 allowing flexible cafeteria-style benefits to be offered in the 
judiciary, we are including a request for $15.9 million, hoping to 
begin implementing the program in fiscal year 2004.
               contributions of the administrative office
    The Administrative Office of the United States Courts serves as the 
central support agency for the federal courts, with key responsibility 
for judicial administration, policy implementation, program management, 
and oversight. The Administrative Office (AO) not only performs 
important administrative functions such as personnel, payroll, 
procurement, space management and planning, and accounting, but also 
provides a broad range of legal, financial, management, program, and 
information technology services to the courts. The AO's staff has been 
essentially frozen for ten years, while its work has expanded to 
support the courts.
    In the wake of the tragic events of September 11 and the anthrax 
mail situation, the AO has been working to provide additional guidance 
on security and emergency preparedness to the courts. The Director 
established a permanent Judiciary Emergency Preparedness Office to 
focus on crisis response, occupant emergency planning, and continuity 
of operations planning. Following the anthrax mail contamination 
crisis, the AO provided advice and contract support to test for anthrax 
and address mail handling concerns at courts across the nation. To 
avoid future contaminated mailings, the AO began using e-mail 
broadcasts, facsimile transmissions, and more extensive posting to our 
intranet site, the J-Net, to deliver information to the courts.
    With the help of an independent consultant, prototype Continuity of 
Operation Plan (COOP) templates and instructional materials have been 
developed for each court type based on the actual COOP plans for the 
U.S. Court of Appeals for the Second Circuit and the District and 
Bankruptcy Courts for the Southern District of New York. Templates and 
checklists about emergency preparedness have been made available on the 
Emergency Preparedness Office's J-Net website.
    The Director created a project team to assess the feasibility of 
establishing a Court Operation Support Center (COSC) outside downtown 
Washington, DC to address the vulnerability of key administrative and 
technical support to the courts. The primary objective of an off-site 
COSC is to ensure that support to the courts would continue 
uninterrupted in the event the Thurgood Marshall Federal Judiciary 
Building is rendered inaccessible. We intend to provide telework 
opportunities for judiciary employees at this facility as well. We are 
grateful for your endorsement of the COSC in the conference report on 
the fiscal year 2003 appropriations.
    As courts are facing more highly publicized and security-sensitive 
criminal proceedings, the AO has been providing support and advice to 
the courts on a wide range of issues from heightened security concerns 
to information technology, and furnishing closed-circuit broadcasts of 
the proceedings to victims' families.
    Working with the courts to ensure the efficient and effective use 
of resources is a key AO function. In fiscal year 2001, a Management 
Oversight and Stewardship Handbook was published and training on 
management oversight was provided to chief district judges and chief 
bankruptcy judges. In 2002, a companion program was launched for court 
executives. The AO has held two of the six planned workshops of the new 
training program, Management in the Judiciary: The Rules, Tools and 
Tips of Good Stewardship.
    The fiscal year 2004 budget request for the AO is $70,584,000, 
representing an increase of $7,497,000, or 11.9 percent above the 
fiscal year 2003 available appropriation. More than three-fourths of 
the requested increase is necessary to support adjustments to base, 
mainly standard pay and general inflationary increases, as well as 
funding to replace a lower level of fee carryover with appropriated 
funds. Of the remaining $1,655,000 increase, $958,000 is requested to 
provide nine additional FTE for program and security oversight. The 
staffing level in the AO has remained essentially the same over the 
last ten years, while court staffing has grown by 15 percent during the 
same time period.
    I urge the Committee to fund fully the AO's budget request. The 
increase in funding will ensure that the AO continues to provide 
program leadership and administrative support to the courts, and to 
lead the efforts for them to operate efficiently.
              contributions of the federal judicial center
    The Federal Judicial Center is seeking a modest 8.3 percent 
increase over its current appropriation. The Center is the federal 
judiciary's education and research arm. Its support is vital to the 
work of federal judges and the personnel of the courts.
    Judge Smith will return to California later this year to resume her 
duties as a U.S. district judge. All of us in the judiciary are 
grateful to her and to the Center for its contributions under her four 
years of leadership.
    With Judge Smith, I thank you for last year's increase for the 
Center, including the confirmation that the funds transferred in 2002 
are part of its base budget and available to support some of the 
distance education positions that it has requested for several years.
    A main element of the increase that the Center seeks in 2004 would 
restore its basic judicial education programs to a twelve-month cycle, 
rather than the current eighteen-month cycle. Having to go a year and a 
half between continuing education programs has been a matter of great 
concern to judges over the country. These programs provide updates on 
caselaw trends, on innovations in managing cases, and on such 
specialized topics as admissibility of scientific evidence. 
Furthermore, we can share notes with colleagues from other courts as 
well as with the excellent faculty that the Center assembles.
    I want also to recognize the importance of the Center's research, 
primarily for committees of the Judicial Conference, as detailed in 
Judge Smith's statement, and the Center's education to enhance 
management skills in the federal courts. I participated last fall in a 
Center program for new chief judges and unit executives, and it has 
helped me immensely. Center programs also provide a forum to stress the 
importance of economy in administration, which I did earlier this week 
when speaking at a Center conference for the clerks and chief deputies 
of the courts of appeals and the clerks of the bankruptcy appellate 
panels. Last October I provided similar guidance on fiscal realities 
and responsibility when making a presentation at a Center workshop for 
the clerks and chief deputies of our federal district courts.
    Center programs for our clerk's offices and our probation, and 
pretrial services offices, almost all of it by satellite and on the 
Web, has never been more important for court executives who must deal 
with employee unease and insecurity in these troubled times. Its 
importance highlights the need for the educational technology positions 
the Center requests.
    I believe the Center's request deserves the committee's support and 
urge favorable action on the full amount.
                               conclusion
    Chairman Gregg and Members of the Subcommittee, this concludes my 
statement. I look forward to working with you as you work to develop 
the fiscal year 2004 appropriation bill for the Judiciary.

                                Appendix

                                summary
    The fiscal year 2004 appropriation request for the Courts of 
Appeals, District Courts and Other Judicial Services totals 
$5,175,878,000, an increase of $540,200,000, or 11.7 percent, over the 
fiscal year 2003 available appropriations. In addition to appropriated 
funds, the judiciary utilizes other funding sources to supplement our 
appropriations including fee collections, carry forward of fee balances 
from a prior year, and the use of no-year funds. When all sources of 
funds are considered, the increase in obligations for fiscal year 2004 
is only $429,435,000 or 8.5 percent.
    Of the $540,200,000 increase in appropriations, 66 percent 
($357,481,000) is adjustments to the fiscal year 2003 base associated 
with standard pay and other inflationary increases as well as other 
adjustments that will allow the courts to maintain current services in 
fiscal year 2004. The remaining 34 percent ($182,719,000) is needed to 
respond to increased requirements for magistrate judges, federal 
defender offices, security, drug and mental health treatment, and to 
fund additional court staff required to process growing workload. The 
request for the principal programs are summarized below.
Salaries and Expenses
    The salaries and expenses of circuit, district, and bankruptcy 
courts and probation and pretrial services offices account for most of 
our request. A total of $4,467,930,000 in obligations is required for 
this account, including funding for the Vaccine Injury program, in 
fiscal year 2004. Funding totaling $276,285,000 is expected to be 
available from other sources including fee collections and carryforward 
balances to fund S&E requirements. This leaves an appropriation need of 
$4,191,645,000, which is $411,864,000 above the fiscal year 2003 
available appropriation.
    Of the $411,864,000 increase, 61 percent ($249,697,000) is needed 
to fund adjustments to the fiscal year 2003 base including: pay and 
benefit increases for judges ($12,563,000); increases in the number of 
filled Article III judges, senior judges, magistrates judges 
adjustments, and the filling of vacant Special Masters to handle 
vaccine injury cases ($13,725,000); pay and benefit increases for court 
support and probation and pretrial services staff ($95,327,000); 
increases necessary to maintain fiscal year 2003 staffing levels and 
automation support because of a reduction in non-appropriated funding 
($30,571,000); increases for space rental and associated costs 
($60,084,000); inflationary increases for operating costs 
($12,339,000); increases to support existing and newly installed 
automated systems and to continue development of new information 
technology systems ($17,934,000); and increases for maintenance of 
telecommunications systems and systems for new space coming on-line 
($7,154,000).
    The remaining 39 percent ($162,167,000) will fund 10 additional 
magistrate judges and their staff to help Article III judges handle the 
growing volume of civil and criminal cases facing the courts 
($4,119,000); 807 court support FTEs to address the shortfall in the 
level of staffing and operating costs funded in fiscal year 2003 
($97,025,000); 427 court support FTEs for a net increase in workload in 
fiscal year 2004 ($28,200,000); a cafeteria-style flexible benefits 
program for employees to reduce turnover and attract high quality new 
hires ($15,886,000); increased mental health and substance abuse 
treatment for projected growth in the number of offenders and 
defendants under supervision requiring this treatment ($7,369,000); 
annual recurring costs of the judiciary's off-site operations support 
center ($3,495,000); additional funding for the installation of 
courtroom audio systems during the construction of new courthouses 
($4,384,000); and funding for background investigations for probation 
and pretrial services officers and officer assistants, and for court 
staff in sensitive positions ($1,689,000).
Defender Services
    An appropriation of $635,481,000 is required for the Defender 
Services program to provide representation for eligible criminal 
defendants in fiscal year 2004. This is an increase of $100,520,000 
above the available fiscal year 2003 appropriation.
    Of this increase, 86 percent ($86,909,000) is needed for 
adjustments to the fiscal year 2003 base for inflationary and workload 
increases. Included in these adjustments are standard pay and inflation 
increases for Federal Defender Organizations ($14,002,000); a cost-of-
living adjustment for panel attorneys ($1,247,000); other inflationary 
increases ($2,149,000); increase in the projected number of 
representations ($36,923,000); funding to maintain base caseload costs 
($33,188,000); and a reduction in non-recurring costs (-$600,000).
    The remaining increase of 14 percent ($13,611,000) will fund an 
increase in the hourly panel attorney rate for non-capital cases, above 
the inflationary adjustment, to $113 beginning on April 1, 2004 
($10,378,000); an increase in the hourly panel attorney rate for 
capital cases, beyond the inflationary increase requested, to $157 
effective on April 1, 2004 ($2,633,000); and start-up costs of two new 
federal defender offices expected to be opened in fiscal year 2004 
($600,000). The Congress and the Judicial Conference have urged us to 
establish more federal defender organizations as an alternative to 
using panel attorneys in districts where this would be appropriate.
Fees of Jurors and Commissioners
    For the Fees of Jurors program, an appropriation of $53,181,000 is 
required, a decline of $1,100,000 from the fiscal year 2003 available 
appropriation. This decline is the result of a decrease in the 
projected number of juror days (-$1,447,000); and an increase for 
inflation ($347,000).
Court Security
    For the Court Security program, an appropriation of $295,571,000 is 
required, which is an increase of $28,916,000 above the fiscal year 
2003 available appropriation. Of this increase, 76 percent 
($21,975,000) is for adjustments to base including: an increase for 
standard pay, benefit and contractual services inflation ($13,237,000); 
an increase to annualize the costs for 10 new court security officers 
(CSOs) partially funded in fiscal year 2003 ($290,000); non-pay 
inflationary increases ($303,000); an increase of 26 court security 
officers for new or existing courthouse space ($980,000); and an 
increase for the cyclical replacement of security systems and equipment 
($7,165,000).
    The remaining increase of 24 percent ($6,941,000) will fund 
security systems and equipment for perimeter security, CSO radio 
repeater installations, and systems in probation and pretrial services 
offices ($6,072,000); CSO orientation training and contracting officer 
training for staff who administer the CSO contract ($550,000); and four 
additional FTE to administer the Court Security Program at the U.S. 
Marshals Service to improve program oversight and administration 
($319,000).
                                 ______
                                 

  Prepared Statement of Gregory W. Carman, Chief Judge, United States 
                      Court of International Trade

    Chairman Gregg, Senator Hollings, and Members of the Subcommittee: 
thank you once again for allowing me this opportunity to submit this 
statement on behalf of the United States Court of International Trade, 
which is a national trial-level federal court established under Article 
III of the Constitution with exclusive nationwide jurisdiction over 
civil actions pertaining to matters arising out of the administration 
and enforcement of the customs and international trade laws of the 
United States.
    The Court's budget request for fiscal year 2004 is $14,206,000, 
which is $519,000 or 3.8 percent over the fiscal year 2003 enacted 
appropriation of $13,687,000 and an increase of $597,000 or 4.4 percent 
over the level after the rescission imposed by Congress. This request 
will enable the Court to maintain current services and provide for 
standard pay and other inflationary adjustments to base. The Court's 
budget request included a small program increase of $50,000 to upgrade 
its security recording system to a digital system that will increase 
the accuracy and reliability of its current system, while, at the same 
time enhancing its internal and external surveillance capabilities. The 
requested increase, however, was included in the recently enacted 
Wartime Supplemental Appropriation Bill and will allow us to move 
forward with this security upgrade during fiscal year 2003. The Court 
continues, as it has done for the past nine years, to hold its 
requested budget increases below 6 percent.
    In response to several studies conducted by GSA and the U.S. 
Marshals Service, and in the wake of September 11th, the Court, in 
fiscal year 2002, requested and received funds for an architectural 
analysis of the structure of the Courthouse in order to determine the 
vulnerability of the facility in case of a bomb blast and/or a 
terrorist attack. As a result of this analysis, the Court, using other 
funds from its fiscal year 2002 appropriation, asked the contractor for 
recommendations as to the feasibility of modifying the existing 
building in a manner that would ensure the health, security and 
effective operation of the Court. The contractor's final report was 
completed at the beginning of fiscal year 2003. Specific 
recommendations were made that would make the courthouse less 
vulnerable and safer for the Judges, the employees and the public. The 
Court is working closely with all relevant agencies to obtain 
appropriate funding for the implementation of the needed modifications 
to the building.
    In accordance with its Long Range Plan, the Court continues to 
upgrade its technology infrastructure and expand staff development 
programs in the areas of technology and job related skills without 
requesting additional funds. The Court is in the process of completing 
the implementation of a customized version of the Federal Judiciary's 
Case Management/Electronic Case Files (CM/ECF.) System and the related 
file tracking, scanning and indexing solutions. The upgrading of the 
wiring of its data network and voice connections will be completed in 
fiscal year 2003. This upgrade will greatly increase the Court's access 
to the Judiciary's Data Communications Network (DCN), improve data 
speeds and enable the Court to address its current and future 
telecommunications needs. Additionally, the Court has installed its own 
frame relay connections for direct access to the DCN and a separate 
frame relay connection that enables the Court to host public access 
systems, such as its Internet Website. In fiscal year 2003, the Court 
will purchase a Virtual Private Network System (VPN) that will provide 
high speed remote access to Court systems by the Judges and Court 
employees working at remote locations. As in the past, the Court will 
continue to use its Judiciary Information Technology Fund for the 
cyclical replacement of aging desktop and server based hardware 
systems.
    In fiscal year 2004, the Court remains committed to ensuring that 
the Court's technology infrastructure will continue to support its 
short and long term needs, thereby permitting the Court to operate 
efficiently and effectively. Among the projects to be supported by the 
Court's budget request and the carryforward balance from its Judiciary 
Information Technology Fund are: (1) supporting the Court's Case 
Management/Electronic Case Files (CM/EC) System; (2) expanding, 
improving and supporting the Court's remote access capability; (3) 
supporting a windows-based financial management system; (4) improving 
the Court's disaster recovery capabilities; (5) supporting new software 
applications that not only enable Judges and Court staff to view 
instructional videos at individual workstations, but integrates the 
Federal Judiciary's Training Network with the Court's local area 
network; (6) upgrading the Court's networked records management and 
tracking system for all case records; and (7) upgrading and supporting 
the online library automation system that enables the Judges and Court 
staff to search electronically for books and resource materials in the 
Court's Library collection.
    Additionally, the fiscal year 2004 request will enable the Court to 
continue its cyclical maintenance program of the Court's facilities, 
including the replacement of certain furniture with ergonomic designs 
that will minimize the risk of injury to Court personnel.
    Lastly, the fiscal year 2004 request also includes funds for the 
continued support and maintenance of security system upgrades 
implemented by the Court in fiscal years 1999 through 2003.
    The Court's continued commitment to fulfill its mission through the 
use of technology will enable it to enhance the delivery of services to 
the Court family, bar and public.
    I would like to reaffirm that the Court will continue, as it has in 
the past, to conserve its financial resources through sound and prudent 
personnel and fiscal management practices. The Court's ``General 
Statement and Information'' and ``Justification of Changes,'' which 
provide more detailed descriptions of each line item adjustment, were 
submitted previously. If the Committee requires any additional 
information, we will be pleased to submit it.
                                 ______
                                 

 Prepared Statement of Hon. Fern M. Smith, Director, Federal Judicial 
                                 Center

    Mr. Chairman, Members of the Subcommittee: I am pleased to submit 
this statement in support of the Federal Judicial Center's request for 
fiscal 2004 funds to help it improve the administration of justice.
    This is the last request I will submit to you; this fall, having 
completed my four-year commitment, I will return to the Northern 
District of California, where I have been a U.S. district judge since 
1988. It has been a pleasure to work with the subcommittee and its 
staff.
    The Center's statutory Board, which the Chief Justice chairs, has 
selected U.S. District Judge Barbara Rothstein of Seattle as the 
Center's ninth director. She will take up her duties in early 
September.
    This statement summarizes our 2004 request and provides a brief 
accounting of major Center activities to promote improved judicial 
administration in the United States and, to the degree our resources 
permit it, to work with other public and private organizations to 
provide help to the judiciaries in foreign countries that need our 
assistance.
    As to the Center's 2003 funding, especially in light of the fiscal 
constraints you faced, I am grateful for the base funding and the 
partial adjustments to that funding. Thank you as well for recognizing 
as part of the base budget, the funds you transferred in 2002 for 
distance education, which provide us some of the positions for distance 
education that we have been requesting since 1998.
                              2004 request
    The Center's Board unanimously approved the 2004 request for 
$22,434,000, an 8.3 percent increase to provide adjustments to the 2003 
base, modest program enhancements to allow a return to a twelve-month 
cycle of education programs for federal judges, and five additional 
distance education positions. Statement of Hon. Fern M. Smith, 
Director, Federal Judicial Center, May 1, 2003
Judicial education and training programs ($500,000)
    The funds for more timely education for federal judges are vital to 
our task of keeping judges knowledgeable about the constant changes in 
the law, science, and technology. Last year, in fact, the Board 
prepared its own statement supporting this element of that year's 
request, noting ``the Board does not burden Congress with direct 
communications about the Center's appropriation, relying instead on the 
Center director for that task. The special importance of restoring 
these programs to an annual basis merits an exception to that 
practice.''
    Center educational programs last year reached almost 31,700 
participants. Almost 80 percent participated in satellite broadcasts 
and other forms of distance education.
    For federal judges, the Center provides education in several forms, 
including manuals, satellite broadcasts, and small seminars or 
workshops to orient new judges to their responsibilities and to provide 
experienced judges with assistance in specific areas, such as mediation 
or intellectual property law.
    Another fundamental element of our education for judges is 
periodic, general continuing education programs for circuit judges, 
district judges, magistrate judges, and bankruptcy judges. These 
programs assist judges on a variety of subjects, including updating 
them on new case law relevant to frequently litigated issues, 
describing new techniques of case management, and reviewing the ethics 
requirements that govern judges. Moreover, these programs allow judges 
to learn from their colleagues as well as from the faculty we assemble 
and to share innovations that have proven successful as well as those 
that have not.
    Until 1999, a judge could attend such a general program once a 
year. In 1999, we shifted to an eighteen-month cycle as our 
appropriation declined and because we thought that distance education 
could compensate for longer intervals between programs.
    That decision has provoked considerable negative commentary from 
judges across the country. As the Center Board said last year, ``[o]f 
all the comments we receive from other judges about the Center's work, 
none is as frequent and widespread as the need to make these programs 
available on an annual basis. The Center's general continuing education 
programs are the core of its educational effort for judges. They are 
essential to helping judges meet the challenges of rapid change, 
increasing complexity, and growing numbers in the cases before them.''
    Seeking this modest increase in funds for judicial education 
seminars in no way signals the Center's retreat from distance 
education. In most respects, distance education has been a great 
success. Our travel budget, with this request, would still be about 
$1,000,000 below our 1995 travel budget. We want to continue to 
emphasize cost-effective, non-travel, asynchronous learning for the 
employees of the courts and for judges to the degree it is effective.
    At the same time, we recognize that some face-to-face educational 
opportunities are essential, especially for those with responsibilities 
like those of federal judges. Heavy caseloads and the isolation 
inherent in performing judicial duties limit opportunities for judges 
to meet in a detached atmosphere and discuss the nuances of changing 
precedents and case-management techniques. These are not subjects or 
procedures that lend themselves to learning solely by computer or video 
screen.
Five additional positions (3 FTE) to enhance the Center's use of 
        distance education technologies ($311,000)
    The Center has long relied on distance education technologies for 
the bulk of the education it provides, including the Federal Judicial 
Television Network, which the Center began operating in April 1998. 
Since then, the Center has been requesting ten additional positions for 
video, multimedia, and automation specialists to support distance 
education and its necessary technologies. You provided for some of 
these positions in 2002 by transferring $400,000 to the Center's 
appropriation from the funds that Congress had earlier transferred to a 
completed federal appellate courts study commission, and then including 
those funds in our 2003 base. We appreciate that assistance, but the 
need for the remaining positions has not diminished, and so I am 
requesting again funds to provide for five additional distance 
education-related positions.
    The five additional positions we seek in 2004 will permit us to 
bring on additional software engineers and computer-training 
technologists to ensure the federal courts have readily available, 
quality education without the need or expense of travel.
                     center services and activities
    The following summary of current Center activities is an accounting 
for our stewardship of the funds you provide.
Promoting security in the administration of justice
    The Center's ``critical incident stress management'' training helps 
courts develop teams to provide crisis intervention to their personnel 
victimized by natural disasters, terrorist attacks, and work-related 
trauma. Such teams assisted in the crisis response for the New York 
federal courts following 9/11.
    Center Federal Judicial Television Network series on security 
include:
  --crisis management training through Leading in Times of Crisis, 
        featuring court managers who have successfully confronted 
        crises in their own courts, and. Confronting Crises: The 
        Employee's Perspective, to help staff prepare for potential 
        security threats and crises
  --a safety series to enable probation and pretrial services officers 
        to mentally rehearse appropriate reactions to security threats 
        in the office, in the field, and during home contacts with 
        offenders, defendants, and third parties.
    Additionally, at the request of the Judicial Conference Committee 
on Court Administration and Case Management, the Center is assessing 
the Conference's Criminal Case Files Pilot Programs to learn, among 
other things, about the possible harm or threats of harm that may 
result from providing remote public electronic access to documents 
filed in criminal cases.
Promoting the fair and efficient disposition of litigation
    Helping judges dispose of cases fairly, quickly, and inexpensively 
is a major theme of our initial orientation seminars for new judges. We 
also provide judges an extensive array of manuals and sourcebooks about 
case-management techniques, including recurring problems in criminal 
trials, managing cases for resolution by alternatives to conventional 
procedures, and effective use of courtroom technology.
    Our research for committees of the Judicial Conference includes 
analyses of class action litigation and a study of the incidence of 
sealed settlements in district courts across the country, a subject of 
national interest since the recent decision of the federal district 
court in South Carolina not to permit the practice.
Judicial ethics
    We work closely with the Judicial Conference Committee on the Codes 
of Conduct to keep judges and their staffs fully informed of their 
ethical obligations and to help them understand the often complex rules 
designed to promote judicial impartiality. This year we published two 
new guides, one for judges on their recusal obligations under the 
judicial disqualification statute and one for judges' law clerks on the 
restrictions that apply to them.
Helping courts help offenders
    The Center is conducting two related studies of federal court 
programs, prompted by increased national interest in offender re-entry 
programs and recent legislation providing post-incarceration vocational 
and remedial educational opportunities for certain releasees. One study 
will produce empirical information about federal probation officers' 
efforts to assist appropriate prisoners in preparing for reentry into 
the community. The other will help the Eastern District of Missouri 
evaluate its Offender Employment Program, which emphasizes the 
educational and employment needs of the offender and provides 
employment-related services coordinated by probation officers who are 
trained employment specialists.
    We are also assessing the substance abuse treatment and mental 
health services needs of Native American offenders, in order to help 
probation and pretrial services officers better meet the special needs 
of this group.
Promoting public understanding of the judicial process
    We recently released an interactive Web site, ``Inside the Federal 
Courts,'' available at http://www.fjc.gov, that helps federal court 
employees, as well as the media and citizens of this and other 
countries, understand the federal court system's structure and 
operation. This includes a section on Congress's role in improving the 
federal courts. We also produced an eighteen-minute video, An 
Introduction to the Patent System, that judges may use to help explain 
patents and the patent process to jurors. Bar associations are making 
copies available to lawyers and the public.
Assisting the judiciaries of foreign countries
    Mr. Chairman, I would also like to give you a brief update of our 
work to promote independent and effective dispute resolution in the 
courts of foreign countries.
    In the last twelve months, the Center has provided briefings about 
the U.S. judicial system to 488 judges and legal officials from 66 
countries, as well as a limited amount of more substantial assistance, 
either by in-country technical assistance or seminars held here in the 
United States. Neither our briefings nor our more extensive projects 
for foreign judiciaries are funded from the Center's appropriation. We 
provide this assistance at the request of either domestic agencies or 
foreign institutions, which fund the travel, lodging, and subsistence.
    Our activities this year included a small seminar on educational 
techniques with our counterparts from Mexico and Canada, this a follow-
up to the Chief Justice's meeting with the President of the Supreme 
Court of Mexico in September 2001. The Center also hosted a number of 
judges, scholars, and government officials as part of its Visiting 
Foreign Judicial Fellows Program. These included a labor judge from 
Brazil, who researched the use of alternative dispute resolution at the 
appellate level, and an official from the Ministry of Justice of 
Azerbaijan, who studied judicial education. In October 2002, I, and 
another representative from the Center, participated in a CEELI 
Institute conference in Prague, Czech Republic, that brought together 
representatives of judicial training centers from Russia, Eastern 
Europe, and Central Asia to discuss strategies for delivering judicial 
education. The Center continues to facilitate a variety of other 
international exchanges, including a bimonthly digital video-conference 
between judges from Ecuador and the United States and a recent panel 
discussion on the judiciary for officials from Afghanistan.
The Center workplace
    The Center's statute provides greater flexibility in personnel 
matters than many federal agencies enjoy. We have used that flexibility 
to adopt a broad payband system and to implement employee-recommended 
policies that will further our ability to give the taxpayers their due 
while providing employees flexible work schedules and workplace 
options. We know that the latter often contributes to the former.
    Well before 1990, we permitted flextime for all employees. Since 
1994, we have allowed employees to choose a compressed work schedule. 
All of our employees use flextime and more than half are on compressed 
work schedules.
    In 1997 we established a telecommuting policy applicable to all 
Center employees, subject to managers' discretion. Although it is not 
practical to do some Center jobs--such as video production--at home, 8 
percent of Center employees telecommute regularly. We also make 
telecommuting available to employees on a day-by-day basis, as the 
needs present themselves, and last year, we accommodated more than 50 
requests from a staff of fewer than 140. We intend to do even better in 
this regard next year.
    To encourage employee use of public transportation, we offer our 
employees a transportation subsidy of $60 per month.
    Our employees are also eligible to participate in a number of 
supplemental benefits programs, such as pretax health insurance premium 
payments, flexible spending accounts to fund health care, child care, 
and commuter costs (beyond those covered by the subsidy noted above), 
and a long-term care insurance program. We are grateful to the 
Administrative Office of the U.S. Courts for developing these 
innovative policies.
    Mr. Chairman, I appreciate this opportunity to explain our 
budgetary needs for the next fiscal year and to describe some of the 
Center's work and its effect on the work of the courts.
    I will be pleased to answer any questions you may have.
                                 ______
                                 

Prepared Statement of Diana E. Murphy, Chair, United States Sentencing 
                               Commission

    Chairman Gregg, Senator Hollings, Members of the Subcommittee, 
thank you for the opportunity to submit a statement in support of the 
United States Sentencing Commission's appropriation request for fiscal 
year 2004. The Commission was resurrected with the appointment of a 
full complement of seven voting commissioners on November 15, 1999, and 
I currently serve as Chair. In a relatively brief period, the 
Commission has reestablished its policy making role in the federal 
criminal justice system as envisioned by Congress under the Sentencing 
Reform Act of 1984.
    To date, the new commissioners have promulgated over fifty 
amendments to the federal sentencing guidelines, and Congress has 
without exception accepted all of the Commission's amendments. The 
Commission has set aggressive annual agendas and achieved significant 
results by creating new guidelines and modifying existing guidelines 
covering offenses such as:
  --nuclear, chemical, and biological weapons offenses,
  --terrorism,
  --sexual offenses against children,
  --human trafficking and peonage,
  --stalking,
  --intellectual property infringement,
  --identity theft,
  --counterfeiting,
  --economic crimes and money laundering,
  --illegal firearm sales and possession,
  --illegal reentry,
  --ecstasy trafficking,
  --methamphetamine and amphetamine manufacturing, and
  --cultural heritage resources.
    The Commission worked diligently to clear the significant backlog 
of crime legislation created by previous vacancies on the Commission. 
This amendment cycle, we expect to submit to Congress amendments to the 
federal sentencing guidelines implementing new crime legislation and 
addressing such difficult areas as:
  --terrorism,
  --corporate fraud,
  --oxycodone offenses,
  --cybersecurity,
  --involuntary manslaughter,
  --campaign finance violations, and
  --offenses involving the use of body armor.
    The Commission will be unable to respond to the emergencies 
identified by Congress without the staff resources required. Sentencing 
guidelines must be carefully crafted to meet policy needs and to fit 
within our interlocking system. To accomplish what Congress expects, 
the Commission must be able to maintain its ability to respond quickly 
to emerging national priorities. The Commission is dedicated to 
continuing its important role in addressing national priorities such as 
terrorism and corporate crime, but our current resources limit our 
ability to respond to new information, acquire sophisticated expertise, 
and develop novel approaches.
    For these reasons, the Commission requests an appropriation of 
$13,200,000 for fiscal year 2004. This funding request for fiscal year 
2004 represents a zero percent increase over the Commission's request 
for fiscal year 2003.
                          resources requested
    The Commission's appropriation request for fiscal year 2004 is 
$13,200,000, the same amount requested for fiscal year 2003. We 
understand increases are generally difficult to justify, particularly 
this year, but we need to develop the necessary staff expertise in 
areas of national importance such as terrorism and corporate crime. 
Staff resources have become increasingly taxed at the same time as we 
have received increased requests for sentencing information from the 
Congress, the General Accounting Office, the federal Judiciary, the 
media, and other interested parties. We now must analyze an increased 
number of new case filings, develop ever more proposed guideline 
amendments each year, and fulfill other statutory duties to train and 
provide expertise on sentencing issues to the federal courts, Congress, 
and the Executive branch. The Commission respectfully urges Congress to 
appropriate $13,200,000 in fiscal year 2004 to enable the Commission to 
keep pace with these significantly increased demands.
                             justification
Sentencing Reform Act Requirements
    The Commission was created under the Sentencing Reform Act of 1984 
as a permanent, independent agency within the judicial branch. Congress 
gave the Commission a dual mission: (a) to establish and maintain a 
national guideline system for federal sentencing policies and 
practices; and (b) to serve as an expert agency and leading authority 
on federal sentencing matters.
    In fulfilling these basic requirements, the Commission annually 
issues a sentencing guidelines manual that delineates penalty levels 
for all federal offenses. In addition to encompassing all federal 
offenses, the guidelines manual incorporates amendments approved by the 
Commission for newly enacted crime legislation passed by Congress. The 
guidelines manual is used by prosecutors, defense counsel, and 
probation officers in making sentencing recommendations to the courts. 
Federal district judges must use the guidelines manual when imposing a 
sentence, and it must also be relied upon by all federal appellate 
judges and the justices of the United States Supreme Court when 
reviewing the imposed penalties. Since the first manual went into 
effect on November 1, 1987, over half a million defendants have been 
sentenced under the guideline system.
Commission Response to the Threat of Terrorism and Corporate Crime
    This appropriation request again grows out of the need to 
reestablish the staffing levels necessary to respond to emerging 
national priorities and to support a fully functioning Commission. The 
policy work of the Commission generally is determined by three sources: 
(1) legislative directives by Congress and new crime legislation; (2) 
resolution of conflicting interpretations of sentencing guidelines 
among the circuit courts of appeals; and (3) internal priorities that 
are set by the commissioners following an annual solicitation published 
in the Federal Register.
    Due to the extended absence of voting commissioners in the late 
1990s and a firm commitment on the part of the new Commission to 
respond quickly to congressional directives, the Commission has focused 
resources toward implementing crime legislation. Congress has called 
upon the Commission to implement crime legislation covering a wide 
range of disturbing criminal conduct, including sexual offenses against 
children, human trafficking and peonage, stalking, identity theft, 
ecstasy trafficking, methamphetamine and amphetamine manufacturing, and 
intellectual property infringement.
    New laws passed by Congress to secure our nation from the threats 
of terrorism and to protect our workforce from economic disruption 
caused by corporate crime are perhaps the most important--and most 
complex--for the Commission to implement. In the area of terrorism, the 
Commission submitted to Congress a guideline amendment that 
significantly increased the penalties for offenses involving the 
importation and exportation of nuclear, biological, and chemical 
weapons on May 1, 2001, a full four months before the terrorist strikes 
of September 11th and subsequent nationwide anthrax attacks and 
threats. By utilizing our extensive datasets to review national 
security offenses, the Commission identified the inadequacy of existing 
penalties before concerns were widely shared.
    Congress responded quickly to the threat of terrorism by passing 
the USA PATRIOT Act, Pub. L. 107-56, and the Commission responded in 
kind. In less than six months, the Commission promulgated a 
comprehensive package of amendments to the guidelines implementing the 
USA PATRIOT Act. Among the most significant of the provisions are 
appropriately severe penalties for offenses committed against mass 
transportation systems and interstate gas or hazardous liquid 
pipelines, increased sentences for threats that substantially disrupt 
governmental or business operations or result in costly cleanup 
measures, expanded guideline coverage for bioterrorism offenses, and a 
new guideline covering material support to foreign terrorist 
organizations.
    This year Congress once again has called upon the Commission to 
implement terrorism related legislation. The Public Health Security and 
Bioterrorism Preparedness and Response Act of 2002, Pub. L. 107-188, 
and the Terrorist Bombings Convention Implementation Act of 2002, Pub. 
L. 107-197 require the Commission to develop new guideline provisions 
to address protection of the nation's food and water supplies and to 
review the penalty structure for certain national security offenses, 
including nuclear, biological, and chemical weapons offenses.
    In addition, the Homeland Security Act of 2002 (specifically 
section 225, the ``Cyber Security Enhancement Act of 2002''), Pub. L. 
107-296, requires the Commission implement new guideline provisions to 
punish appropriately and effectively deter crimes that undermine our 
nation's cybersecurity. Specifically, the Act requires the Commission 
on an expedited basis to develop guideline provisions that adequately 
account for eight enumerated factors, such as ``whether the offense 
involved a computer used by the government in furtherance of national 
defense, national security, or the administration of justice,'' and 
``whether the violation was intended to, or had the effect of, 
significantly interfering with or disrupting a critical 
infrastructure.''
    The Commission is making progress toward implementing each of these 
new terrorism related legislative items. As the nation learns more 
about identifying terrorism related conduct, the Commission expects 
Congress will continue to respond with further legislation. The 
Commission needs to acquire additional staff expertise to meets its 
related responsibilities. For example, Congress has introduced 
legislation that would require significantly increased penalties for 
certain terrorism related offenses involving identity theft, the 
``Identity Theft Penalty Enhancement Act of 2003.'' This legislation 
already has passed the Senate Judiciary Committee and would require the 
Commission to evaluate how it would affect and interact with existing 
guideline provisions.
    In April 2001, the Commission promulgated a multi-part amendment 
that made comprehensive changes to the guidelines covering economic 
crime. Economic offenses account for more than one quarter of all the 
cases sentenced in the United States federal district courts. The 
Commission had received from the federal Judiciary and the Department 
of Justice testimony and survey results that indicate that the 
sentences for these offenses were inadequate to punish appropriately 
defendants in cases in which the monetary loss was substantial. After a 
number of years of data collection, analyses, public comment, and 
public hearings, the Commission passed a comprehensive economic crime 
package that, among other things, provides significantly increased 
penalties for mid and high level fraud, theft, and tax offenses 
involving moderate and large monetary losses and significantly improved 
the operation of the money laundering guideline.
    While the Commission's guideline amendment was pending before 
Congress, a number of corporate scandals became publicized. Congress 
responded swiftly by passing the Sarbanes-Oxley Act of 2002 The Act 
required the Commission to promulgate on an emergency basis several new 
guideline provisions relating to securities fraud, pension fraud, 
accounting fraud, and other more general types of fraud. Fortunately, 
the Commission was able to build upon expertise it had acquired 
developing the 2001 economic crime package, and in six months the 
Commission completed a multi-part amendment that increases penalties 
significantly for serious fraud offenses.
    The emergency guideline, which became effective January 25, 2003, 
includes new sentencing enhancements for offenses involving more than 
100 victims, substantially endangering the solvency and financial 
security of a publicly traded corporation or other organization with 
1,000 or more employees, and securities fraud committed by officers or 
directors of publicly traded corporations. The Commission continues to 
address the problems and will submit for congressional review a 
permanent amendment by May 1, 2003.
New Opportunities in Fiscal Year 2004 in Corporate Crime and Native 
        American Issues
    Early in 2002 the Commission created two special panels of outside 
experts to study problems related to corporate crime and disparities 
encountered when Native Americans are sentenced in federal court under 
the Major Crimes Act. Each ad hoc group was given eighteen months to 
work on recommendations to the Commission, and each has been 
functioning effectively and has obtained public input into its work. 
Both groups will issue their reports in fiscal year 2004 which will be 
shared with the public. Then the Commission will need to work on 
possible amendments to Chapter 8 (the guidelines for sentencing 
organizations, including corporations, associations, municipalities, 
unions, etc.) and to guidelines particularly affecting Native 
Americans. While this method of gathering expert assistance has proven 
extremely cost effective, we need additional staff to draw out from a 
wealth of material the optimum proposals and to translate them into 
guidelines.
    The corporate crime advisory group is comprised of sixteen 
nationally recognized experts drawn from government, private business, 
and academia, and is chaired by a former United States Attorney. The 
Commission has requested the expert committee to review the 
effectiveness of the criteria for an effective corporate compliance 
program and the deterrence of corporate crime. The advisory committee 
has actively engaged in research and soliciting public comment, 
including a day-long public hearing. The hearing covered many issues 
that bear directly on organizations' abilities and incentives to detect 
and report wrongdoing before it becomes widespread and 
institutionalized.
    Congress also recognizes the critical role the organizational 
guidelines perform, and in the Sarbanes-Oxley Act directed the 
Commission to ensure that the guidelines that apply to organizations 
are sufficient to deter and punish organizational misconduct. Because 
the Commission had a jump start in this area and had already formed the 
advisory group, the expert panel will be able to report its findings 
and recommendations to the Commission in October 2003. At that time, 
the Commission expects to have a sound foundation for staff to help us 
deliberate and consider promulgation of appropriate modifications to 
the organizational guidelines during fiscal year 2004.
    The formation of the Native American advisory group grew out of a 
hearing the Commission held in Rapid City, South Dakota in 2001. The 
Rapid City hearing focused on issues relating to Native Americans and 
was attended by a number of individuals who now serve on the advisory 
group. As a result of testimony at the hearing as well as public 
comment we received, the Commission formed the advisory group and 
requested that the group to report its findings during fiscal year 
2004. The Commission is devoting additional staff resources to 
sentencing issues that particularly affect Native Americans. For 
example, the Commission has created a new sentencing guideline aimed at 
protecting our cultural heritage resources and other national 
treasures, has conducted several days of intensive training for 
prosecutors defense attorneys, and probation officers in Indian 
Country, and has begun to study federal crimes for which Native 
Americans comprise a significant proportion of offenders, such as 
manslaughter.
Additional Sentencing Priorities
    Drug trafficking offenders continue to comprise the majority of the 
federal criminal caseload, and the Commission is constantly identifying 
and responding to new drugs of abuse. In recent years, the Commission 
has acted to increase penalties significantly for methamphetamine, 
amphetamine, ecstasy, and certain List I chemical offenses.
    This amendment cycle the Commission is focusing on the increasing 
problem of oxycodone trafficking. Using its comprehensive sentencing 
database, the Commission recently identified a significant increase in 
the number of offenses involving the pain killer Oxycontin. The 
Commission currently is considering an amendment to the drug guideline 
that will recalibrate the way in which this drug is penalized so that 
the penalties for offenses involving oxycodone will be substantially 
increased. The Commission hopes that this increased penalty structure 
will help deter any further increase in the abuse of this drug and 
serve to punish appropriately those criminals who engage in its illegal 
trafficking.
    The Commission also is aware that Congress may enact legislation 
directing it to review the guidelines pertaining to GHB, a drug that is 
often associated with date rape. Bills have been introduced both in the 
Senate and the House on this issue, and, if enacted, they would require 
the Commission to engage in a comprehensive review of the penalty 
structure for this particular drug during fiscal year 2004. The 
Commission also is aware of other drug related legislation that would 
require a response from us if enacted.
    The Commission also is examining several guidelines covering 
offenses against persons and this work must be extended through fiscal 
year 2004. The 21st Century Department of Justice Appropriations 
Authorization Act, Pub. L. 107-273, for example, contains two 
directives to the Commission. The first directs the Commission to 
provide an appropriate sentencing enhancement for any crime of violence 
or drug trafficking crime in which the defendant used body armor. The 
Commission expects to submit an amendment to Congress by May 1, 2003, 
implementing this first directive. The second and more complicated 
directive requires the Commission to provide an appropriate sentencing 
enhancement for assaults against a federal judge and lists eight 
factors that the Commission must consider. The Commission expects that 
the Native American advisory group's review of the federal assault 
penalty structure will be helpful to implementation of this 
congressional directive during fiscal year 2004.
    The Commission also is reviewing the guideline covering involuntary 
manslaughter after receiving congressional inquiries on the matter. The 
Commission currently is considering an amendment that would 
significantly increase the penalties for such offenses, but the 
Commission's work in the area of crimes against individuals will 
continue into fiscal year 2004. The overwhelming majority of offenders 
convicted of assaults or homicide at the federal level are Native 
Americans. As a result, the ad hoc committee also is examining the 
guidelines pertaining to manslaughter. Even though the Commission may 
make some change to the involuntary manslaughter guideline this 
amendment cycle, we likely will continue our work in the area of 
manslaughter until after receiving the report and recommendations from 
the Native American advisory committee during fiscal year 2004.
    The Commission also has been very active in the area of sexual 
offenses. In every amendment cycle since the Commission was 
reconstituted in 1999, the Commission has promulgated new amendment 
provisions addressing various egregious sexual offenses. These many new 
guideline provisions provide severe punishment for such heinous crimes 
as human trafficking (in response to an emergency directive contained 
in the Victims of Trafficking and Violence Protection Act of 2000), 
sexual abuse of a minor, and commercial sex acts such as the production 
of child pornography and prostitution.
    Sexual offenses involving children, however, continues to be of 
great concern, and the Commission is aware of several bills recently 
introduced in the 108th Congress that would require further action by 
the Commission. For example, the Senate recently overwhelming passed S. 
151, the ``PROTECT Act,'' which creates several new offenses relating 
to ``virtual'' child pornography and contains several directives to the 
Commission. The directives, among other things, would require the 
Commission to incorporate the new virtual child pornography offense 
into the sentencing guidelines and revisit guideline treatment of 
offenses involving interstate travel to engage in illegal sexual acts 
with children. If S. 151 or other similar bills are enacted, the 
Commission will be required to devote significant resources toward 
implementing those provisions during fiscal year 2004.
Ongoing Research and Analysis Obligations
    In fiscal year 2004, as part of its ongoing mission the Commission 
will continue to work on several studies reflecting the operation of 
the guidelines since their inception. In conjunction with these 
studies, the Commission began a comprehensive assessment of the 
guidelines pertaining to drug offenses, which comprise a majority of 
the cases sentenced under the guidelines. In May 2002, the Commission 
issued a comprehensive 112 page report to Congress examining the 
current federal penalty structure for crack cocaine and powder cocaine 
offenses. The report contained concrete recommendations for Congress to 
consider regarding statutory and guideline penalties for cocaine 
offenses which I presented at a hearing before the Senate Judiciary 
Subcommittee on Crime and Drugs on May 22, 2002.
    The report on federal cocaine sentencing policy was informed by an 
intensive project which involved analyzing the court documents for 
1,600 cocaine offense cases sentenced in fiscal year 2000--representing 
approximately 20 percent of all federal cocaine offenses that year. The 
Commission analyzed important variables such as the offender's function 
in the offense, the geographic scope of the offense, and the presence 
of aggravating factors such as possession, brandishment, or use of a 
weapon, bodily injury, sales to protected persons such as minors, and 
sales in protected locations such as areas surrounding schools and 
playgrounds.
    The Commission currently is collecting similar data with respect to 
other major drugs of abuse, such as methamphetamine, heroin, and 
marijuana. This process entails gathering information on the offense 
conduct and offender characteristics for over 3,000 federal drug 
trafficking offenders. This analysis is continuing through fiscal year 
2004 and provide information on the organizational structure of drug 
trafficking operations and assist in the evaluation of the sentencing 
structure for these offenses.
    The Commission has also undertaken the most comprehensive study of 
recidivism rates for federal offenders. The Commission is tracking more 
than 6,000 federal offenders through the criminal justice system to 
determine who becomes a repeat offender and what factors may be 
predictive of such behavior. The results will assist in evaluating the 
established criminal history categories and the role of the guidelines 
in deterring crime. While encouraged by the progress made on the 
project, full access to arrest and conviction records to complete the 
work only recently occurred when Congress authorized access by the 
Commission to a National Crime Information Center terminal under the 
21st Century Department of Justice Appropriations Act. The Commission 
expects both the recidivism study and the consideration of any 
modifications to the guidelines in response to its findings to continue 
through fiscal year 2004.
Commission Struggles with Increasing Caseload
    A key component to the Commission's ability to implement 
legislation and develop new guideline provisions is its comprehensive, 
computerized data collection system. This comprehensive database serves 
as a clearinghouse of federal sentencing information and forms the 
basis for the Commission's monitoring and evaluating the guidelines, 
undertaking many of its research projects, and responding to hundreds 
of data requests received from Congress and other criminal justice 
entities each year.
    For each case sentenced under the guidelines, the Commission enters 
over 200 items of information into its database, such as each count of 
conviction, the number and nature of victims, the magnitude of economic 
loss, the type and quantity of drugs, and the number and type of 
weapons. The Commission is only funded and physically equipped to 
process some 40,000 cases annually, but for each of the last four years 
it has received well over 50,000 cases annually. We expect to receive 
63,000 cases in fiscal year 2003, and our resources do not permit 
timely processing of the extensive information. We plan to experiment 
with an electronic file transfer system to enable the 94 federal 
districts to submit five major court documents (the Judgment and 
Commitment Order, the Presentence Report, the Indictment, the Plea 
Agreement, and the Statement of Reasons) to the Commission in a 
paperless manner, thereby improving efficiencies and lessening delays, 
but this system will require substantial start up costs.
    Additionally, the Commission performs case processing for 
organizational/corporate sentences, appellate cases, and probation 
revocation/supervised release violations. The Commission also has 
received requests that additional coding modules be added to analyze 
Rule 35 sentencings and plea bargaining, which we could undertake only 
with additional funding.
Increased Training Needs for Larger Federal Criminal Justice System
    Over the last several years, as Congress has devoted increased 
resources to law enforcement, the number of federal judges, 
prosecutors, probation officers, and defense attorneys who require 
training and assistance on how to use the guidelines has increased 
proportionately. The Sentencing Reform Act requires the Commission to 
provide guideline training, in part because training promotes 
uniformity in guideline application and thereby reduces sentencing 
disparity--both central goals of the Act.
    Commission staff provides training on the sentencing guidelines to 
more than 2,500 individuals annually at approximately 50 training 
programs across the country, including ongoing programs sponsored by 
the Commission, the Federal Judicial Center, the Department of Justice, 
the American Bar Association, and other criminal justice entities. Each 
year the Commission cosponsors a National Sentencing Seminar to train 
hundreds of probation officers, prosecutors, and defense attorneys on 
guideline application. New personnel often have no knowledge of the 
federal guidelines system, and seasoned personnel need training in the 
new guidelines promulgated each year. The program is so popular that we 
must turn away people due to the high volume of interest.
    The Commission also plays a major role preparing for and 
participating in the biennial National Sentencing Institute sponsored 
by the Federal Judicial Center and attended by a large number of 
federal judges. The Commission also maintains a telephone HelpLine 
service to answer guideline application inquiries from federal judges, 
probation officers, prosecuting and defense attorneys, and law clerks. 
However, if the Commission is not provided sufficient funding to 
restore personnel in other areas of the agency, its quality of training 
will suffer because its training staff may be diverted to other 
projects.
                               summation
    The Commission has worked very hard with limited resources to 
respond when called upon to help the President and Congress address 
emerging national priorities such as the threat of terrorism and 
corporate fraud. In many ways these are novel complex areas that 
require the Commission to acquire and maintain additional in-house 
expertise. Moreover, Congress and the Commission continue to identify 
new areas of concern that require substantial resources, such as 
oxycodone offenses, involuntary manslaughter, and sexual offenses 
against children. We cannot undertake a policy agenda of any real 
significance without enhancing our staff power, particularly given the 
large increase in the number of cases sentenced each year which require 
compilation and analysis.
    The requested funding level would enable the Commission to continue 
its work in areas of national importance, enhance staff expertise, 
provide training to a rapidly expanding audience, process its surging 
caseload effectively, continue its monitoring and research of the 
guidelines, and continue to be responsive to the concerns of the 
federal criminal justice community.
                                 ______
                                 

Prepared Statement of Haldane Robert Mayer, Chief Judge, U.S. Court of 
                    Appeals for the Federal Circuit

    Mr. Chairman, I am pleased to submit my statement to the Committee 
for the United States Court of Appeals for the Federal Circuit's fiscal 
year 2004 budget request.
    Our 2004 budget request totals $22,422,000. This is an increase of 
$2,227,000 over the fiscal year 2003 approved appropriation of 
$20,195,000. Twenty-nine percent (29 percent) of the requested 
increase, $646,000, is for mandatory, uncontrollable increases in 
costs. The remaining increase of $1,581,000 is for funding of 
additional positions and other program increases.
Request for Program Increases
    A total of $1,581,000 for program increases is requested. The 
breakdown and further justification for each amount follows. The 
justifications for the program increases are separated into four 
categories: staffing; courtroom renovations; technology advancements; 
and security staffing enhancements.
    A portion of this program increase request, $653,000, was requested 
to cover the cost of thirteen (13) additional Court Security Officers 
(CSOs) for fiscal year 2004. These additional CSOs were requested and 
needed to bring our total CSOs up to current U.S. Marshal Service 
Standards. This requested increase, however, was included in the 
recently enacted Supplemental Appropriation Bill. This amount will 
enable us to begin the recruiting and hiring process in fiscal year 
2003.
Two New Staff Positions
    The court requests $208,000 to cover the cost of two new positions 
for nine (9) months in fiscal year 2004. The positions requested are 
for a Deputy to the Circuit Executive position ($130,000) and a 
Computer Security Specialist ($78,000).
    The position of Deputy to the Circuit Executive has become 
necessary to assist the Circuit Executive with the variety of duties 
assigned to that office. The Deputy would assist in overseeing the 
offices that operate under the direction of the Circuit Executive and 
would act in the absence of the Circuit Executive.
    We also request funding to hire a full-time permanent Computer 
Security Specialist. Upon completion of a formal security review and 
assessment of the court's electronic information system, the National 
Security Agency in August 2000 concluded that the court should hire an 
Information Technology Specialist. This person would monitor and 
protect the security of the court's information system. The Computer 
Security Specialist would ensure that all electronic communications and 
information in judges' chambers and staff offices are protected and 
secure from compromise or unlawful release. Both of these positions 
were requested in our fiscal year 2003 budget request and denied.
Courtroom Renovations
    The court is requesting $170,000 to begin the long-overdue 
renovations of courtrooms to bring them up to 21st Century security and 
technology standards to benefit judges, attorneys, and litigants. There 
have been no upgrades to the courtrooms, with the exception of new 
carpet, since the opening of the courthouse in 1967.
    We have requested funding for this project in our 2001, 2002, and 
2003 budget requests. We have taken our request to GSA as suggested by 
the Subcommittee. At this time, GSA has indicated that they are taking 
every appropriate action to have this project included in their fiscal 
years 2004 and 2005 budgets. Should the court be successful in 
receiving funding through GSA to pay for the renovations of the 
courtroom Congress will be notified that this request for $170,000 is 
no longer necessary.
Improvements in the Court's Courtroom and Courthouse Computer 
        Technology and Security
    We request $490,000 for program advancements in the area of 
technology in the courtrooms, judges' chambers, and staff offices.
    The Judicial Conference of the United States recognized that 
courtroom technologies are a necessary and integral part of courtrooms. 
Based on those findings and the fact that the Administrative Office of 
the United States Courts (AO) currently is implementing this program in 
courts across the country, the court is requesting funding to upgrade 
the courtroom technology in one of its courtrooms. The figure of 
$215,000 was provided to the court by the AO based on its experience to 
date with upgrading courtrooms. Not only would this benefit the 
Judiciary and the court, it would benefit counsel and litigants. One 
phase of this new technology will give counsel the opportunity to argue 
a case offsite while connected to the courtroom as if the attorney were 
in the courthouse, thus cutting expenses for the litigant.
    We also request $205,000 to develop and augment a disaster recovery 
plan for the court's electronic data system. In the event of a major 
disaster, it will be necessary to access the court's computer network 
from a remote site as well as locally. This amount is a one-time cost 
estimate to put this recovery system in place.
    The National Security Agency performed a study of court security in 
2000 and recommended improved computer security hardware and software 
to assist in the detection and prevention of electronic computer 
attacks and intrusions to the court's computer network. The cost of 
upgrading the security of the court's computer system is $70,000.
Increased Security Position
    This court requests $60,000 to cover the cost of hiring one (1) 
Supervisory Level on-site Deputy U.S. Marshal.
    The court requests funding to hire one (1) full-time Supervisory 
Level Deputy U.S. Marshal Inspector to coordinate facilities security 
at the National Courts Building based on this same need for upgraded 
security. The Inspector will report to the Chief Judge, will ensure 
that protection of judges on and off-site is properly coordinated, will 
supervise the court security officers assigned to the National Courts 
Building, and will work with the court security committee on matters 
involving staff and courthouse security.
    Currently the Federal Circuit shares a Deputy U.S. Marshal with the 
United States Court of Appeals for the District of Columbia Circuit and 
the United States District Court for the District of Columbia. The 
shared U.S. Deputy Marshal is assigned to the U.S. District Court for 
the District of Columbia and is located at the District of Columbia 
Circuit courthouse. It is a daunting task and a big assignment for one 
person to cover adequately the security needs of two separate 
courthouses and four separate courts located in different parts of the 
District of Columbia.
    In a March 7, 2003 memorandum to Chief Judges of the U.S. Courts, 
AO Director L. Ralph Mecham emphasized the importance of having a full-
time Deputy U.S. Marshal Inspector assigned to each court. ``It seems 
clear,'' Director Mecham said, ``that in today's high risk environment 
there should be USMS personnel at the local level assigned to security 
responsibilities on a full-time basis.'' As the only United States 
Court of Appeals with national jurisdiction, the Federal Circuit should 
be given the same consideration in the assignment of security personnel 
as the twelve other regional circuits. Indeed, it is hard to understand 
how the USMS can assign a Deputy U.S. Marshal Inspector to the District 
of Columbia Circuit--a regional court of appeals--and direct that 
Inspector to provide security to the Federal Circuit--a national court 
of appeals located across from The White House--on an as-needed basis.
    I also would like to address a statement that was contained in the 
Conference Report for our 2003 budget request. That document contained 
language referring to a reduction in the number of filings at the 
Federal Circuit between 1992 and 2001. Our figures show that total case 
filings for the Federal Circuit for the ten-year period did drop 219 
cases from 1,702 in fiscal year 1992 to 1,483 in fiscal year 2001. That 
drop is consistent with the statement contained in the Conference 
Report. However, the reduction in the court's caseload does not justify 
a reduction in staff for two reasons.
    First, starting with the 1,702 cases in 1992--which represented at 
that time the second highest number of annual case filings since 1982--
the number of total cases filed each subsequent year through 2001 
sometimes increased and sometimes decreased and occasionally exceeded 
1,702. In fiscal year 2002, the Federal Circuit's total filings 
increased to 1,748; this is the third highest number of filings ever 
for the Federal Circuit--nearly 18 percent higher than the 2001 filings 
and 3 percent higher than the 1992 filings.
    The second reason why the reduction of 219 case filings over the 
ten-year period does not justify a reduction in court staff is that the 
reduction does not reflect an important change in the court's workload. 
In short, it ignores how particular categories of cases have increased 
or decreased. Attention to the number of appeals in patent cases from 
district courts is critical when assessing the court's workload. Patent 
cases typically involve complex science and engineering principles, as 
well as multiple issues dealing with patent validity, infringement, 
defenses, counterclaims, and damages. In addition, the patent cases 
often have lengthy trial records and extensive damages. In sum, patent 
appeals typically take much more time than, for example, the court's 
Merit Systems Protection Board (MSPB) cases. Hence, even though case 
filings went down by 219 when comparing 1992 to 2001, appeals from 
district courts--almost all of which are patent cases--went up from 315 
in 1992 (about 18.5 percent of the total cases), to 403 in 2001 (about 
27 percent of the total cases). At the same time, the much easier MSPB 
cases dropped from 789 in fiscal 1992, to 421 in fiscal 2001. And in 
fiscal 2002, when total cases increased nearly 18 percent from 2001, 
district court cases increased 19 percent, to 480, while MSPB cases 
rose only 3 percent, to 435.
    The significant rise over the last 10 years in the number of patent 
infringement cases filed with the court and the nearly 18 percent 
increase in the court's annual filings from 2001 to 2002 warrant an 
increase--not a decrease--in court staff. Further, a careful review of 
the number of support personnel assigned to the Federal Circuit will 
establish that the staff numbers are considerably smaller than other 
courts of appeals.
    I would be pleased, Mr. Chairman, to answer any questions the 
Committee may have or to meet with the Committee members or staff about 
our budget requests.
    Thank you.
                                 ______
                                 
                       NONDEPARTMENTAL WITNESSES

           Prepared Statement of the American Bar Association

    The American Bar Association is centrally concerned with promoting 
improvements in the administration of justice and preserving the 
independence of the judiciary as fundamental to a free society. In 
furtherance of these two objectives, we are submitting this statement 
to address the need for increased compensation for Article III judges 
and to urge Congress to appropriate adequate funds for the State 
Justice Institute. We respectfully request that this statement be 
incorporated into the Subcommittee's record of hearings on fiscal year 
2004 appropriations for Commerce, Justice and State, the Judiciary and 
Related Agencies.
                        state justice institute
    In 1984, Congress created the State Justice Institute (SJI) as a 
federally funded, private, non-profit corporation to award federal 
grants to improve the quality of justice in state courts, facilitate 
better coordination between state and federal courts, and foster 
innovative, efficient solutions to common problems faced by all courts. 
It is the only source of federal funding exclusively dedicated to 
helping to meet the needs of our state courts, which hear over 97 
percent of the nation's cases. Since it became operational in 1987, the 
SJI has parlayed a modest amount of federal money into court 
improvement projects that benefit the nation's judicial system in its 
entirety and the public it serves. On behalf of the Association's 
410,000 members, we can unequivocally say that the overwhelming 
consensus in the legal community is that the SJI effectively, 
efficiently and consistently executes its mandate despite a de minimis 
annual budget, which has never exceeded $13.55 million.
    In creating the State Justice Institute, Congress recognized that 
our state and federal courts are separate but interdependent and that 
the quality of justice in this nation depends on the vitality of both 
court systems. Concluding that the federal government has a stake in 
maintaining strong state judicial systems and improving state-court 
partnerships, Congress created SJI to monitor the state judicial 
system, assist in prioritizing the needs of the state courts and award 
small federal grants to foster solutions to critical problems 
confronting the courts. To enable all courts to benefit from federally 
funded projects, Congress required SJI to maximize the impact of each 
grant--even those that provide technical assistance to a court with a 
specific problem--through a variety of techniques, such as maintaining 
readily accessible information clearinghouses to assure that effective 
new approaches are shared with courts nationwide, convening national 
conferences to address emerging justice system issues, and placing 
practical products into the hands of judges and court personnel who can 
most benefit from them. These various strategies have proven effective 
in maximizing the benefits derived from each spent federal dollar and 
avoiding wasteful duplication of effort to solve identical or similar 
judicial administration problems.
    After 15 years of SJI's operation, and out of a renewed concern for 
fiscal restraint in a time of competing budgetary demands, Congress 
requested that the Attorney General of the United States evaluate and 
report back on the effectiveness of the SJI. In November 2002, the 
Attorney General submitted his report to Congress in which he concluded 
that SJI effectively implements its mission with only minimal 
administrative costs. Moreover, the Attorney General reaffirmed the 
wisdom of the 98th Congress by validating the premise on which SJI was 
created. He noted that an important Federal purpose was served by 
supporting SJI's mission to improve the quality of justice in state 
courts, observing that, ``given overlapping state-federal jurisdiction, 
it is in the Federal government's interest to have effective and fair 
state courts, lest litigants turn to Federal courts to resolve matters 
properly within state court responsibilities.''
    The American Bar Association concurs with these core findings. By 
strengthening our state courts, SJI grants strengthen our entire 
justice system. Furthermore, we would like to point out that the 
federal government also has a direct interest in the vitality of our 
state courts because many important federal programs depend on state 
courts for their implementation.
    Subsequent Congresses, including this one, have in fact 
acknowledged the appropriateness of providing federal assistance to 
state court projects by regularly appropriating funds for specific 
state court improvement projects sponsored by individual members. In 
fact, the funds spent on these projects often have exceeded the maximum 
appropriation SJI has ever received. While we do not doubt that such 
funds have been expended for worthy state court projects that have 
improved the administration of justice in a particular jurisdiction or 
state, we do not believe that it is a cost-efficient or effective way 
to provide federal financial support to strengthen our state judicial 
system. In contrast, disseminating federal funds through SJI assures 
that government money is spent on finding solutions to the most 
pressing judicial administration problems and sharing these solutions 
with every state and federal court.
    The conference report accompanying Pub. L. No. 108-7 appropriated 
$3.1 million in funding for SJI for fiscal year 2003 but contained the 
proviso that SJI should obtain future funding from ``bar associations 
and the States, who are the beneficiaries of SJI's work.'' Such a 
proposal is unrealistic and would effectively terminate this highly 
effective program.
    The courts are an integral part of our democratic system of 
government. Their support should come from the public fisc. SJI was 
created to provide federal support for needed improvements to 
supplement state court resources, which are often inadequate because of 
strapped state budgets. Bar associations and other grantee 
organizations, in essence, already contribute their own funds to SJI by 
absorbing some of the cost of any grant activity in which they are 
involved. Furthermore, SJI relies on the dedication and expertise of 
organizations, such as the ABA, to develop and implement programs that 
will strengthen the justice system; and in return, SJI pays for a 
substantial portion of the cost of worthy programs, while grantees 
provide a certain amount of matching funds. In this way, SJI grants not 
only require a sharing of the financial burden, but they also help 
forge essential public-private partnerships to address justice system 
issues.
    In addition, the ABA and other bar associations already make 
substantial financial (in addition to other) contributions to promote 
excellence in the justice system by annually allocating a significant 
amount of their general revenues for judicial system improvements. For 
example, in fiscal year 2004, the ABA alone will spend almost $2.5 
million on such programs and projects.
    In conclusion, terminating funding for the only government-funded 
entity exclusively dedicated to providing federal grants for projects 
to improve state courts makes no sense, especially at a time when our 
courts are facing a nation-wide fiscal crisis. Congress has a strong 
federal interest in strengthening the state courts and maintaining a 
robust justice system as well as a responsibility to implement sound 
fiscal policies. To deny the small sum of $13.5 million to a program 
that is supported by every state supreme court and highly praised by 
the legal community, but authorize appropriations for projects that 
primarily benefit individual state courts, represents a serious fiscal 
miscalculation. For all these reasons, the ABA urges Congress to 
preserve SJI as a federally funded institute and to appropriate 
sufficient funds for fiscal year 2004 for SJI to carry out its mandate. 
The ABA recommends an appropriation of $13.5 million--the amount that 
SJI received in 1996.
Article III Judicial Salaries
    The 108th Congress has inherited a federal salary system for top-
level government officials that is badly in need of reform. This is 
particularly true with respect to the Federal Judiciary.
    The National Commission on the Public Service (otherwise known as 
the ``Volcker Commission'') concurs with this assessment. Composed of 
government leaders from past Administrations, the non-partisan 
Commission recently issued its report, Urgent Business for America: 
Revitalizing the Federal government for the 21st Century, which 
concluded that ``[j]udicial salaries are the most egregious example of 
the failure of federal compensation policies.'' It recommended that 
Congress take immediate steps to substantially raise federal judicial 
pay.
    During the past decade in particular, judges have experienced both 
an absolute loss in purchasing power and a relative decline in 
remuneration as the salaries of peer group members have risen 
dramatically. Despite five salary adjustments since 1993, judges have 
suffered a 10.9 percent decline in the purchasing power of their 
salaries. That judicial pay has not even kept pace with inflation has 
robbed judges of the prospect of salary stability during their tenure 
on the bench.
    Judges freely acknowledge that rendering public service in a highly 
visible and respected role and serving in a lifetime appointment are 
intangible benefits that help compensate for the reduced salary levels 
associated with the bench. Nonetheless, compensation levels for 
attorneys from other work sectors are relevant to the issue of fair and 
adequate judicial compensation.
    While the vast majority of federal judges have the requisite years 
of experience and legal skills that would enable them to command 
compensation similar to that paid to top-notch, seasoned attorneys in 
the private sphere ($400,000 to $800,000 according to the most recent 
surveys conducted by the National Law Journal), it is obviously not 
practical to suggest that Federal judges should be paid that much. The 
salaries of leaders of academia or nonprofit institutions are 
considered more reasonable points of reference because the level of 
education and expertise required of leaders of these institutions and 
the psychic satisfaction derived from holding such jobs are comparable 
to those of Federal judges.
    Associate Justice Stephen Breyer, in testimony submitted to the 
Volcker Commission, stated that the average salary of nonprofit CEOs is 
$212,000--approximately 20 percent higher than that of a Supreme Court 
Justice and about 35 percent higher than that of a federal district 
judge. Further, the differential between federal judicial salaries and 
salaries of leaders in the academic world is even larger: the average 
salary for deans of the twenty-five law schools ranked highest in the 
annual U.S. News and World Report survey was $301,639 and the average 
base salary for full professors at those law schools was $209,571.
    Even though market conditions alone should not be the measure of 
the adequacy of judicial salaries, the widening disparity between 
judicial salaries and those of attorneys with comparable skills 
employed in the private sphere is causing demonstrable harm to our 
nation's Third Branch by deterring excellent candidates from seeking 
judicial appointments and motivating sitting judges to resign 
prematurely from office to enter a more lucrative field.
    Between 1990 and 2003, 77 Article III judges resigned or retired 
from the Federal bench and many of them returned to private practice. 
Fifty-one of the 77 departed judges entered the private practice of law 
and 14 others accepted jobs in related fields. Sixteen of the 77 judges 
departed before reaching retirement age, thereby forfeiting their right 
to salary for life. Premature departures from the bench impose both 
real and intangible costs upon the Third Branch, by compromising 
judicial independence fostered by life tenure and depriving the Federal 
Judiciary of the skills of some of its most capable and experienced 
jurists.
    Inadequate judicial salaries also disadvantage the Federal 
Judiciary in the ``war for talent.'' Judicial pay may not be a 
deterrent to individuals who are independently wealth or who are 
already in public service, where salaries are generally lower, but it 
is a strong disincentive for lawyers in private practice whose varied 
experiences bring a perspective and independence that is vital to the 
judiciary. Our analysis of the occupations held immediately prior to 
the confirmation of all district and circuit court judges appointed 
since 1977 supports this conclusion. For example, during President 
Carter's term of office, 49.5 percent of his district court appointees 
came from the public sector, while 57.6 percent of President Bush's 
district court appointees through the 107th Congress have come from the 
public sector.
    White House Counsel Alberto Gonzales made this same point in an 
interview published in the May 2002 edition of The Third Branch:

    ``We are aware of both young lawyers with family obligations and 
established prominent lawyers with substantial investment in their 
practice and community who feel that they cannot afford to go on the 
federal bench. The Judiciary suffers when it cannot attract top tier 
lawyers for whatever reason.''

    The Federal Judiciary benefits from the collective wealth of 
experience of its jurists who have served in different capacities in 
the public and private sectors. It is enriched by their diverse 
backgrounds and better able to serve the need of all Americans. We 
cannot afford to lose the diversity of the bench that comes from the 
appointment of individuals of varying financial means who have served 
in different capacities in both the public and private sectors.
    In conclusion, while we recognize that there is a compelling need 
for salary reform within all top levels of government, we believe that 
there is an urgent and immediate need to substantially increase 
judicial salaries in order to maintain a stellar judiciary and protect 
one of the pillars of our democracy--Federal judicial independence. We 
urge you to support an appropriation for the Federal Judiciary that is 
sufficient to cover a substantial pay raise for all Article III judges.
                                 ______
                                 

      Prepared Statement of the American Sportfishing Association

    The American Sportfishing Association (ASA) recommends the 
following as the Subcommittee considers appropriations for the National 
Marine Fisheries Service (NMFS) for fiscal year 2004. The American 
Sportfishing Association is a non-profit trade association whose 555 
members include fishing tackle manufacturers, sport fishing retailers, 
boat builders, state fish and wildlife agencies, and the outdoor media.
    The ASA makes these recommendations on the basis of briefings with 
agency staff and from years of experience with fisheries management in 
this Nation. It is important to note that sportfishing provides $116 
billion in economic output to the economy of the United States each 
year. Sportfishing in marine waters alone provides a $31 billion impact 
each year to coastal states.
    Saltwater fishing is the fastest growing sector of recreational 
fishing. Because of this the ASA urges NMFS to continue the pursuit of 
sound management of marine fish stocks by supporting the Regional 
Fishery Management Councils, the States, and the Interstate Marine 
Fisheries Commissions. Collectively, these programs conduct research 
and collect data that is essential for managers to appropriately 
maintain marine stocks and assure that areas are open to anglers. For 
the Regional Fishery Management Councils to carry out the regulations 
of the Magnuson-Stevens Fisheries Conservation and Management Act they 
must be properly funded. The Association recommends funding the 
Regional Councils activities at the $16.032 million level.
    The Association supports the fiscal year 2004 President's request 
for a $3.0 million increase in funds for fisheries stock assessment and 
improvement of data collection, but also recommends an additional $21.2 
million with the goal of funding stock assessment at the $100 million 
level by fiscal year 2008.
    The ASA requests a total of $12.8 million for Fish Statistics--
Economics and Social Science Research. These would include:
  --An increase in base funding for NOAA Fisheries could create a 
        premiere Center for Excellence in Recreational Fisheries 
        Economics. The Center could be housed in NOAA Fisheries and 
        could provide the umbrella for recreational fisheries data 
        collection and economic analysis conducted within NOAA 
        Fisheries and by academia under contract. The Center will serve 
        three primary functions: (1) strategic planning for data 
        collection and analysis; (2) development and application of 
        analytical techniques for measuring the costs, benefits, and 
        impacts of recreational fisheries management; and (3) improved 
        outreach and information sharing to ensure that both fisheries 
        managers and the public receive and understand the data 
        products. The Center will work in concert with and complement 
        the existing NOAA Fisheries recreational fisheries economics 
        program and the Marine Recreational Fisheries Statistics Survey 
        (MRFSS) program. The ASA recommends a $500,000 increase in base 
        funding in fisheries statistics for the Center.
  --The Association urges Congress to appropriate an additional $9.5 
        million in new base funding for fisheries statistics to 
        significantly improve catch and effort data through the NOAA 
        Fisheries' Marine Recreational Fisheries Statistics Survey 
        (MRFSS). Base funding has not increased substantially since the 
        survey's inception in 1979. Improved data collection is central 
        to achieving the rebuilding and management standards called for 
        in the Sustainable Fisheries Act.
  --The ASA recommends Congress increase base funding by $2.8 million 
        for the NOAA Fisheries recreational economics program. This 
        program within NOAA Fisheries is severely understaffed and 
        under-funded. The most basic recreational fishery data is 
        unavailable making NOAA Fisheries unable to fulfill their 
        congressionally mandated requirements to provide the basic data 
        for recreational fisheries management. This additional funding 
        should go directly towards outfitting new Centers with PhD 
        level recreational fisheries economists, improving data 
        collection and conducting expenditure surveys, and conducting 
        critical research.
    The Association urges congress to appropriate $10 million for the 
Atlantic Coastal Fisheries Cooperative Management Act which allows 
government, state agencies, and interstate marine fishery commissions 
to work together in support of fisheries resources. These efforts have 
showed success in stripped bass and weakfish management, and it's 
continued success relies on this level of funding.
    Fish habitat restoration programs would be more cost-effective and 
successful if partnered under a State-Federal cooperative program 
undertaking research and management of fish habitat. ASA is pleased 
with the Administration's budget of $13.22 million for fish habitat 
restoration. Furthermore, we support the continuation of the Charleston 
Bump Billfish Tagging program that serves as an important fish nursery 
for Atlantic Highly Migratory Fish species (AHMF).
    Providing a complete database of information on high priority 
species aids in identification, protection and restoration efforts of 
exploited fish along the Atlantic, Gulf and Pacific coasts. The SEAMAP 
program builds this database and partners with another program, the 
MARFIN program, and together they work to support fishery independent 
research on high priority species. ASA is concerned about the erosion 
of these partnerships and recommends funding for the SEAMAP program at 
$6 million and the MARFIN program also at $6 million ($4 million for 
the Southeast and $2 million for the Northeast).
    The American Sportfishing Association is very concerned with the 
low level of funding for the Anadromous Fisheries Act. Continual 
declines in funding means the needs of most anadromous fish stocks will 
not be met because funding cannot be supported through other federal 
and state funds or the fisheries management community. Therefore, the 
Association urges Congress to fund the Anadromous Fisheries Act grants 
to States at $8 million.
    The ASA is again disappointed in the level of funding for the 
Saltonstall-Kennedy grant program. This program promotes and develops 
fisheries by funding high priority research and development needs. ASA 
urges the Administration to restore this program to the fiscal year 
1999 level of $11.171 million.
    The ASA agrees with the Administration's request to ensure NMFS' 
vessels are in good condition for proper management and research needs. 
These vessels are chartered privately by universities and states, and 
thus their condition is important to the safety of their users.
    Concluding with our NMFS recommendations we would also like to 
comment on some of the other line items in NOAA's budget.
    ASA urges Congress to recognize critical marine resources issues 
and how funding efforts can play a large role in developing new 
technologies. These efforts are stronger with the ability of a 
coalition of federal and state scientists for these critical issues. 
Two important efforts taking place at the Hollings Marine Laboratory 
(HML) and the Fish Cooperative Institute, does important work on marine 
environmental health, biotechnology, and ecototxicology. The 
Association is pleased with the Administration's request to fund the 
HML at $2.5 million and the Fish Cooperative Institute at $750,000.
    The past few years have encountered a large breakout of algal 
blooms resulting in bad pfiesteria seasons. In response to this, effort 
to research and control the problem was largely taken on by the South 
Carolina Harmful Algal Bloom Task Force and was funded by the 
government. The Administration has proposed to terminate this program 
and the ASA urges Congress to continue funding this program at $600,000 
to continue the work on the outbreak of algal blooms.
    Two of the most successful state-federal cooperative efforts to 
improve the quality of our natural resources are the National Estuarine 
Research Reserve (NERR) and Coastal Zone Management (CZM) programs. The 
American Sportfishing Association is pleased with the proposed $16.4 
million for NERR and the $10.012 million for research facilities at 
NERR sites. In addition, we are very pleased with the many efforts of 
these programs ranging from public access to non-point source 
pollution. The ASA also supports the Administration's request for $85 
million for the CZM grants to help states and local communities work to 
improve coastal areas.
    The Coastal Services Center makes valuable contributions toward 
stewardship and provides support to the coastal states in regards to 
advanced coastal decision support systems. This program has yielded 
innovative work in conjunction with state participation and the ASA 
urges funding at the $18 million level.
    One important task of NOAA is to be able to access and treat 
damaged marine resources caused by releases of hazardous substances. 
The Damage Assessment and Restoration Program (DARP) directs these 
efforts and takes on the responsibility of restoring these damaged 
areas as quickly as possible to reduce the amount of loss of fisheries 
and marine habitats. The Association strongly supports the President's 
request for $17.199 million for damage assessment activities and 
restoration efforts of DARP.
    The Sea Grant College Program provides critical research and 
educational opportunities for maintenance and improvement of marine 
resources. The Association recommends funding at the authorized level 
of $73 million and we also disagree with the proposed moving of the 
program to the National Science Foundation. NOAA is more efficient at 
connecting the researchers and their findings to the marine community.
    Finally, Mr. Chairman, the ASA is concerned about NMFS' promotion 
and use of marine reserves to the exclusion of other proven management 
options. This has penalized recreational anglers and is far from a 
proven management tool for marine resources. Public closures should be 
the last management option, not the first. Furthermore, NMFS has 
prepared no standardized implementation guidelines, no conservation 
goals, or long term monitoring plans for the use of marine reserves. 
The ASA requests that funding for the planning and implementation of 
any future marine reserves be halted until management guidelines, such 
as those outlined in the Freedom To Fish legislation, are put in place.
    Mr. Chairman, please make these recommendations part of the record 
for the Subcommittee's 2004 appropriations process.
                                 ______
                                 

           Prepared Statement of the Doris Day Animal League

    Mr. Chairman and members of the Appropriations Subcommittee on 
Commerce, Justice, State and Judiciary, thank you for the opportunity 
to submit testimony on behalf of the 300,000 members and supporters of 
the Doris Day Animal League requesting that the Federal Bureau of 
Investigation assign the crime of animal cruelty its own classification 
in the Uniform Crime Reporting Program.
The Significance of Animal Cruelty as a Crime: ``The Violence 
        Connection''
    Animal cruelty, especially egregious acts, was once viewed as an 
offensive behavior unrelated to other crimes. Now it is recognized as a 
serious crime with important implications for human society. A growing 
body of research, produced over the last thirty years, establishes a 
clear link between animal abuse and human violence. One comprehensive 
study of data from a twenty-year period found that adults convicted of 
animal were more likely than their peers to engage in other forms of 
criminal activities, including violent crimes against humans, property 
crimes, and drug and disorderly offenses. Other studies conducted in a 
number of counties in the United States confirm the overlap between 
committing acts of animal cruelty and engaging in other types of 
criminal behavior. In addition to the association between animal 
cruelty and criminal behavior, there is also evidence that the severity 
of violence against animals can indicate the degree of aggressiveness 
toward human individuals. Research on incarcerated adult males 
demonstrated that the most aggressive inmates had the most violent 
histories of animal cruelty. It is worth noting that in dangerous 
situations such as a hostage taking, the FBI has included a history of 
animal cruelty among the factors used to determine an individual's 
threat level.
    Another important link between animal abuse and human violence, 
with important policy implications, is the co-occurrence of family 
violence and animal abuse. In interview studies with domestic violence 
victims, between 54-71 percent of the women report that their partners 
also harmed or killed the family pet. Child abuse and animal abuse also 
are linked: animal abuse was confirmed in 88 percent of families under 
the supervision of a child welfare agency for physically abusing their 
children.
    In addition to being linked to other types of criminal activity and 
family violence, animal abuse by children signals an important warning. 
The Federal Bureau of Investigation was one of the first to recognize 
the significance of juvenile animal cruelty when it reported that many 
serial killers had abused animals as children. It also has been 
reported that many of the school shooters had engaged in various forms 
of animal cruelty. The National Crime Prevention Council, the 
Department of Education, and the American Psychological Association all 
list animal cruelty as one of the indicators or warning signs of future 
violence. Furthermore, researchers agree that persistent aggressive 
behavior in childhood, termed ``conduct disorder,'' tends to be fairly 
stable trait throughout life and is the single best predictor of later 
criminal behavior. Animal cruelty is one of the symptoms for a 
diagnosis of conduct disorder and therefore can be one of the earliest 
indicators that a child is at risk.
    Not all children who abuse animals will become serial killers, 
school shooters, or criminals as adults. However, research clearly 
suggests that engaging in childhood animal cruelty conditions an 
individual to accept, or engage in, interpersonal violence as an adult.
Responses to ``The Violence Connection''
    Government bodies, professional organizations, and communities have 
responded to information about the animal abuse-human violence 
connection. For example, before 1990, only seven states had felony 
provisions in their animal anti-cruelty statutes; now 41 states and the 
District of Columbia have felony-level laws. As of this date, 24 states 
have provisions in their animal anti-cruelty statutes that permit or 
mandate psychological counseling for offenders.
    In addition to changes in state animal cruelty statutes, awareness 
of the significance of animal abuse as a crime has resulted in the 
development of a number of programs. ``Safe Pet'' programs, in which 
the pets of domestic violence victims are provided safekeeping so that 
women feel free to leave dangerous situations, are being instituted in 
communities throughout the United States. Animal control officers are 
being trained to ``cross report,'' that is, to look for signs of child 
and spousal abuse when investigating an animal abuse or neglect 
complaint. Intervention programs for children and adults who abuse 
animals have been developed and mental health professionals are being 
trained in this area of treatment.
Modifying the Reporting Categories of the Uniform Crime Reporting 
        Program
    The Uniform Crime Reporting (UCR) Program is a nationwide effort in 
which crime statistics are collected from nearly 17,000 city, county, 
and state law enforcement agencies. During 2000, the participating 
agencies represented 94 percent of the total U.S. population. The 
current UCR Program classifies offenses in two groups, Part I and Part 
II. Crimes vary from criminal homicide in Part I to vagrancy and curfew 
and loitering laws in Part II. Not only law enforcement, but also 
criminologists, sociologists, legislators, municipal planners, the 
media, and others interested in criminal justice use the statistics for 
research and planning purposes. However, under the current UCR Program, 
there is no category to report crimes of animal cruelty, even though 
animal abuse often is an indicator of other types of criminal behavior, 
including family violence.
    Assigning the crime of animal cruelty to its own classification 
would have a number of advantages. Law enforcement agencies, 
researchers, policy planners, and others would be better able to 
understand the factors associated with animal abuse, track trends at 
the state and national level, and determine demographic characteristics 
associated with animal abuse--all of which would assist in promoting 
more effective intervention and prevention strategies to interrupt the 
cycle of violence. Finally, assigning animal cruelty its own category 
would assist law enforcement agencies by helping them identify and 
track individuals with histories of violence.
Proposed Report Language for the Senate Subcommittee on Commerce, 
        Justice, State and Judiciary Appropriations
    We respectfully request that the Subcommittee consider the 
following report language for the Commerce, Justice, State and 
Judiciary Appropriations bill:
    ``The Committee commends the Federal Bureau of Investigation (FBI) 
for its successful Uniform Crime Reporting (UCR) Program. Currently, 
there is no individual category for animal cruelty in the UCR Program 
even though animal cruelty is a crime in all states, certain acts of 
animal cruelty are felonies in 41 and the District of Columbia, and it 
is linked to other types of crime, including family violence. 
Therefore, there is no way to systematically track such cases. The 
current practice is to rely on the limited ability of local animal 
control agencies to monitor animal cruelty cases or literally check 
local court records. Given the current arrangement, state and national 
trends are impossible to identify.
    ``The Committee directs the FBI to provide the necessary resources 
to assign the crime of animal cruelty its own classification in the UCR 
Program by adding this category to its software and other reporting 
mechanisms. This will enable law enforcement agencies and researchers 
to track trends and better understand factors associated with 
committing animal abuse, allowing more effective interventions. 
Additionally, individuals who are more likely to commit other serious 
crimes could be identified.
    ``The Committee further directs the FBI to provide a report to the 
Committee by December 2003 on the integration of this category into its 
UCR Program.''
                             reference list
    Ascione, F. A. (1993). Children who are cruel to animals: A review 
of research and Implications for developmental psychopathology. 
Anthrozoos, 6, 226-247.
    Ascione, F. A. (1998). Battered women's reports of their partners' 
and their children's' cruelty to animals. Journal of Emotional Abuse, 
1, 119-133.
    Ascione, F. A. (2001). Animal abuse and youth violence. Office of 
Juvenile Justice and Delinquency Prevention (OJJDP), Juvenile Justice 
Bulletin, September.
    Boat, B. (1999). Abuse of children and abuse of animals: Using the 
links to inform child assessment and protection. In F. R. Ascione & P. 
Arkow (Eds.), Child abuse, domestic violence, and animal abuse: Linking 
the circles of compassion for prevention and intervention (pp. 83-100). 
West Lafayette, Indiana: Purdue University Press.
    Deviney, E., Dickert, J., & Lockwood, R. (1983). The care of pets 
within child abusing families. International Journal for the Study of 
Animal Problems, 4, 321-329.
    Felthous, A.R. & Kellert, S.R (1987). Childhood cruelty to animals 
and later aggression against people: A review. American Journal of 
Psychiatry, 144, 710-717.
    Flynn, C. P. (2000). Why family professionals can no longer ignore 
violence toward animals. Family Relations, 49, 87-95.
    Jory, B. & Randour, M.L. (1999). The AniCare Model of Treatment for 
Animal Abuse (adult version). Printed and distributed by the Doris Day 
Animal Foundation and Psychologists for the Ethical Treatment of 
Animals.
    Kellert, S.R. & Felthous, A. R. (1985). Childhood cruelty toward 
animals among criminals and noncriminals. Human Relations, 38, 1113-
1129.
    Luke, C., Arluke, A., Levin, (1997) Cruelty to animals and other 
crimes: A study by the MSPCA and Northeastern University. Boston: 
Massachusetts. Society for the Prevention of Cruelty to Animals.
    Randour, M.L., Krinsk, S., & Wolf, J. (2002). AniCare Child: An 
Approach for the Assessment and Treatment of Childhood Animal Abuse. 
Printed and distributed by the Doris Day Animal Foundation and 
Psychologists for the Ethical Treatment of Animals.
                                 ______
                                 

   Prepared Statement of the University Corporation for Atmospheric 
                                Research

    On behalf of the University Corporation for Atmospheric Research 
(UCAR) and the university community involved in weather and climate 
research and related education, training and support activities, I 
submit this written testimony for the record of the U.S. Senate 
Committee on Appropriations, Subcommittee on Commerce, Justice, State 
and the Judiciary. This testimony pertains to the fiscal year 2004 
budget request for the National Oceanic and Atmospheric Administration 
(NOAA). UCAR is a consortium of 66 universities that manages and 
operates the National Center for Atmospheric Research (NCAR) and 
additional atmospheric and related sciences programs. In addition to 
its member universities, UCAR has formal relationships with 
approximately 100 additional undergraduate and graduate schools 
including several historically black and minority-serving institutions, 
and 40 international universities and laboratories. The National 
Science Foundation (NSF) and other federal agencies, including NOAA, 
support UCAR.
                              introduction
    As one of the world's foremost scientific and environmental 
agencies, NOAA has responded to the needs of the nation in designing 
its budget and program to protect citizens, the environment and the 
economy. Last year the NOAA leadership conducted a nationwide program 
review, asking for input from NOAA's many stakeholders. Those responses 
are reflected in the subsequent strategic plan, ``New Priorities for 
the 21st Century.'' We applaud the NOAA leadership for its vision, and 
urge the Committee to support the critical, evolving work of this 
agency. Within the NOAA fiscal year 2004 budget request, I would like 
to comment on the following offices and programs:
Office of Oceanic and Atmospheric Research (OAR)
    The OAR supports a network of scientists and environmental research 
laboratories in order to provide the sound science upon which decision 
makers can frame effective regulations to solve environmental problems 
and upon which economic growth can be managed in an environmentally 
sound manner. The President's request for OAR overall is down 2 percent 
from the fiscal year 2003 final appropriation. However, since the 
fiscal year 2004 request, which preceded the fiscal year 2003 final 
numbers, was based on the fiscal year 2003 request and reflected a 
major increase for OAR, we believe that the Administration is 
demonstrating strong commitment to the work of OAR. Therefore, I ask 
the Committee to provide OAR with a five percent increase and fund the 
Office at $384.0 million in fiscal year 2004.
    U.S. Weather Research Program (USWRP).--USWRP is an interagency 
program that is dedicated to making forecasts of high-impact weather 
more specific, accurate, and reliable, thereby saving lives and 
property, and helping regional economies. I urge the Committee to 
support the fiscal year 2004 request of $4.0 million for the USWRP Base 
and $1.3 million for THORPEX, an international program focused on 
extending weather predictability from the current 7 days to two weeks 
and double the rate of improvements in forecast skill by 2012, and to 
support the request of $7.3 million for the High Impact Weather Program 
component of the USWRP.
    U.S. Weather Research Program--Collaborations Fund.--Through the 
Office of Oceanic and Atmospheric Research (OAR) and the National 
Weather Service (NWS), NOAA bears a great responsibility for advancing 
the nation's weather research and the application of that research to 
improve weather forecasts and warnings. The best way to accomplish this 
is to form working alliances, or partnerships, between the scientific 
expertise that exists within NOAA and the country's broad expertise 
within the university and private sector communities. Competitive 
proposals and a peer review process through the establishment of a 
Collaborations Fund would ensure that the best research results and 
technologies are achieved for the resources available. I urge the 
Committee to establish the USWRP Collaborations Fund with a new 
allocation of $20 million in NOAA's Office of Oceanic and Atmospheric 
Research, in order to leverage the research and research applications 
expertise of this country toward accelerated implementation of the 
USWRP goals.
    Climate and Global Change Program.--The climate variability 
predictions provided by the Climate and Global Change Program are 
absolutely critical to related national and international policy 
formulation and to efforts to adapt to and mitigate the effects of 
long-term climate change. The Program is an integral part of the 
interagency U.S. Global Change Research Program (USGCRP) that is the 
major U.S. contributor to the world's understanding of the global 
climate system. The President's request for this program is $73.0 
million, down 2.3 percent from the fiscal year 2003 final 
appropriation. I urge the Committee to provide the Climate and Global 
Change Program $74.7 million at the very least, the level at which this 
program is funded for fiscal year 2003.
    Phased-Array Radar.--NOAA requests $1 million to develop new 
technologies for forecasting and detecting tornadoes and other forms of 
severe weather and to disseminate this information to emergency 
managers, the media, and the general public for appropriate action. 
This initiative will provide the meteorological research community with 
the first dedicated phased-array radar facility to collect real-time 
data around the clock. When fully implemented, tornado warning lead 
times could be doubled from 11 to a life-saving 22 minutes. I urge the 
Committee to support the $1 million request for the Phased-Array Radar.
    Climate Observations and Services Program.--I urge the Committee to 
fund the $55.3 million fiscal year 2004 request for Climate 
Observations and Services. A robust observing system is perhaps the 
most critical tool for the development of more accurate weather and 
climate models. The increase for this program will build the climate 
observing system required to support the research, modeling, and 
decision support activities for the Administration's Climate Change 
Research Initiative (CCRI). I further urge the Committee to support the 
President's fiscal year 2004 request of $42.0 million for CCRI, our 
nation's key research contribution to the global issue of climate and 
environmental change.
Laboratories and Joint Institutes
    The 12 NOAA Research Laboratories, located across the country with 
field stations around the world, conduct an integrated program of 
fundamental research, technology development, and services to improve 
understanding of the Earth and its oceans and inland waters, the lower 
and upper atmosphere, and the space environment. The Laboratories have 
established formal collaborative agreements with universities and non-
profit research institutions to form 11 Joint Institutes to study the 
earth's oceans, inland waters, intermountain west, atmosphere, arctic, 
and solar-terrestrial environment. I would like to comment on the 
fiscal year 2004 request for the following laboratories:
    Forecast Systems Laboratory (FSL).--The fiscal year 2004 request 
terminates the nation's Wind Profiler Network, 35 stations that provide 
hourly wind profiles from the ground to 53,000 feet to operational 
weather forecasters and weather models. These data provide invaluable 
support in the forecasting of tornadoes, winter storms and flash 
floods. I strongly urge the Committee to restore $4.1 million for the 
Wind Profiler Network and to thereby fund the Forecast Systems 
Laboratory $11.5 million for fiscal year 2004.
    Boulder Facilities Operations.--Six of the 12 NOAA Research 
Laboratories, one NESDIS Data Center, one of OAR's 11 Joint Institutes, 
and the Denver Forecast Office of the National Weather Service (NWS) 
are all housed in Boulder at the David Skaggs Research Center. The 
fiscal year 2003 Omnibus Bill eliminated rent, maintenance, utility, 
and security charges assessed by the General Services Administration 
for this building. It is critical that the Committee support Boulder 
Facilities Operations at $4.5 million as requested for fiscal year 
2004.
    Adjustments to Base.--Failure to fund unavoidable increases to the 
base budget, such as inflationary costs, changes in costs for salaries, 
and good and services, can have a significant impact on the operations 
of an agency, and affect productivity over time when those increases 
have to be funded out of research programs. I urge the Committee to 
restore the $4.5 million that was cut from Adjustments to Base in the 
fiscal year 2003 Omnibus Bill, thereby increasing the fiscal year 2004 
request to $10.0 million.
    Space Environment Center (SEC).--The SEC is the national and world 
warning center for disturbances that can affect people and equipment 
working in the space environment. It provides real-time monitoring and 
forecasting of solar and geophysical events, conducts research in 
solar-terrestrial physics, and develops techniques for forecasting 
solar and geophysical disturbances. SEC's Space Weather Operations 
Center is jointly operated with the U.S. Air Force because DOD's smart 
weapons' accuracies, as well as the ability of ships, planes and 
special forces units to fix their positions using GPS, are adversely 
affected by space weather events. The fiscal year 20043 Omnibus Bill 
cut the SEC by $2.25 million, an amount that seems to have been 
restored in the fiscal year 2004 request. I urge the Committee to fund 
the fiscal year 2004 request of $8.3 million for the Space Environment 
Center.
National Weather Service (NWS)
    As the nation's vulnerability to weather related hazards rises 
because of increasing population, enhanced infrastructure, and 
population movement toward cities in threatened regions such as coastal 
areas, the NWS strives to mitigate impacts through improved forecasts 
and warning systems for the protection of life and property. There are 
few agency programs that impact our daily lives and the health of our 
economy as profoundly as does the NWS. I urge the Committee to support 
the fiscal year 2004 NWS overall request of $820 million. Within NWS, I 
would like to comment on the following programs:
    NWS Adjustments to Base.--As the largest and most labor-intensive 
service within NOAA--70 percent of its budget dedicated to labor--the 
NWS depends on full funding of personnel cost increases in order to 
sustain current service levels. In the past, reductions in ATBs 
resulted in cutbacks in NWS research grants and forecaster training 
programs. It is critical that the Committee support the $20.1 million 
to fund adjustments to base.
    NOAA Center for Weather and Climate Prediction.--The Department of 
Commerce, the State of Maryland, and academic community advisors have 
all agreed on a shared vision to build a Center of Excellence for 
Environmental Research, Education, Applications and Operations in order 
to meet NOAA operational requirements to create research synergy in 
weather and climate prediction; to accelerate transition of new science 
and technology into operations; and to enhance recruitment 
opportunities. I ask that the Committee support the request of $10.4 
million for this new state-of-the-art facility.
    Advanced Hydrologic Prediction System (AHPS).--Seventy-five percent 
of all Presidential Disaster Declarations involve flood damages. AHPS 
will provide emergency managers with critical data with which to save 
lives and property, manage energy and water resources more efficiently, 
and enable a more rapid infusion of scientific advances into the 
system. Within the NWS Operations, Research, and Facilities account, I 
urge the Committee to support the fiscal year 2004 request of $6.1 
million.
    Aviation Weather.--Weather is the cause of approximately 200 U.S. 
general aviation pilot fatalities per year and over 70 percent of U.S. 
commercial airline delays that result in tremendous cost to customers 
and companies. The Aviation Weather program increases the number of 
aviation weather observations; transitions research into operations 
more efficiently; and develops and implements new training programs for 
forecasters, pilots, and air traffic controllers. I urge the Committee 
to support the NWS Aviation Weather initiative at the requested $2.5 
million for fiscal year 2004.
    NWS Weather and Climate Supercomputing and Backup (Systems 
Acquisition).--The critical nature of the separate request for NWS 
supercomputing backup cannot be exaggerated. The NWS forecast computing 
capabilities are located at a single facility which means that the 
nation's severe weather watches and warnings all emanate from one 
location that could fail for a number of reasons including faulty 
technology, power supply problems, or terrorism. The redundancy, 
provided by supercomputing backup, covers those risks and is a critical 
component of the Department of Commerce Homeland Security Initiative. 
When not in emergency use, the backup provides needed computing time 
for weather and climate research. I urge the Committee to support the 
fiscal year 2004 request of $19.3 million for NWS Weather and Climate 
Supercomputing and $7.2 million to implement the backup computer 
system.
    Radiosonde Replacement Network.--There is little doubt that the 
obsolete infrastructure for this principle data source on upper air for 
all weather forecasts and models will fail by 2005 if it does not 
receive adequate modernization funding now. I urge the Committee to 
support the fiscal year 2004 request of $6.9 million for the Radiosonde 
Replacement Network in the NWS Procurement, Acquisition and 
Construction (PAC) account.
    Advanced Weather Interactive Processing System (AWIPS).--This 
interactive computer system integrates all meteorological and 
hydrological data, and all satellite and radar data. AWIPS is a 
fundamental source of data for the research community and, when 
combined with NEXRAD radar, it enables the NWS to issue far more 
effective weather warnings and forecasts for the entire country. In the 
NWS Operations, Research and Facilities (ORF) account, I urge the 
Committee to support the fiscal year 2004 proposed amount of $37.6 
million for AWIPS. In the NWS Procurement, Acquisition and Construction 
(PAC) account, I urge the Committee to fund AWIPS at the $16.3 million 
request at least, an amount level with fiscal year 2003.
    Cooperative Observer Network.--The network's 11,000 weather 
observation sites are used to maintain the country's climate record and 
to provide data to NWS local field offices and to university 
laboratories. I urge the Committee to support the request of $1.9 
million, the same as the fiscal year 2003 enacted level, for 
Cooperative Observer Network maintenance.
    Central Forecast Guidance.--The NWS Central Forecast Guidance line 
provides most of the funding for the National Centers for Environmental 
Prediction (NCEP), nine centers within the NWS that all work together 
toward the common goal of using data for weather predictions and 
seasonal forecasts in order to save lives, protect property, and create 
economic opportunity. Forecasts that reach the public via media outlets 
originate at NCEP. In recent years, the centers have not been supported 
adequately to process weather data and transfer it into operations. In 
order to address this problem, I urge the Committee to support the 
fiscal year 2004 request of $45.1 million, a 3.7 percent increase over 
the fiscal year 2003 enacted level.
National Environmental Satellite, Data and Information Service (NESDIS)
    NESDIS operates this country's space-based component of the global 
environment observing system, and manages the world's largest 
collection of atmospheric, geophysical, and oceanographic data 
representing 85 percent of the data used by the NWS for forecasting 
activities. Society depends on NESDIS for data that affect numerous 
activities including distributing energy supplies, maintaining 
satellite communications, developing global food supplies, increasing 
aviation safety, managing natural resources, protecting citizens from 
natural hazards, and transporting our nation's armed forces. I urge the 
Committee to support the fiscal year 2004 request of $91.2 million for 
NESDIS Environmental Satellite Observing Systems, an increase of $5 
million over the fiscal year 2003 enacted level.
    The rich data collected by the NESDIS satellite systems are 
acquired, processed, analyzed, archived and disseminated through the 
Data Information Management Systems to commerce, industry, agriculture, 
science and engineering, the general public, and government at all 
levels. While the Satellite Systems function collects data, the Data 
Centers and Information Services function makes those data useful and 
available, so I am disturbed to see that the data management function 
is recommended for a $5.3 million decrease. An increase in funding for 
the observing systems that collect data obviously should be coupled 
with an increase in funding for the management systems that make the 
collected data useful and accessible. I urge the Committee to 
appropriate, at the very least, $5.3 million above the request in order 
to restore the NESDIS Data Centers and Information Services to the 
fiscal year 2003 enacted level of $64.4 million in fiscal year 2004.
Educational Partnership Program with Minority Serving Institutions
    Under-representation of minorities in earth science disciplines in 
this country is a serious issue that must be addressed by multiple 
programs across multiple agencies and institutions. I urge the 
Committee to support the $15.0 million request for NOAA's Educational 
Partnership Program with Minority Serving Institutions.
    On behalf of the UCAR community, I want to thank the Committee for 
the important work you do for U.S. scientific research, infrastructure, 
education, and training. We understand and appreciate that the nation 
is undergoing significant budget pressures at this time, but a strong 
nation in the future depends on the investments we make in science and 
technology today. We appreciate your attention to the recommendations 
of our community concerning the fiscal year 2004 budget of the National 
Oceanic and Atmospheric Administration.
                                 ______
                                 

Prepared Statement of the National Federation of Community Broadcasters

    Thank you for the opportunity to submit testimony to this 
Subcommittee regarding the appropriation for the Public 
Telecommunications Facilities Program (PTFP). As the President and CEO 
of the National Federation of Community Broadcasters, I speak on behalf 
of over 200 community radio stations and related organizations across 
the country. This includes the new Low Power FM service that has 
recently been authorized by the FCC. NFCB is the sole national 
organization representing this group of stations, which provide service 
in both the smallest communities and largest metropolitan areas of this 
country. Nearly half of our members are rural stations, and half are 
minority controlled stations.
    In summary, the points we wish to make to this Subcommittee are 
that NFCB:
  --Supports funding for PTFP that will cover the on-going needs of 
        public radio and television stations.
  --Supports funding for conversion of public radio and television to 
        digital broadcasting.
  --Requests report language to ensure that PTFP utilizes any digital 
        funds it receives for radio as well as television needs.
    Community radio supports $70 million in funding for the Public 
Telecommunications Facilities Program in fiscal year 2004.--Federal 
support distributed through the PTFP is essential to continuing and 
expanding the public broadcasting service throughout the United States. 
It is particularly critical for rural stations and for those stations 
serving minority communities. PTFP funds new stations, expanding the 
reach of public broadcasting to rural areas and to audiences that are 
not presently served by existing stations. In addition, it replaces 
obsolete and worn out equipment so that the existing stations can 
continue to broadcast high quality programming. Finally, with the 
advent of digital broadcasting, PTFP funding will help with the 
conversion to this new technology.
    We support $70 million in funding to ensure that both the on-going 
program--currently funded in fiscal year 2003 at $43.4 million--will be 
continued, and that the increase to $70 million will be available to 
help cover the cost of radio and television converting to digital 
transmission. This increase in funding is particularly urgent this year 
because the FCC has now endorsed a standard for digital radio 
broadcasting and the television conversion deadline is imminent.
    Federal funding is particularly critical to stations serving rural 
and underserved audiences which have limited potential for fundraising 
because of sparse populations, limited number of local businesses, and 
low income levels. Even so, PTFP funding is a matching program so that 
the federal money is leveraged with a local commitment of funds. This 
program is a strong motivating factor in raising the significant money 
necessary to replace, upgrade and purchase expensive broadcast 
equipment.
    Community radio supports funding for conversion to digital 
broadcasting for public radio and television.--While public 
television's digital conversion needs are more immediate, the Federal 
Communications Commission has now approved a standard for digital radio 
transmission. The initial conversion of radio stations is being 
concentrated in 13 seed markets. The Corporation for Public 
Broadcasting (CPB) is using some of its previously appropriated digital 
funds to help public stations in these markets convert to digital, 
conduct additional research on AM radio conversion, and work with radio 
receiver manufacturers to build in the capacity to receive a 2nd audio 
channel. The development of 2nd audio channels will potentially double 
the public service that public radio can provide, particularly to 
unserved and underserved communities. This initial funding from CPB 
will only help a small number of the stations that will ultimately need 
to either convert or be left behind while the world goes digital.
    We appreciate Congress' direction to the Corporation for Public 
Broadcasting that it utilize its digital conversion fund for both radio 
and television and ask that you ensure that the PTFP funds are used for 
both media. Congress stated, with regard to the fiscal year 2000 
digital conversion funds:
    The required (digital) conversion will impose enormous costs on 
both individual stations and the public broadcasting system as a whole. 
Because television and radio infrastructures are closely linked, the 
conversion of television to digital will create immediate costs not 
only for television, but also for public radio stations (emphasis 
added). Therefore, the Committee has included $15,000,000 to assist 
radio stations and television stations in the conversion to 
digitization . . . (S. Rpt. 105-300)
    NFCB requests that the funding for digital conversion be committed 
in advance to facilitate the orderly transition of a very 
individualized process--a process that will be different at each 
station. Advance funding will give the system time to raise the 
substantial matching funds that will be necessary and to know what 
additional funds will be needed to complete the process.
    Thank you for your consideration of our testimony.
                                 ______
                                 

 Prepared Statement of the Regional Information Sharing Systems (RISS) 
                                Program

    The Regional Information Sharing Systems (RISS) Program 
respectfully requests that Congress appropriate for fiscal year 2004, 
$50 million to continue their support in combating drug trafficking and 
organized crime.
    These funds will enable RISS to continue identifying, targeting, 
prosecuting, and removing criminal conspirators involved in terrorism 
activity, drug trafficking, organized criminal activity, criminal 
gangs, and violent crime that span multijurisdictional boundaries. 
Funds will allow RISS to continue to support the investigation and 
prosecution efforts of over 6,300 local, state, and federal law 
enforcement member agencies across the nation comprising over 675,000 
sworn law enforcement personnel.
    Through funding from Congress, RISS has implemented and operates 
the only secure Web-based nationwide network--called riss.net--for 
communications and sharing of criminal intelligence by local, state, 
and federal law enforcement agencies. Funds will allow RISS to upgrade 
the technology infrastructure and resources to support increased use 
and reliance on the system by member law enforcement agencies and 
support the integration of other systems connected to riss.net for 
information sharing and communication. Using Virtual Private Network 
technology, the law enforcement users access the public Internet from 
their desktop and have a secure connection over the private riss.net 
intranet to all RISS criminal intelligence databases and resources. 
RISS member law enforcement agencies accessed riss.net an average of 
3.9 million times per month during fiscal year 2002. Riss.net is a 
proven, highly effective system that improves the quality of criminal 
intelligence information available and puts it in the hands of the law 
enforcement officers to make key decisions at critical points in their 
investigation and prosecution efforts.
    The Office of Justice Programs (OJP), Regional Information Sharing 
Systems (RISS) is a federally funded program comprised of six regional 
intelligence centers. The six centers provide criminal information 
exchange and other related operational support services to local, 
state, and federal law enforcement agencies located in all fifty 
states, the District of Columbia, U.S. territories, Canada, Australia, 
and England. These centers are:
    Middle Atlantic-Great Lakes Organized Crime Law Enforcement Network 
(MAGLOCLEN).--Delaware, District of Columbia, Indiana, Maryland, 
Michigan, Pennsylvania, Ohio, New Jersey, and New York, as well as 
Canada and England.
    Mid-States Organized Crime Information Center (MOCIC).--Illinois, 
Iowa, Kansas, Minnesota, Missouri, Nebraska, North Dakota, South 
Dakota, and Wisconsin, as well as Canada.
    New England State Police Information Network (NESPIN).--
Connecticut, Maine, Massachusetts, New Hampshire, Rhode Island, and 
Vermont, as well as Canada.
    Regional Organized Crime Information Center (ROCIC).--Alabama, 
Arkansas, Florida, Georgia, Kentucky, Louisiana, Mississippi, North 
Carolina, Oklahoma, South Carolina, Tennessee, Texas, Virginia, and 
West Virginia, as well as Puerto Rico and the U.S. Virgin Islands.
    Rocky Mountain Information Network (RMIN).--Arizona, Colorado, 
Idaho, Montana, Nevada, New Mexico, Utah, and Wyoming, as well as 
Canada.
    Western States Information Network (WSIN).--Alaska, California, 
Hawaii, Oregon, and Washington, as well as Canada, Guam, and Australia.
    RISS is a crucial force in fighting terrorism, increased violent 
criminal activity by street gangs, drug traffickers, sophisticated 
cyber criminals, and emerging criminal groups that require a 
cooperative effort by local, state, and federal law enforcement. 
Interagency cooperation has proven to be the best method to combat the 
increasing criminal activity in these areas. The RISS Centers are 
filling law enforcement's need for rapid, but controlled sharing of 
information and intelligence pertaining to known or suspected drug 
traffickers and criminals. Congress funded the RISS Program to address 
this need as evidenced by its authorization in the Anti-Drug Abuse Act 
of 1988.
    The success of RISS has been acknowledged and vigorously endorsed 
by the International Association of Chiefs of Police (IACP), as well as 
other national law enforcement groups such as the National Sheriff's 
Association (NSA) and the National Fraternal Order of Police (NFOP). 
These groups have seen the value of this congressional program to law 
enforcement nationally and have worked with the National Association of 
Attorneys General (NAAG), the National District Attorneys Association 
(NDAA), and the National Criminal Justice Association (NCJA) to further 
strengthen the awareness of RISS.
    RISS is operating current state-of-the-art technical capabilities 
and systems architecture that allow local, state, and federal law 
enforcement member agencies to interact electronically with one another 
in a secure environment. The RISS system has built-in accountability 
and security. The RISS secure intranet (riss.net) protects information 
through use of encryption, smart cards, Internet protocol security 
standards, and firewalls to prevent unauthorized access. The RISS 
system is governed by the operating principles and security and privacy 
standards of 28 CFR Part 23 (Criminal Intelligence Systems Operating 
Policies). The technical architecture adopted by RISS requires proper 
authorization to access information, but also provides flexibility in 
the levels of electronic access assigned to individual users based on 
security and need-to-know issues. Riss.net supports secure e-mail and 
is easily accessible using the Internet. This type system and 
architecture is referenced and recommended in the General Counterdrug 
Intelligence Plan (GCIP).
    The RISS Program promotes federal, state, local, and tribal law 
enforcement information sharing. RISS is the mechanism that state and 
federal law enforcement agencies are using to leverage their resources 
and existing systems for sharing sensitive but unclassified 
information. RISS has entered into a partnership with the High 
Intensity Drug Trafficking Areas (HIDTA) to electronically connect all 
of the HIDTA's to riss.net for communications and information sharing. 
Currently, 15 HIDTA's are electronically connected as nodes to riss.net 
and RISS is working to complete the connection of the remaining 
HIDTA's. Nine state agencies are currently connected as nodes on 
riss.net. An additional 15 state law enforcement agencies are pending 
connection as nodes to share information, including terrorism and 
homeland security information, using riss.net.
    The National Drug Intelligence Center (NDIC) is a member of RISS 
and uses the RISS network as a communications mechanism for publishing 
counterdrug intelligence products to federal, state, and local law 
enforcement members. RISS and the El Paso Intelligence Center (EPIC) 
officials entered into a partnership and have electronically connected 
EPIC as a node to riss.net to capture clandestine laboratory seizure 
data from RISS state and local law enforcement member agencies. RISS is 
currently working with the U.S. Department of the Interior, Bureau of 
Land Management (BLM), to connect all of the BLM offices to riss.net. 
Other systems connected to riss.net are the Law Enforcement 
Intelligence Unit (LEIU) and the National Drug Pointer Index (NDPIX). 
The National White Collar Crime Center (NW\3\C) and the Financial 
Crimes Enforcement Network (FinCEN) are currently pending connection to 
riss.net as nodes.
    During 2002, officials of the FBI Law Enforcement Online (LEO) 
system and the RISS system achieved interconnection of the two systems 
for distribution of sensitive but unclassified homeland security 
information to authorized users of both LEO and RISS. In addition, the 
Executive Office of the United States Attorneys (EOUSA) and the RISS 
Centers initiated actions to connect staff to riss.net at each of the 
93 U.S. Attorneys' Offices (USAO) Anti-Terrorism Task Forces throughout 
the United States.
    RISS is also expanding its resources to deliver the RISS Anti-
Terrorism Information Exchange (RISS ATIX) to provide access through 
riss.net to additional groups of users for secure interagency 
communication, information sharing, and dissemination of terrorist 
threat information. These additional groups of users, referred to as 
RISS ATIX participants, will include public service, public safety, 
emergency management, utility, and other critical infrastructure 
personnel that have traditionally not been served by RISS. RISS ATIX 
participants will be assigned restricted access to certain specific 
RISS services and resources as appropriate in consideration of their 
roles with regard to terrorism and disasters.
    All of these above mentioned state and federal agencies are 
integrating with and using the riss.net secure nationwide 
communications backbone to share criminal intelligence and alerts and 
homeland security information within their own agencies and among the 
other agencies. RISS needs funds to purchase hardware and software to 
support these agency system connections to riss.net to continue to 
provide and improve access for sharing information for law enforcement 
agencies across the country. In addition, RISS has developed RISS ATIX 
to provide first responders and critical infrastructure personnel with 
a secure means via riss.net to communicate, share information, and 
receive terrorist threat information. RISS is operating an 
unprecedented nationwide network for communicating critical information 
in a secure environment to both law enforcement and other first 
responders. To support the increased needs of these personnel and 
continue to maintain the RISS system and demand for RISS services and 
resources, RISS is requesting an increase in funding to $50 million for 
2004.
    RISS continues to promote interagency investigations by improving 
capabilities for member agencies to quickly and easily access RISS 
databases and resources by expanding the enrollment of member agencies 
for access to riss.net through distribution of security hardware and 
software. In view of today's increasing demands on federal, state, and 
local law enforcement budgets, requests for RISS services have risen. 
The Institute for Intergovernmental Research (IIR) report on the RISS 
Program showed that as of December 31, 2002, the number of criminal 
subjects maintained in the RISSIntel intelligence databases for all 
Centers combined was 1,079,369 with 258,907 new subjects being added in 
2002. The combined databases of all six RISS Centers also maintained 
data on 1,712,307 locations, vehicles, weapons, and telephone numbers 
for a grand total of 2,791,676 data entries available for search. For 
the twelve-month period January through December 2002, the total number 
of inquiries by law enforcement member agencies to the RISSIntel 
database for all six regional intelligence centers combined was 
766,845. These inquiries resulted in hits or information to assist law 
enforcement agencies in their criminal cases. All RISS Centers combined 
delivered 19,777 analytical products to member agencies in support of 
their investigation and prosecution efforts in 2002.
    This support of law enforcement has had a dramatic impact on the 
success of their investigations. Over the three-year period 2000-2002, 
RISS generated a return by member agencies that resulted in 10,024 
arrests, seizure of narcotics valued at almost $141 million, seizure of 
over $13 million in currency, and recovery or seizure of property 
valued at over $25 million. In addition, almost $3 million was seized 
through RICO civil procedures. In the 22-year period since 1980 when 
the Program was fully implemented, the RISS Program has assisted its 
member agencies with their investigations. Results of these 
investigations have amounted to over $12.7 billion dollars in 
recoveries at a total cost that approximates 2.72 percent of that 
amount, or a $37 return for every dollar spent.
    The Bureau of Justice Assistance administers the RISS Program and 
has established guidelines for provision of services to member 
agencies. The RISS regional intelligence centers are subject to 
oversight, monitoring, and auditing by the U.S. Congress, the General 
Accounting Office, a federally funded program evaluation office; the 
U.S. Department of Justice, Bureau of Justice Assistance; and local 
government units. The Intelligence Systems Policy Review Board also 
monitors the RISS Centers for 28 CFR Part 23 compliance.
    It is respectfully requested that the Congress fully fund the RISS 
Program as a line item in the congressional budget, in the requested 
amount of $50 million. Local and state law enforcement, who depend on 
the RISS Centers for information sharing, training, analytical support, 
funding, and technical assistance, are anticipating increased 
competition for decreasing budget resources. The state and local 
agencies require more, not less, funding to fight the nation's crime/
drug problem.
    We are grateful for this opportunity to provide the committee with 
this testimony and appreciate the support this committee has 
continuously provided to the RISS Program.
                                 ______
                                 

              Prepared Statement of The Ocean Conservancy

    The Ocean Conservancy (TOC) is pleased to share its views regarding 
the marine conservation programs in the budgets of the National Oceanic 
and Atmospheric Administration's (NOAA) and the Department of State's 
Bureau of Oceans and International Environmental and Scientific 
Affairs. TOC requests that this statement be included in the official 
record for the fiscal year 2004 Commerce, Justice, State, the Judiciary 
and Related Agencies bill. TOC cannot overstate the importance of this 
Subcommittee in advancing marine conservation and greatly appreciates 
the funding provided in fiscal year 2003. TOC recognizes the 
constraints this Subcommittee faces this year and urges you to continue 
to make ocean conservation a top priority.
            national oceanic and atmospheric administration
Conservation Trust Fund
    Passed by Congress in 2000, the Conservation Trust Fund (also 
referred to as the Conservation Spending Category) is a groundbreaking 
bipartisan accomplishment and represents a major advancement in 
conservation funding. TOC is grateful that this Subcommittee has upheld 
its commitment to funding the Conservation Trust Fund over the last 
three fiscal years and calls for your continued commitment in fiscal 
year 2004 by dedicating $520 million for critical ocean and coastal 
conservation activities within NOAA. We also urge you to protect the 
integrity of the trust fund by limiting its uses for net increases 
rather than a substitute for base funding.
Coral Reef Conservation
    NOAA plays a critical role in protecting coral reefs, serves on the 
successful Interagency Coral Reef Task Force and has major 
responsibilities for implementing the National Action Plan to Conserve 
Coral Reefs. Through monitoring, mapping, restoration and outreach 
activities, NOAA works with state, territory, local and other parties 
to reduce land-based pollution, overfishing, diseases, and other 
threats to coral reefs. TOC is disappointed that the Subcommittee cut 
funding for coral reefs in fiscal year 2003 and respectfully requests 
that at a minimum, funding be restored in fiscal year 2004. In 
addition, $2 million above the Administration's request is desperately 
needed to support local efforts to protect coral reefs and should be 
directed to the Coral Reef Conservation Fund established by the Coral 
Reef Conservation Act of 2000 (Public Law 106-562). This funding will 
leverage an additional $2 to $4 million in matching resources through 
partnerships with local, state and territory governments, universities, 
the private sector and others to fund on-the-ground coral reef 
conservation and management activities in the United States and its 
territories. This funding is one of The Ocean Conservancy's highest 
priorities.
National Ocean Service
            Marine Sanctuary Program
    Our nation's 13 sanctuaries encompass almost 18,000 square miles of 
our most significant marine resources. TOC requests the Subcommittee 
provide $37.8 million for sanctuary operations, $2 million above the 
Administration's request. This increase is critical to reducing 
staffing shortages and supporting conservation, community outreach, 
research, and education programs, and updating sanctuary management 
plans as required by law. TOC also supports the Administration's 
request of $10 million for construction, particularly for interpretive 
facilities to educate the general public about the role of the federal 
government in managing our nation's ocean and coastal resources.
            Marine Protected Areas (MPAs)
    TOC greatly appreciates this Subcommittee's $1 million increase in 
fiscal year 2003 to support NOAA's MPAs initiative and requests an 
additional $1 million increase in fiscal year 2004. This $5 million 
will allow NOAA to work more effectively with federal and state 
agencies and other partners to acquire data for the ongoing MPA 
inventory and support the recently formed Marine Protected Areas 
Advisory Committee and its working groups. This increase will allow 
NOAA to better assist stakeholders, including states, the National Park 
Service and others by holding regional workshops and providing training 
and technical assistance to determine how best to design and implement 
MPAs.
            Nonpoint Pollution Implementation Grants
    Nonpoint source pollution continues to be the nation's largest 
source of water pollution. There were over 13,410 closings and 
advisories at U.S. beaches in the year 2001. TOC supports the 
Administration's fiscal year 2004 request of $10 million to help 
coastal states and territories, with approved nonpoint plans, continue 
to make progress in implementing their priority activities.
            National Marine Fisheries Service
    The Ocean Conservancy remains concerned about the state of our 
nation's fisheries. As the $100 million for fisheries disaster 
assistance in fiscal year 2003 demonstrates, we must do a better job 
managing our fisheries. Below is what TOC believes are NMFS's most 
pressing needs.
            Expanding Fisheries Stock Assessments
    The status of roughly two-thirds of our commercially caught ocean 
fish populations is unknown due in large part to lack of funding for 
basic research and regular stock assessments. We applaud the 
Subcommittee's decision to increase stock assessment funding to $17 
million in fiscal year 2003 and urge that this trend continues with $25 
million in fiscal year 2004. Doing so will help reduce the backlog in 
research days-at-sea and give managers baseline information critical to 
managing our fisheries. This funding is one of The Ocean Conservancy's 
highest priorities.
            Fisheries Observers
    Along with stock assessments, reliable, objective information about 
how many fish are being caught, directly and as bycatch, is crucial to 
responsible management of our fish populations. Observers are a key 
means of collecting such information. TOC recommends $25 million for 
fisheries observers in fiscal year 2004, $5 million above the 
Administration's request and encourages the Subcommittee to prioritize 
the following three programs.
            Bycatch Observers
    TOC fully supports the Administration's $2.8 million initiative to 
reduce bycatch. The $2 million within this initiative for bycatch 
observers will support approximately 2,000 observer days-at-sea, 
thereby enhancing the collection of bycatch data from commercial and 
recreational fishing vessels. Two fisheries in the Gulf of Mexico in 
desperate need of increased observer coverage are the bottom longline 
fishery and the shrimp otter trawl fishery. Longlines capture a variety 
of ocean wildlife besides the reef fish they target, including marine 
birds, sea turtles and soft corals. The shrimp fishery is believed to 
be the largest fishery in the Gulf of Mexico, but efforts to monitor 
the effort and catch are limited. With revised turtle excluder device 
regulations going into effect in August, it is critical that an 
observer program be established.
            National Observer Program
    While encouraged by the Administration's request to expand the 
national observer program, TOC believes that $7 million is still 
inadequate and recommends additional support for NMFS to meet its 
national observer needs.
            West Coast Observers
    TOC respectfully requests that the Subcommittee, at the minimum, 
return funding for West Coast Observers to the fiscal year 2002 level 
of $4.0 million.
            Enforcement/Surveillance and Vessel Monitoring System
    In addition to better data, enforcement of our fishery management 
laws is critical. Unfortunately, lack of funding has hampered NMFS's 
ability to kept pace with the need. TOC urges $46.9 million in fiscal 
year 2004 to address this shortfall so that more officers can be hired 
to better enforce our fisheries management laws. TOC supports expanding 
the Vessel Monitoring System (VMS) program. While we are pleased that 
the Subcommittee provided a slight increase in VMS in fiscal year 2003, 
we urge that the President's request of $7.4 million be fully supported 
in fiscal year 2004.
            Essential Fish Habitat (EFH)
    Given the need to better understand the impacts of fishing and 
other activities on EFH, and the need to more fully comply with the 
Magnuson-Stevens Fishery Conservation and Management Act's requirement 
to minimize impacts to those habitats, TOC believes that increased 
funding is crucial and requests $12.5 million in fiscal year 2004.
            Atlantic Coast Cooperative Statistics Program
    TOC greatly appreciates the Subcommittee's support of $2 million in 
fiscal year 2003 for this unique cooperative state and federal 
fisheries data collection program. We request $3 million in fiscal year 
2004 so that this program can be expanded and better implemented along 
the East Coast, thereby helping to ensure that data collection methods 
are more consistent and reliable.
            Highly Migratory Shark Fisheries Research Program
    This effective multi-regional collaborative effort conducts 
research on shark and ray populations in the Gulf of Mexico, the 
Atlantic, and the Pacific. Information developed from this program has 
provided critical information for assessing the status of shark 
populations and informing better management. TOC greatly appreciates 
the Subcommittee's rejection of the Administration's proposed cut in 
fiscal year 2003 and requests at least level funding in fiscal year 
2004.
            Pacific Highly Migratory Species Research
    TOC supports funding for this program, believes the 
Administration's request of $750,000 is inadequate and requests $1.5 
million in fiscal year 2004. Specifically, funding is needed to conduct 
stock assessments and biological studies and improve bycatch mitigation 
techniques for these fisheries.
            Marine Mammal Protection
    TOC believes the lack of adequate resources has severely hampered 
NMFS's ability to effectively implement the MMPA and requests $9.1 
million in fiscal year 2004, $2 million above the Administration's 
request. This increase is necessary to fund top priority studies 
identified by the take reduction teams: to design and implement fishery 
management plans that will not endanger marine mammals; conduct 
research on population trends, health, and demographics; and to carry 
out education and enforcement programs. It would also allow research 
into the causes of strandings and die-offs and identification of 
mitigation measures to prevent such deaths in the future.
            Bottlenose Dolphin Research
    In response to the more than 100 bottlenose dolphin mortalities in 
the gillnet fishery off North Carolina (over four times allowable 
levels), the Atlantic Bottlenose Take Reduction Team was established in 
2001. TOC recommends $3 million in fiscal year 2004 to reduce dolphin 
mortalities by refining population estimates, conducting bycatch 
estimates and increasing observer coverage.
            Endangered Species
    NMFS bears significant responsibility for administering the 
Endangered Species Act and is responsible not only for the recovery of 
already-listed species such as Northern Atlantic Right Whales (see 
below), smalltooth sawfish, Steller sea lions, and all species of sea 
turtles found in U.S. waters, but also for responding to listing 
petitions in a timely fashion, consulting with federal agencies on 
proposed actions that may affect listed species, designating critical 
habitat, and implementing recovery plans. TOC is concerned about NMFS's 
ability to meet its responsibilities under the ESA and respectfully 
requests the Subcommittee increase NMFS's ESA base funding by $2 
million to meet its fiscal year 2004 demands.
            North Atlantic Right Whales
    With approximately only 300 North Atlantic Right Whales still 
alive, funding is needed to improve our understanding of right whales 
and to develop fishing technologies to reduce entanglements. TOC thanks 
the Subcommittee for its support of $10 million in fiscal year 2003 and 
requests level funding in fiscal year 2004.
                          department of state
Bureau of Oceans and International Environmental and Scientific Affairs
            International Fisheries Commission Account
    TOC requests $200,000 for the State Department to support 
implementation of two landmark agreements, the Inter-American 
Convention for the Protection and Conservation of Sea Turtles (IAC) and 
the Memorandum of Understanding on the Conservation and Management of 
Marine Turtles and their Habitats of the Indian Ocean and South East 
Asia (IO). To date, nine nations, including Brazil, Costa Rica, 
Ecuador, Honduras, Mexico, the Netherlands, Peru, and Venezuela have 
ratified the IAC. To date, 23 countries have signed the IO agreement. 
Since ratifying the IAC and becoming a signatory of the IO agreement in 
2000, the United States has played a leading role in the establishment 
of these instruments and continued leadership and support will ensure 
their early momentum continues.
                        marine mammal commission
    TOC requests that the Subcommittee support the Marine Mammal 
Commission at $1.895 million in fiscal year 2004, per the 
Administration's request.
                       anti-environmental riders
    TOC urges this Subcommittee to not attach any anti-environmental 
rider to this or any other appropriations bill. In the past, riders 
have been used by Members of Congress to rollback environmental 
protection and prevent NOAA from advancing marine conservation.
    These programs and issues are of the utmost importance to the 
stewardship of the nation's living marine resources. We greatly 
appreciate your support for these programs in the past and look forward 
to continued, responsible funding for these programs in fiscal year 
2004. Thank you for considering our requests.
                                 ______
                                 

               Prepared Statement of The Asia Foundation

    The importance and continuing relevance of the Asia Foundation's 
mission and mandate have been underscored by the events of September 11 
and the war on terrorism: to develop institutions of governance, 
including constitutional frameworks, legislative branch and judiciary; 
support civil discourse and conflict resolution; expand economic 
opportunity to improve the quality of life and give more people a stake 
in stability; and promote better understanding between the United 
States and the countries of Asia.
    The Asia Foundation is gratified by the confidence of the Congress 
in its programs, as demonstrated by an increased appropriation of 
$10.44 million for fiscal year 2003, $1 million above the 
Administration's request. While the Administration has endorsed the 
work of The Asia Foundation by requesting an appropriation of $9.25 
million for fiscal year 2004, the Foundation respectfully hopes that 
the Congress will once again add to its funding, given the unparalleled 
new challenges facing Asia and The Asia Foundation's distinctive 
capacity to address them. As the Subcommittee knows, The Asia 
Foundation implements concrete programs in Asia that improve governance 
and legal reform, protect human rights, promote economic reform and 
encourage peaceful, cooperative international relations.
    In the face of growing anti-Americanism and the threats of rising 
extremism in countries with predominantly Muslim populations in Asia, 
where over 70 percent of the world's Muslims live, it is more important 
than ever to address the root causes of persistent poverty, lack of 
opportunity, and loss of faith in local leaders and institutions. These 
new circumstances in Asia highlight the importance and value of The 
Asia Foundation's programs. The Foundation is the only American 
organization with a distinctive history of fifty years of presence and 
engagement in Asia, especially in Afghanistan, Pakistan, and Indonesia, 
the front line states in the war on terrorism.
                                overview
    The United States and Asia both face new challenges, complicated by 
the war on terrorism, the war in Iraq and the instability likely to 
occur in its aftermath. More than ever, the United States must support 
political stability, and economic reform, and give attention to 
countries where recent events have exacerbated U.S. bilateral 
relations, in countries that have been traditional allies of the United 
States, as well as in the countries with predominantly Muslim 
populations in Asia. Working together with Asian organizations as a 
trusted partner through a network of 17 offices in Asia, The Asia 
Foundation is the only longstanding American nongovernmental, 
nonpartisan organization with local credibility, a nuanced 
understanding of the issues facing each country, and unparalleled 
access and relationships with government, nongovernmental groups, and 
the private sector. In addition to the importance of these programs in 
the lives of people of these countries, the Foundation's efforts also 
make an important and tangible contribution to public diplomacy for the 
United States.
                     the asia foundation's mission
    The Asia Foundation's core objectives are central to U.S. interests 
in the Asia-Pacific region.
  --Democracy, human rights and the rule of law: developing and 
        strengthening democratic institutions and encouraging an 
        active, informed and responsible non-governmental sector; 
        advancing the rule of law; and building institutions to uphold 
        and protect human rights, including women's rights and 
        opportunity;
  --Open Trade and Investment: supporting open trade, investment and 
        economic reform at the regional and national levels;
  --Peaceful and Stable Regional Relations: promoting U.S.-Asian 
        dialogue on security, regional economic cooperation, law and 
        human rights.
    In the past, this Committee has encouraged the Foundation's grant 
making role, and we remain faithful to that mission. The Foundation's 
hallmark is to make sequential grants to steadily build and strengthen 
institutions, develop leadership, and advance policy reforms in Asia. 
Foundation assistance supports training, technical assistance, and seed 
funding for new, local organizations, all aimed at promoting reform, 
building Asian capacity, and strengthening U.S.-Asia relations. 
Foundation grantees can be found in every sector in Asia, leaders of 
government and industry and at the grass roots level, in the 
increasingly diverse civil society of Asia. The Foundation is 
distinctive in this role, not only providing the technical assistance 
necessary, as in the case of the drafting of the Afghan constitution, 
but also in providing grants that cover nuts and bolts necessities to 
support that effort, such as reference materials, equipment and 
administrative support costs for the Constitutional Commission. The 
Asia Foundation is a well recognized American organization, but its 
programs are grounded in Asia, helping to solve local problems in 
cooperation with Asian partners.
                                programs
    Examples of programs include:
  --Legislative Development.--The Foundation has contributed to the 
        development of legislatures in 17 countries in Asia through 
        technical assistance, training members and staff and 
        facilitating interaction with the nongovernmental sector. The 
        Foundation is the only American organization providing 
        legislative training on responsible legislative practice, and 
        orientation for all four newly elected provincial assemblies in 
        Pakistan. The Foundation is also the only American organization 
        providing technical assistance to the Constitutional Commission 
        in Afghanistan for the drafting of the new constitution, the 
        public consultation and Constitutional Loya Jirga process.
  --Civil Society.--The Foundation is the single largest supporter of 
        the nongovernmental sector in the Asian countries in which we 
        operate. The Foundation builds the capacity of organizations, 
        encourages public participation and works to improve the 
        regulatory environment for NGOs. In Cambodia, the Foundation 
        continues to be the largest supporter of human rights, 
        environment and research and policy NGOs in Cambodia. The 
        Foundation's Pakistan programs support community based 
        organizations that provide educational services in areas where 
        none exist, particularly in the economically distressed border 
        areas of the Northwest Frontier Province (NWFP). The Foundation 
        also supports new NGO activities in Afghanistan, such as 
        ASCHIANA which provides education for girls and young women 
        denied schooling under the Taliban through a cooperative 
        project with the National Geographic Society.
  --Human Rights, Conflict and Islam.--The Foundation's human rights 
        programs promote the protection and advancement of human rights 
        through support of nongovernmental and governmental human 
        rights efforts at the local, regional and national levels. The 
        Foundation's programs focus on human rights education, the 
        development of monitoring groups, forensic training to 
        investigate past abuses, media training, guides on 
        international human rights standards, conflict reporting for 
        journalists, programs to prevent trafficking and violence 
        against women and alternative dispute resolution programs in 
        conflict areas. The Foundation's twenty year history of working 
        with mainstream Muslim groups in Indonesia, Pakistan and 
        Mindanao in the Philippines makes it uniquely positioned to 
        encourage programs that promote moderate views, religious 
        tolerance, peace, conflict management and the rights of women 
        under Islam, including the use of Islamic scriptures to 
        communicate messages of tolerance and non-violence. These 
        innovative and sensitive programs can only be accomplished 
        through an on the ground knowledge of the context facing 
        mainstream Muslims, and through partnerships built on trust. 
        The Foundation gives special attention to the troubled areas of 
        Indonesia through support for local human rights efforts in 
        Aceh, Papua and most recently, in the Maluku Islands. Programs 
        include media campaigns through radio and television by 
        moderate groups to promote pluralism and tolerance in conflict 
        prone areas and the utilization of mosque youth networks to 
        educate and strengthen networks for democracy and pluralistic 
        Islam.
  --Legal Reform.--In East Timor, the Foundation provided technical 
        assistance for the drafting of the constitution and new 
        legislation, and for increased access to justice for citizens, 
        by involving civil society and public consultation in the law 
        making process. In China, the Foundation supports legal aid 
        services and popular legal education in some of China's poorest 
        provinces, including those with minority populations such as 
        Yunnan and Xinjiang, and for millions of migrant women workers 
        in Guangdong. In Nepal, the Foundation piloted mediation 
        projects in western Nepal, areas under the heavy influence of 
        the Maoist rebels, and continues to expand community mediation 
        programs, legal reform within the courts, establishment of 
        legal information systems, and the development of watchdog 
        citizens' groups to raise awareness of corruption and 
        misconduct. The Foundation supports reform of the Supreme Court 
        in Indonesia, which has included civil society input in an 
        unprecedented step to reform case assignment, audit its 
        procedures and processes, and improve the quality of the 
        judicial appointment process.
  --Economic Growth and Opportunity.--Small and medium enterprises are 
        a vital engine for economic growth, providing employment and 
        opportunity for millions throughout the region. The 
        Foundation's programs help to reform the environment for small 
        business growth in Indonesia, Bangladesh, Thailand, and Sri 
        Lanka by removing policy barriers and regulatory red tape, 
        reducing corruption, and providing a voice for small 
        entrepreneurs through support for business associations and 
        business-government dialogue. The Foundation funds efforts to 
        improve corporate governance in Korea, China, Japan, and the 
        Philippines.
  --International Relations.--The Foundation continues to invest in 
        young leaders through diplomatic training programs in U.S. 
        universities for Chinese foreign affairs staff, fellowships for 
        Vietnamese and Indian diplomats, and study programs for 
        Southeast Asian young leaders. Programs also include support 
        for the Council for Security Cooperation in the Asia Pacific 
        (CSCAP), training programs for compliance with trade agreements 
        and the WTO for Chinese and Vietnamese officials, and track II 
        programs on cross-straits relations and Northeast Asian 
        security.
                               conclusion
    As the preceding examples of The Asia Foundation's work emphasize, 
the Foundation is a field-based organization that supports projects in 
Asia that build the capacity of Asian institutions and support reform 
efforts, while at the same time maintaining close links with the U.S. 
foreign policy community. We are first and foremost a grant making 
organization. The Foundation has consistently received national 
recognition for its efficient grant-to-operating ratio, reflecting its 
commitment to maximizing the impact of its programs in Asia, while 
keeping expenses low. We are not a research organization or an academic 
institution, nor are we Washington based. We operate on the ground in 
Asia as an accepted, trusted partner and supporter of Asian reform 
efforts that simultaneously support and reinforce American political, 
economic, and security interests. We partner in our programs with 
American and international public and private organizations to leverage 
our resources and make investments pay off. The Foundation's 
partnership with the Microsoft Corporation on the Cambodian Information 
Centers, the first project of its kind to expand Internet and media 
resources to all 22 provinces of the country, is but one example.
    Public funding is essential to the Foundation's mission. While the 
Foundation has made gains in expanding private funding, the flexibility 
and reliability that public funding lends to the Foundation's efforts 
are critical. As an organization committed to U.S. interests in Asia, 
we can only be successful if potential private donors understand that 
the U.S. government continues to support our efforts in the region. 
Furthermore, private funds are almost always tied to specific projects 
(as are USAID funds for which the Foundation competes) and do not 
replace public funding, either in scale or flexibility. Moreover, the 
flexibility afforded by U.S. government appropriated funds enables the 
Foundation to respond quickly to fast-breaking developments and program 
opportunities, as demonstrated by our programs related to the needs of 
the Ministry of Women's Affairs in Afghanistan in 2001 and the National 
Human Rights Commission office in Aceh, during the height of the 
violence in the conflict-prone province in 2002.
    Budget constraints resulted in significant reductions in the 
Foundation's annual appropriation in 1996. The current requested level 
for fiscal year 2004 is still well below the Foundation's $15 million 
annual appropriation during the decade prior to 1996. The $15 million 
level has been authorized consistently by the Congressional authorizers 
in recent years. We have worked hard to manage our budget, reduce staff 
and expenditures, increase our efficiency, and diversify our funding 
sources. We have struggled to maintain our country office presence in 
Asia, although budget cuts did force closure of the Malaysia office in 
1996.
    But commitment to a field operation is not without risk, as seen in 
the situation facing U.S. embassies abroad. Now more than ever, the 
Foundation and its supporters believe that its critical and most 
important asset is its field office network in Asia, enabling the 
Foundation to address critical development and reform on the ground, 
especially in critical front line states such as Pakistan, Afghanistan, 
and Indonesia. Increased security measures to protect Foundation staff 
have been necessary, and Foundation offices all have contingency 
evacuation measures in place. Maintaining overseas offices costs more 
than maintaining operations within the United States and the new 
demands to ensure adequate security have added to this cost. Today, we 
face serious budgetary constraints. We cannot forsake the safety of our 
staff, but at the same time, we are, as always, committed to ensuring 
that the maximum possible amount of appropriated funds are dedicated to 
programs on the ground.
    In closing, we believe that we have an opportunity and the 
obligation to demonstrate America's strong commitment to working with 
Asian leaders to assure the security and well being of the people of 
Asia. The Asia Foundation's programs represent a distinctive and 
positive American response to the challenges facing Asia today, 
contributing to the development of stable societies and advancing the 
interests of the United States in the region. At a time of rapid change 
and uncertainty, additional funding would enable the Foundation to 
expand its role and its programs to help meet these challenges.
                                 ______
                                 

         Prepared Statement of the Investment Company Institute

    The Investment Company Institute \1\ appreciates this opportunity 
to submit testimony to the Subcommittee in support of the fiscal year 
2004 Appropriations request for the Securities and Exchange Commission 
(SEC). The Institute would like to commend the Subcommittee for its 
consistent past efforts to assure adequate resources for the SEC.
---------------------------------------------------------------------------
    \1\ The Investment Company Institute is the national association of 
the American investment company industry. Its membership includes 8,929 
open-end investment companies (``mutual funds''), 553 closed-end 
investment companies and 6 sponsors of unit investment trusts. Its 
mutual fund members have assets of about $6.322 trillion, accounting 
for approximately 95 percent of total industry assets, and 90.2 million 
individual shareholders.
---------------------------------------------------------------------------
    Mutual funds are one of the primary savings and investment vehicles 
for middle-income Americans. Today, more than 95 million investors in 
over 54 million U.S. households own mutual fund shares. Since 1990, the 
percentage of U.S. retirement assets held in mutual funds has more than 
quadrupled. Moreover, most mutual fund investors are ordinary 
Americans; the median household income of fund shareholders is 
approximately $62,000. These millions of average Americans deserve 
continued vigilant regulatory oversight of mutual funds. For this 
reason, sufficient funding of the SEC should be a priority. The 
Institute urges Congress to provide appropriations at a level 
sufficient to ensure the SEC's ability to fulfill its regulatory 
mandate.
    The Administration's fiscal year 2004 budget proposes SEC funding 
at a level of $841.5 million. This greatly exceeds last year's 
appropriation of $711.7 million. The Institute supports this enhanced 
level of funding to support the SEC's operations, especially those of 
the Division of Investment Management, which regulates the mutual fund 
industry. Such resources will help the SEC to carry out its many 
important initiatives, which include, among other things, adopting 
requirements for improved shareholder reports, analyzing the 
feasibility of requiring new compliance related rules for investment 
companies and investment advisers, finalizing rules to combat money 
laundering, and finalizing amendments to the mutual fund advertising 
rules.
    The recommended enhanced level of funding also will permit the SEC 
to monitor compliance with the many significant new requirements 
adopted as a result of the Sarbanes-Oxley Act of 2002, which include, 
among others, disclosure regarding codes of ethics for senior executive 
officers and the presence of financial experts on audit committees, 
certification of financial and other information, independence 
standards for public company auditors, and standards of conduct for 
corporate attorneys. Moreover, it will permit the SEC to fulfill its 
mandate to oversee the operation of the Public Company Accounting 
Oversight Board (PCAOB), including the ratification of fundamental 
rules and procedures for the PCAOB. We also are pleased that H.R. 658/
S. 496, ``The Accountant, Compliance, and Enforcement Staffing Act of 
2003,'' has been introduced in both the House and the Senate. This bill 
would permit the SEC more flexibility in its hiring process, making it 
easier for the SEC to hire the staff it needs to carry out these 
additional responsibilities.
    Several important SEC initiatives indicate an enhanced workload for 
the Division of Investment Management. First, the Division will be 
responsible for monitoring compliance with the new requirements related 
to proxy voting. Second, the Division will be responsible for providing 
the SEC with a report on the hedge fund industry, assisting with SEC 
hearings to be conducted in connection with this endeavor, and 
analyzing the need for, and potentially developing, new regulations 
related to hedge funds. Third, the Division will be instrumental in 
responding to Congressional inquiries related to mutual fund issues. 
These important initiatives, which will affect millions of American 
investors, will require additional staff to see that they are properly 
analyzed and to develop appropriate recommendations.
    Adequate funding is also needed for the SEC's new enhanced risk-
based inspection program, which began in fiscal year 2003 and will 
continue in fiscal year 2004. For investment companies and investment 
advisers, this means that those with relatively higher risk profiles 
will be examined every two years, while all remaining firms will be 
examined no less frequently than every four years. These more frequent 
inspections are a significant improvement over the five-year inspection 
cycle for investment advisers and investment companies that existed 
prior to fiscal year 2003, and the SEC's appropriations should be 
sufficient to continue this important initiative.
    Finally, adequate funding is essential to the SEC's efforts to 
educate investors. The SEC's Internet website contains many sources of 
important information for investors, including an on-line publication 
explaining mutual funds and investor alerts that help investors avoid 
scams and securities frauds. These and other SEC programs assist 
investors to understand the capital markets and establish realistic 
expectations about market performance. This is an integral part of the 
agency's mission to protect investors.
    In order to accomplish these worthy objectives and to continue to 
function as an effective regulatory agency, we support that the SEC be 
funded at the level requested by the Administration and supported by 
Chairman Donaldson.
    We appreciate your consideration of our views.
                                 ______
                                 

                 Prepared Statement of American Rivers

            national oceanic and atmospheric administration
    This year, American Rivers was joined by more than 400 national, 
regional and local organizations concerned with river conservation 
throughout the United States \1\ in calling for significantly increased 
funding for the following programs in the Commerce, Justice, State and 
the Judiciary (CJS) Appropriations bill. I urge that these requests be 
incorporated in the CJS Appropriations bill for fiscal year 2004.
---------------------------------------------------------------------------
    \1\ These groups have endorsed the ``River Budget for fiscal year 
2004'', a report of national funding priorities for local river 
conservation. A list of groups endorsing the River Budget can be viewed 
at http://www.americanrivers.org/riverbudget/default.htm
---------------------------------------------------------------------------
Federal Salmon Plan for the Columbia and Snake rivers
    Several Members of Congress from the Northwest, as well as the 
Administration, have pledged to work to restore twelve Endangered 
Species Act listed stocks of Snake and Columbia river salmon without 
partially removing the lower four Snake River dams. Congress can help 
honor that commitment by funding the necessary salmon recovery 
measures. More than two years since the release of the 2000 Federal 
Salmon Plan for the Columbia and Snake rivers, federal agencies have 
failed to fulfill nearly three-quarters of its requirements.
    The Salmon Plan relies primarily on improving tributary and estuary 
habitat and reforming hatchery and harvest practices. While over 500 
fisheries scientists and most conservationists believe that partial 
removal of the lower Snake River dams must be the cornerstone of a 
larger strategy to recover Snake River salmon, many elements of the 
Salmon Plan are also necessary to achieve salmon recovery.
    If the Salmon Plan's non-breach recovery package is not funded and 
implemented, or if these actions do not yield the needed biological 
benefit for Snake River stocks, the plan contemplates seeking 
congressional authorization--after a ``check-in'' this September--to 
partially remove the four lower Snake River dams or pursue other 
stronger recovery measures.
    Inadequate federal funding is a major reason that implementation of 
the Salmon Plan has fallen so far behind. Full funding for fiscal year 
2004 will require $529.3 million distributed among ten different 
federal agencies through five different appropriations bills. The CJS 
Appropriations bill governs funding for the National Marine Fisheries 
Service (NMFS), which is charged with pursuing and administering the 
Salmon Plan's crucial science and monitoring activities, as well as 
implementing hatchery and harvest reform measures. The administration 
has proposed increasing the NMFS budget for Columbia River salmon by 
approximately 50 percent this year, from the fiscal year 2003 level of 
$26.2 million to $39.7 million in fiscal year 2004. While this increase 
would be helpful, internal NMFS documents estimate that fully 
implementing the Salmon Plan would require an increase of closer to 200 
percent.
    To ensure full development of the scientific standards, reforms, 
and restoration activities required by the Federal Salmon Plan, 
Congress should fund NMFS Columbia Basin salmon programs at $69.8 
million.
Pacific Coastal Salmon Recovery Fund
    Pacific salmon are a national treasure with enormous economic, 
cultural, and environmental significance in the states of Washington, 
Oregon, California, Idaho, and Alaska. A century ago, salmon were an 
anchor of the region's economy. Unfortunately, past and present 
mismanagement of our rivers, lands, and salmon fisheries have caused 
populations of salmon to decline dramatically over the past century, 
and 26 runs of Pacific salmon and steelhead are now listed under the 
Endangered Species Act.
    One important program aimed at restoring imperiled runs of chinook, 
coho, sockeye, and chum salmon, as well as steelhead trout, is the 
Pacific Coastal Salmon Recovery Fund, funded through the National 
Oceanic and Atmospheric Administration. For the past three years, this 
program has provided much-needed assistance to state, local, and tribal 
governments in Washington, Oregon, California, and Alaska for salmon 
recovery projects. This year we urge Congress to make the State of 
Idaho and Snake River salmon and steelhead eligible to benefit from 
this program as well.
    By increasing funding for the Pacific Coastal Salmon Recovery Fund 
in fiscal year 2004, Congress can help restore this economically, 
culturally, and ecologically valuable resource and help the Northwest 
states and local communities to adopt and embrace the measures needed 
to restore Pacific salmon and steelhead. Restoring salmon will also 
allow the United States to satisfy treaty obligations with Northwest 
Indian tribes and Canada.
    We urge Congress to increase funding for the Pacific Coastal Salmon 
Recovery Fund to no less than $200 million in fiscal year 2004.
Fisheries Habitat Restoration
    The fisheries habitat provided by estuaries and coastal wetlands 
serves many essential functions for communities across the nation. 
Eighty to 90 percent of all recreational fish catch and 75 percent of 
all commercial harvest depends upon healthy coastal and estuarine 
habitats. More than half the coastal wetlands in the lower 48 states 
have been lost, and almost 40 percent of estuarine habitat has been 
impaired by damming and diverting countless rivers and streams.
    The Fisheries Habitat Restoration program, funded through the 
National Oceanic and Atmospheric Administration (NOAA) Restoration 
Center, reaches out to local constituencies to accomplish on-the-
ground, community-based projects to restore estuaries and coastal 
habitats. Partnerships and local involvement are fundamental to the 
success of this program. Partners typically match federal dollars 1:1 
and leverage those dollars up to 10 times more through state and local 
participation. To date, the program has funded 600 projects in 25 
states, promoting fishery habitat restoration in coastal areas with a 
grassroots, bottom-up approach.
    We urge Congress to provide the NOAA Fisheries Habitat Restoration 
Program with $18,500,000 to help more communities restore and protect 
and restore the health of their estuaries and coastal habitats.
Hydropower Relicensing
    The National Marine Fisheries Service (NMFS) would greatly benefit 
from additional funding to address the growing number of hydropower 
dams that need renewal of their operating licenses from the Federal 
Energy Regulatory Commission (FERC). Under the Federal Power Act, NMFS 
plays a role in setting license conditions to protect and conserve 
anadromous (sea-run) fisheries such as Pacific and Atlantic salmon, 
steelhead and sea-run cutthroat trout, and shad. Licenses are nearing 
expiration at hundreds of dams around the country, and workloads are 
increasing for NMFS and other resource agencies. Increasing NMFS's 
limited hydropower relicensing budget would help ensure a more 
efficient licensing process, benefit the hydropower industry, and 
further efforts to protect and restore our nation's anadromous 
fisheries.
    Congress should provide NMFS with a $2 million increase to its 
Habitat Conservation line item specifically for hydropower relicensing.
                                 ______
                                 

 Prepared Statement of the Alliance for International Educational and 
                           Cultural Exchange

    The Alliance for International Educational and Cultural Exchange 
appreciates the opportunity to submit testimony in support of the 
educational and cultural exchange programs administered by the 
Department of State.
    The Alliance is the leading policy voice of the U.S. exchange 
community, and has worked closely with the subcommittee on exchange 
issues. We note with gratitude the subcommittee's role in increasing 
exchange appropriations in recent years.
    The Alliance comprises 67 nongovernmental organizations, with 
nearly 8000 staff and 1.25 million volunteers throughout the United 
States. Through its members, the Alliance supports the international 
interests of 3300 American institutions of higher education.
    With grassroots networks reaching all 50 states, Alliance members 
help advance the U.S. national interest by putting a human face on 
American foreign policy, transmitting American values, fostering 
economic ties with rapidly developing overseas markets, and assisting 
individuals with the development of critical foreign language, cross-
cultural, and area studies expertise. Our members also leverage 
considerable private resources--in cash and in kind--in support of 
these critical programs.
    By engaging a very broad array of American individuals and 
institutions in the conduct of our foreign affairs, exchange programs 
build both enhanced understanding and a web of productive contacts 
between Americans and the rest of the world.
    Our requests for the fiscal year 2004 exchange appropriation fall 
into three broad categories:
Core Exchange Budget--Bureau of Educational and Cultural Affairs
    As a nation, we need to provide more opportunities for emerging 
leaders around the world to experience first-hand our society, our 
values, and our people. The Alliance therefore urges the subcommittee 
to provide substantial increases in funding for exchange programs. 
While appropriations for these programs have moved up in recent years, 
this account still lags well behind its historic levels in constant 
dollars due to the deep cuts of the mid-nineties. Coupled with the 
increases in fixed program costs such as airfare and accommodation, 
reduced appropriations have resulted in significantly diminished 
participant levels in programs consistently cited by our embassies as 
one of their most effective means of advancing U.S. policy interests.
    For example, the Bush Administration's request for the State 
Department's core exchanges in fiscal year 2004, excluding funding for 
programs provided for under the Freedom Support Act and SEED, appears 
to be level with the current year appropriation of $245 million. In 
fact, we understand that this ``level funding'' amounts to a reduction 
of approximately $7.5 million available for programs, when one factors 
in increased costs.
    While exchange budgets have risen in recent years thanks to the 
leadership of this subcommittee, State Department figures for the core 
exchange budget--excluding Freedom Support Act and SEED funding--
indicate that exchange funding has declined 40 percent in constant 
dollars over a 10-year period (1993-2002).
    As our experiences since September 11, 2001, demonstrate clearly, 
we need public diplomacy and exchanges more than ever. We need to build 
trust and understanding for our people and our policy goals not just in 
the Muslim world--an effort that will be of critical importance--but 
around the globe. To win the war on terrorism and to rebuild Iraq, we 
will need the help of our friends and allies in every region of the 
world. This is a time to intensify and expand our public diplomacy, and 
we believe there is strong bipartisan support in Congress to do exactly 
that.
    We therefore urge the subcommittee to fund the Department of 
State's core exchange budget at $286 million, the level authorized by 
the 107th Congress. This amount would provide for targeted, meaningful 
growth in every region of the world in support of our most important 
foreign policy objectives.
Exchanges with the countries of the former Soviet Union and Central 
        Europe
    We note that the Bush Administration budget request moves funding 
for exchange programs authorized by the Freedom Support Act (FSA) and 
SEED into the CJS bill for the first time. If the appropriations 
subcommittees agree with this change and the CJS subcommittee includes 
these programs in its bill, we urge you to substantially increase 
funding over the Administration's request.
    The Administration has requested $100 million for these programs. 
Our best estimates suggest that this level represents a cut of 
approximately 28 percent. We hope the subcommittee will agree that this 
reduction is unwise in regions of the world of such strategic 
importance to the United States. This is particularly true when one 
considers the effectiveness and impact of these exchange programs.
    We urge the subcommittee to fund FSA and SEED programs at an 
overall level of $145 million, which would allow for increases in 
program costs and a modest boost for these high priority activities.
    A central aspect to the opening of the region has been the 
opportunity for the peoples of these countries to see how a democratic 
society functions, based on the principles of democracy and a free 
market economy. In recent Congressional testimony, former U.S. 
Ambassador to the Russian Federation James W. Collins said, ``Efforts 
at reform in business and education--are just beginning to take hold. 
We're just starting to create an established and recognizable critical 
mass of individuals able to sustain our national interest in fostering 
reforms in these countries. Now is not the time to be reducing these 
efforts, particularly with Russia and Ukraine, whose challenges remain 
paramount. I believe there is no greater priority in Eurasia at this 
time than developing and sustaining the young leadership of that region 
in their associations with the West and that responsibility remains 
critically in our hands.''
Islamic Exchange Initiative--Building Cultural Bridges
    While the need for increased funding is worldwide, increased 
exchanges with the Islamic world are particularly critical as we pursue 
the war on terrorism. To defeat terrorism, the United States will need 
more than the might and skill of our armed forces. To ultimately defeat 
terrorism, we must also engage the Muslim world in the realm of ideas, 
values, and beliefs.
    No previous foreign affairs crisis has been so deeply rooted in 
cultural misunderstanding. One of the lessons of September 11 is that 
we have not done an adequate job of explaining ourselves to the world, 
or of building the personal and institutional connections with these 
countries that support healthy bilateral relationships. Policy 
disagreements alone cannot account for the fact that many in Islamic 
countries regard the United States, the greatest force for good in 
human history, as a source of evil.
    A Gallup poll conducted in February 2002 reported that 61 percent 
of Muslims believe that Arabs did not carry out the attack on the 
United States. That statistic alone speaks somber volumes about our 
failure to project our values and ideals effectively in Islamic 
nations.
    Given the importance and urgency of the task and the broad arc of 
countries we will need to engage, stretching from Africa to Southeast 
Asia, we urge the subcommittee to appropriate $100 million for this 
purpose.
    As a long-term solution to the profound problems of cultural 
misunderstanding, there is no substitute for public diplomacy. It must 
be a key component of our long-term effort to eradicate terrorism. 
Public diplomacy in the Muslim world will require a sustained, serious 
effort if we are to succeed in our quest for lasting peace and 
security, stable bilateral relationships, and an end to terrorism. An 
Islamic Exchange Initiative, designed to broaden the range of 
meaningful relationships based on shared interests with current and 
emerging leaders and key institutions in Muslim countries, will be 
critical to our success.
    Changing minds--or merely opening them--is a long, painstaking 
process. There are no quick fixes. If we are to win the war on 
terrorism, there will be no avoiding the need to build bridges between 
the American people and the people of the Muslim world. We must begin 
this process now.
    In the Islamic world, we envision this initiative engaging the full 
range of programs and activities managed by the Bureau of Educational 
and Cultural Affairs: Fulbright and Humphrey exchanges that will 
stimulate broader cultural understanding, joint research and teaching, 
and foster positive relationships with a new generation of leaders; 
university affiliations targeted toward key fields such as mass media 
and economic development; International Visitor and other citizen 
exchange programs designed to bring emerging leaders into significant 
and direct contact with their professional counterparts and the daily 
substance of American life; youth and teacher exchanges and enhanced 
English teaching programs, all designed to bring larger numbers of 
young people a direct and accurate picture of our society, based on 
personal experience rather than vicious stereotyping.
    Increasing the State Department's exchanges with the Islamic world 
will give us the means to develop productive, positive relationships. 
This initiative will engage the American public--in our communities, 
schools, and universities--in an effort to project American values. We 
will find no better or more convincing representatives of our way of 
life.
    And the engagement of the American public will leverage significant 
additional resources to support this effort.
    Initial efforts were made during the 107th Congress to both 
authorize and fund programs on a broad range of exchange activities to 
build relationships with the Islamic world and enhance U.S. national 
security.
    We commend the subcommittee for funds made available in the fiscal 
year 2002 supplemental for Islamic exchanges. The $10 million 
appropriated by this subcommittee has been put to good use by the 
Department of State in key programs such as Fulbright, International 
Visitors, and English teaching.
    We also recognize that this funding reflected the broad bipartisan 
support for an Islamic Exchange Initiative, clearly expressed in the 
passage in the House of the Hyde/Lantos Freedom Promotion Act, and in 
the Kennedy/Lugar Cultural Bridges Act, which attracted 12 cosponsors 
of both parties in the Senate.
    A meaningful and effective Islamic exchange initiative will require 
$100 million above the appropriation for the State Department's core 
exchanges. We recognize that this is a significant amount of money. We 
believe, however, that this funding level is necessary and appropriate 
given the expanse of the Muslim world and the urgency and importance of 
the task at hand. Moreover, this amount of money spent on promoting our 
ideas and values is very small when compared to the sums we will expend 
on military hardware, but it is no less crucial to our success.
    The level of support we have witnessed from senior members of both 
parties and both chambers underscores the timeliness and importance of 
this initiative. This is a moment when our national interests require 
Congressional leadership to build these cultural bridges.
Other program issues
    In addition, we would like to draw the subcommittee's attention to 
three specific programs we believe are deserving of additional support:
  --The Foreign Study Grants for U.S. Undergraduates program, also 
        known as the Gilman Scholarship Program, assists students of 
        limited financial means from the United States to pursue study 
        abroad. Demand for the scholarships is enormous, demonstrated 
        by the nearly 3,000 applicants from 44 states and Puerto Rico 
        last year. Due to funding constraints, however, the program was 
        only able to grant 302 awards.
  --The Educational Partnership Program (formerly known as the College 
        and University Affiliations Program) supports cooperation 
        between U.S. colleges and universities and foreign post-
        secondary institutions in the form of faculty exchanges, 
        curriculum development, collaborative research and other 
        activities.
  --Overseas Educational Advising/Information Centers serve as an 
        important, unbiased information resource for prospective 
        foreign students interested in the United States.
    We have provided subcommittee staff with report language on these 
issues and welcome the opportunity to discuss them with you.
    The U.S. exchange community stands ready to assist you in these 
efforts, and is grateful for your support.
                                 ______
                                 

     Prepared Statement of the American Foreign Service Association

    Mr. Chairman and members of the Subcommittee, on behalf of the 
American Foreign Service Association (AFSA) and the 23,000 active-duty 
and retired members of the Foreign Service, I express our appreciation 
for the opportunity to share our views and concerns with you.
    The work of this Subcommittee is vital to the success of our 
Nation's foreign policy. Your decisions determine whether we have the 
infrastructure and many of the tools of diplomacy needed to implement 
our policy. The Subcommittee's and the Congress's support of the 
Administration's request in meeting our staffing needs, improving our 
information technology systems, making our posts and missions more 
secure, and providing for an active exchange program is very much 
appreciated. Certainly Secretary of State Colin Powell and his staff 
also must be thanked for their hard work on our behalf as they make 
their presentations before the Congress. The Secretary consistently 
describes his current role as both the President's principal foreign 
policy advisor and as the CEO of the Department of State. It has been a 
long time since the Foreign Service has had a Secretary who has worn 
both hats so effectively.
    As the representative of the Foreign Service, our major concern is 
the appropriations for the Administration of Foreign Affairs section of 
the appropriations bill. This area covers funding for personnel and 
especially the Secretary's Diplomatic Readiness Initiative (DRI), 
funding to bring the Department into the 21st Century in terms of 
information and communications technology, and the security of our 
people as they serve this Nation in over 250 posts and missions around 
the world.
             continued vigilance of staffing needs required
    With the fiscal year 2004 request of $97 million for the DRI to 
hire 399 additional foreign affairs personnel above attrition, we are 
in the final year of a three-year plan to fill an identified personnel 
shortfall of over 1,100 people.
    As you know, several important 1999 and 2000 studies from very 
respectable organizations found the infrastructure of diplomacy ``near 
a state of crisis.'' The Overseas Presence Advisory Panel (OPAP) 
reported in 1999:

    ``The United States overseas presence, which provided the essential 
underpinnings of U.S. foreign policy for many decades, is near a state 
of crisis. Insecure and often decrepit facilities, obsolete information 
technology, outmoded administrative and human resources practices, poor 
allocation of resources, and competition from the private sector for 
talented staff threaten to cripple our nation's overseas capability, 
with far-reaching consequences for national security and prosperity.''

    Fortunately the warnings in those studies were taken to heart. The 
Secretary and the Congress worked together to fill that personnel 
shortfall and to improve our information technology over three years. 
We are already beginning to see the benefits as new personnel are 
hired, the stress is being lifted from the shoulders of overly 
stretched personnel and there is an easing, though not a reduction, in 
the work expectations of ``doing more with less.'' Foreign Service 
personnel are able to take needed training and participate in career 
development programs instead of having to choose between training and 
filling an empty position, and a surge capacity is developing.
    Further, because of the support for our information and 
communications technology systems, our equipment is modern and we have 
or will soon have classified and unclassified connectivity to every 
post that requires it, and access to the Internet from our desktops. 
Our communications and information systems are no longer the sad joke 
they had become, and there are plans to continue improvements in these 
areas including the SMART initiative to overhaul the systems for 
cables, messaging, information sharing, and document archiving.
    The momentum that started two years ago needs to be maintained. The 
DRI needs to be successfully completed and the drive to improve our 
information and communications technology sustained.
    However, Mr. Chairman, in terms of the DRI, I would also urge the 
Subcommittee to see adequate staffing as a dynamic process. The 1,158-
person shortfall was identified nearly 3 years ago as existing at that 
point in time. Conditions have changed since then, and the complexity 
of the demands on diplomacy continue to grow around the world. Section 
301 of Public Law 107-228, the Foreign Relations Authorization Act of 
2003 requires the Secretary of State to submit a ``Comprehensive 
Workforce Plan'' for the Department for the fiscal years 2003 through 
2007. ``The plan shall consider personnel needs in both the Civil 
Service and the Foreign Service and expected domestic and overseas 
personnel allocations.'' AFSA would encourage the Subcommittee to 
consider these workforce plans for staffing considerations as a start 
to accommodate changes in the world in the coming years. We were near 
crisis until the Administration and the Congress stepped in to turn 
things around. The job is not done, and such a situation should not be 
allowed to occur again. As the Secretary often states, ``diplomacy is 
the first line of offense,'' and there are serious consequences for the 
economy, the welfare and the security of our nation if diplomacy is not 
adequately funded to do the job.
                embassy security--still much to be done
    AFSA believes that together, the Department of State and the 
Congress have been making impressive strides in improving the security 
of our posts and missions abroad. After the 1998 east Africa bombings 
of our embassies, the Accountability Review Boards (ARB), chaired by 
Admiral William Crowe, looked into the cause of those bombings and made 
several important conclusions. First, they found that there was a new 
face to international terrorism and a new threat environment. Secondly, 
the ARB found that the cause of the bombings could not be placed at the 
doorstep of any single individual but that it was a systemic problem of 
inattention.

    ``. . . there was a collective failure by several Administrations 
and Congresses over the past decade to invest adequate efforts and 
resources to reduce the vulnerability of U.S. diplomatic missions 
around the world to terrorist attacks.''

    The ``new threat environment'' continues to haunt us as seen by the 
continued attacks on the symbols of our country at home and abroad. 
However, we have seen the second lesson addressed through a major 
multi-year increase in security funding in both the hiring of 
additional security personnel and in security upgrades that has left no 
facility abroad unimproved. This increased funding is paying off as 
evidenced by the minimal damage done to the American Consulate in 
Karachi in a terrorist bombing in July 2002.
    Mr. Chairman, despite significant upgrades to the security of our 
facilities around the world, the General Accounting Office reported in 
its March 20, 2003 testimony before the Senate Committee on Foreign 
Relations:

    ``. . . even with these improvements, most office facilities do not 
meet security standards. As of December 2002, the primary office 
building at 232 posts lacked desired security because it did not meet 
one or more of State's five key current security standards. . . . Only 
12 posts have a primary building that meets all 5 standards. As a 
result, thousands of U.S. government and foreign national employees may 
be vulnerable to terrorist attacks.''

    The Foreign Service does not seek hilltop fortresses in which to do 
our work. Such would be counterproductive to our purpose for being in a 
country. We accept the dangers that are part of our profession, but we 
also expect that our government, which sends us to these posts, should 
seek to provide for our safety as much as possible. AFSA urges that 
funding continue at its current, if not an accelerated pace, to 
complete the work of securing our posts and missions abroad.
    ``Soft Targets''.--There is a subset of our concerns about the 
security of our posts and missions abroad. As you know from our 
testimony submitted to the Subcommittee last year, threats to ``soft 
targets'' are a major concern to the Foreign Service. In just the past 
year, we have had a mother and daughter killed in a church in 
Islamabad, Pakistan, and an USAID official assassinated in front of his 
house in Amman, Jordan. We also saw the bombing of a nightclub that was 
popular a Western tourist spot in Bali, Indonesia. The threats to 
``soft targets'' are very real for us. To Foreign Service members, the 
term ``soft targets'' means our spouses and children as we try and lead 
a somewhat normal life of going to school, to church, and on other 
family outings.
    Mr. Chairman, we appreciate and thank you for your personal concern 
and leadership in this area. It is clear that through your and this 
Committee's work, the legislative branch understands that more than 
bricks and mortar need to be protected, but the Foreign Service 
community as well. The lead that this Committee took in setting aside 
funds to examine the threat against schools abroad that our children 
attend, and the Senate's designation, through your work, to have $10 
million additional funds for soft target protection in the fiscal year 
2003 Supplemental Appropriations add to our appreciation. While the 
additional funds for embassy security were significant, we were sorry 
to see that Conference recommendations had dropped the additional funds 
specifically designated for soft target protection.
    AFSA urges this Subcommittee to continue in its efforts to provide 
additional funding to shore up this important part of our overseas 
security. ``Soft targets'' is a descriptive euphemism, but what we are 
really talking about is the lives of our people and their families as 
they serve this Nation abroad.
                               conclusion
    Mr. Chairman and members of the Subcommittee, I again wish to 
express our appreciation for the opportunity for the American Foreign 
Service Association to share our views and concerns with you. The 
decisions you make affect both our professional and private lives as we 
serve this Nation abroad. You directly help determine how safe we are 
at work and in our housing abroad; what our working conditions are 
like, from having to work in converted cargo boxes to comfortable, 
fully equipped offices; whether we have adequate staffing to share the 
work and whether we have information and telecommunications software 
and equipment to talk to our Colleagues around the world. We thank you 
for your understanding these past few years, and we ask for your 
continued support in the fiscal year 2004 funding process and beyond.
                                 ______
                                 

  Prepared Statement of the Association of Small Business Development 
                                Centers

    Mr. Chairman, Mr. Ranking Member and members of the Subcommittee, I 
am Donald Wilson, President of the Association of Small Business 
Development Centers (ASBDC). The Association is grateful for the 
opportunity to submit this testimony for the record of the 
Subcommittee's fiscal year 2004 hearings.
    ASBDC's members are the 58 State, Regional and Territorial Small 
Business Development Center programs comprising America's Small 
Business Development Center Network. All Small Business Development 
Center (SBDC) grantees, located throughout the 50 States, the District 
of Columbia, Puerto Rico, the Virgin Islands, Guam and American Samoa, 
are members of the ASBDC.
    Since its establishment by Congress in 1980, America's Small 
Business Development Center Network has provided in-depth counseling of 
an hour or more, and training of two hours or more, to roughly 10 
million small business owners and aspiring entrepreneurs. In addition, 
millions more entrepreneurs have used the network as an informational 
resource for answers to questions as simple as how to get a business 
license or where to get an employer identification number.
    ASBDC urges the Subcommittee to fund our nation's SBDC network at 
its currently authorized level of $125 million in the fiscal year 2004 
Commerce-Justice-State Appropriations bill. The Association recognizes 
the difficult funding choices that the Subcommittee must make in these 
difficult times, and that ASBDC's recommendation represents a 
significant increase in the current funding level for the SBDC program. 
However, America's SBDC network can help our country recover from its 
current economic stagnation, create desperately needed new jobs, and 
generate the additional Federal revenues needed to reduce the budget 
deficit.
    First, it is important to note that Federal funding for the SBDC 
network generates more revenue for the Federal treasury than it costs 
the taxpayer. The President's fiscal year 2004 Budget points out that 
an independent evaluation of the SBDC program indicated that each $1 
spent on SBDC counseling resulted in $2.78 in tax revenues. The SBDC 
program generated an estimated $182.9 million in Federal revenue in 
2001--an excellent return for a Federal investment of $88 million for 
the nationwide SBDC program.
    In addition, America's SBDC network has a proven record of creating 
jobs and generating growth for America's small businesses. At the 
beginning of the most recent recession in 2001, as large corporation 
after large corporation announced layoffs, long-term counseling clients 
of the SBDCs added 46,688 new jobs, saved 34,215 existing jobs, started 
12,872 new businesses, increased sales by $3.9 billion, and saved an 
additional $4.3 billion in sales. In addition, SBDC long-term 
counseling helped small businesses obtain an estimated $2.7 billion in 
financing in 2001. That means every dollar spent on the operation of 
the SBDC network leveraged approximately $15.89 in new capital raised 
by long-term SBDC clients in 2001.
    Based on its record over the past 10 years, with funding of $125 
million our nation's SBDC network could help SBDC long-term counseling 
clients to:
  --create an estimated 111,744 new full time jobs;
  --increase sales by an estimated nine billion dollars;
  --produce an estimated $266 million in additional revenue for the 
        Federal government; and
  --produce an estimated $397 million in additional tax revenue for 
        State governments.
    Federal funding for the national SBDC network is an investment in 
the job creation potential of America's small business sector--the 
engine of our nation's economy. Today, job creation by small businesses 
has declined as America's entrepreneurs struggle in a sluggish economy. 
Initial weekly unemployment claims have been above 400,000 for the past 
eleven consecutive weeks--a clear indication that the economy is still 
struggling to recover from recession. In fact, 2001 and 2002 were the 
worst two consecutive years of job creation in the American economy 
since the 1950's.
    America's SBDC Network can help the small business sector of our 
economy generate jobs again, but we need the resources to do the job. 
Federal funding available for distribution to the SBDC program 
decreased between fiscal year 1994 and fiscal year 2004 (after 
accounting for inflation, earmarks and the establishment of the SBDC 
program in Guam and American Samoa)--while Federal government receipts 
increased by 26 percent in constant dollars. In addition, as a result 
of the 2000 Census, 24 States--including Kentucky, Maryland, New Mexico 
and Wisconsin--are subject to receiving less Federal funding for their 
SBDC programs than they received in 2001--simply because their 
populations did not grow as fast as other State populations.
    There is room in the Federal budget for increased resources for our 
nation's SBDC network. For example, the Small Business Administration 
(SBA) Budget proposal for fiscal year 2004 calls for increasing the 
SBA's Salaries and Expenses account to $219 million. That is an 
increase of $57 million (35 percent) compared to fiscal year 2002, and 
an increase of $10 million (5 percent) compared to the SBA's fiscal 
year 2003 Budget proposal. However, the SBA's Budget proposal calls for 
cutting the SBA Non-Credit Business Assistance account to $141 million 
in fiscal year 2004. This is the account that funds SBDCs and other 
programs that provide direct assistance to small businesses. For those 
programs, the SBA's Budget proposes to cut $26 million (20 percent) 
compared to fiscal year 2002, and $3 million (2 percent) compared to 
the SBA's fiscal year 2003 Budget proposal. Funding for SBA can be more 
wisely spent on direct assistance for small businesses rather than on 
administrative overhead.
    I urge you to consider that Federal funding for the SBDC network is 
now more important than ever, as State governments across the country--
including possibly Colorado, Hawaii, Kentucky, Maryland, New Hampshire, 
Texas, Vermont, Wisconsin and others--are cutting back on their 
contributions to the SBDCs. This is not because of lack of support for 
the SBDC program, but rather because of the revenue crises faced by 
State governments across the country. Unless Federal support for the 
national SBDC network is able to make up for cuts in State funding, 
SBDC program capacity across the United States will have to be severely 
cut back. Counselors will have to be laid off and service centers will 
have to be closed. The job creation and economic development activities 
of the SBDC network will be curtailed proportionately--at the very time 
that the economy is in need of a stimulus.
    Recent and pending state budget cuts in SBDC funding will assure 
that America's Small Business Development Center network will contract 
even further this year without a significantly increased federal 
appropriation. Rural areas which have unique economic development needs 
have already been adversely impacted by the closing of centers and the 
laying off of counselors. Unlike other federal management and technical 
assistance programs, federal dollars appropriated to the SBDC program 
leverage roughly three additional non-federal dollars. The decline in 
state resources as result of the crisis in state budgets cannot 
possibly be made up from private sector sources in the current economic 
climate. The Federal government needs to recognize the growing 
financial plight of the SBDC network in these trying economic times. If 
the Federal government does not allocate resources to the SBDC program 
at a level approximating $125 million for fiscal year 2004, the 
management and technical assistance needs of tens of thousands of small 
firms will go unmet and thousands of private sector jobs will likely be 
lost. The resulting decline in economic activity will surely have a 
significantly negative impact on state and federal budgets. The 
remarkable infrastructure of over 900 SBDC service centers developed 
over the past twenty-three years will deteriorate even further as more 
service centers are closed and dedicated counselors are laid off.
    The work of America's Small Business Development Center Network is 
constantly being recognized by others. The Bill J. Priest Institute for 
Economic Development, a Division of the Dallas County Community College 
District, was the only recipient of the Texas Award for Performance 
Excellence in 2002. The award is patterned after the Malcolm Baldrige 
National Quality award and recognizes Texas organizations that excel in 
world-class management, achievement, and performance excellence in 
applying quality and customer satisfaction principles. A critical 
component of the Institute is the Dallas Regional SBDC. NAMTAC, the 
National Association of Manufacturing and Technical Assistance 
Center's, presented its 2002 Outstanding Project of the Year Award to 
the New York State SBDC for its efforts to help small businesses 
recover from the September 11, 2001 terrorists attack in that state. 
The Maine SBDC program late last year was awarded the Margaret Chase 
Smith Maine State Quality Award. This award recognizes organizations 
for performance excellence based on criteria corresponding to the 
Malcolm Baldrige National Quality Award.
    In June of last year Secretary of Commerce Evans presented the 
Black Hawk College Export Trade Center, a special component of the 
Black Hawk College SBDC, with the President's ``E'' Award for Exporting 
Excellence. This prestigious award was created by President John F. 
Kennedy to recognize U.S. Businesses or organizations that have 
demonstrated outstanding growth and innovation in exports or export 
service. ASBDC is proud of the accomplishments of its members and their 
capable and committed personnel.
    The Subcommittee's consideration of fiscal year 2004 funding for 
the SBDC program comes at a critical time for our nation's economy. 
Small businesses generate 52 percent of Gross Domestic Product, 
represent 99 percent of all employers and employ 51 percent of all 
private sector employees. During the past decade small businesses 
created roughly 70 percent of net new jobs in our economy. But all is 
not well with the small business sector. The most recent data available 
from SBA's Office of Advocacy finds that in 2001 small business 
bankruptcies nationwide increased nearly 13 percent over the previous 
year. No doubt, newer national figures will show those numbers further 
increasing. The majority of small business owners have never received 
any formal entrepreneurial training. The majority has never managed a 
business during an economic downturn. The need for management and 
technical assistance within the small business sector is greater today 
than ever before. The Department of Labor confirms that when 
unemployment rises, self-employment rises.
    There are 23 million small business owners in the United States, 
and the Kauffman Foundation estimates that one in 10 adult Americans is 
seeking to start his or her own business. Forty percent of SBDC clients 
are women (SBDC's served over a quarter million female clients last 
year) and 22 percent are minorities. Demand for entrepreneurial 
services among these constituencies is exploding.
    SBA figures for fiscal year 2002 show that SBDC counseling cases 
and training attendees combined increased from 610,000 in fiscal year 
2001 to 650,000 in fiscal year 2002 despite an increase in federal 
funding of less than $100,000. These client numbers represent real 
people, your constituents, individuals, many with families, and 
mortgages, tuition payments and dreams. They are real people like Dr. 
Harris Goldberg, a chemist from Hillsborough, New Jersey who was 
featured in a December 16, 2002 article in the Wall Street Journal. Dr. 
Goldberg had been laid off, decided to seek assistance at his local 
SBDC and now has his own successful firm providing employment to 
others.
    If we are to have any chance of growing this economy at the level 
needed to provide jobs and enhance federal revenues, there must be a 
clear determination by Congress to provide the resources to increase 
the service capacity of the SBDC program. ASBDC appreciates the 
Subcommittee's support for the SBDC network in past years. I urge you 
to support an appropriation of $125 million for our nation's SBDC 
network in the fiscal year 2004 Commerce-Justice-State Appropriations 
bill. Thank you.
                                 ______
                                 

              Prepared Statement of The Nature Conservancy

    The Nature Conservancy is escalating its focus on freshwater, 
coastal, and marine conservation by establishing Freshwater and Marine 
Initiatives that will employ the science, partnerships, ecosystem 
approach, and site-based conservation that has worked throughout our 
fifty-year history. These initiatives will strengthen the work that we 
are engaging in with partners to develop a ``conservation blueprint'' 
identifying the places that, if conserved, will collectively protect 
the nation's plants, animals, and natural communities for the long-
term. Several NOAA programs have been, or will be successful at 
conserving many places identified by our blueprint.
Coastal Zone Management
            CZM Grants to States--$80 million
            CZM Program Administration--$7.5 million
            Non-point Pollution Implementation Grants--$15 million
    This unique federal-state-territorial partnership created under the 
Coastal Zone Management Act (CZMA) serves to protect, restore, and 
responsibly develop the nation's coastal communities and resources 
along 95,000 miles of shoreline. State and territorial CZM programs 
link national objectives with implementation and stewardship at the 
local level. Increased funding for this program in fiscal year 2004 
would advance protection of coastal, ocean, and Great Lakes species and 
their habitats; maintain the natural shoreline such as beaches, dunes 
and wetlands; and enhance scientific research and education, while 
allowing for certain economic growth.
    Many Conservancy chapters already pursue mutual goals with state 
CZM programs. We are working to strengthen these partnerships in light 
of our heightened emphasis on conserving freshwater, coastal, and 
marine biodiversity.
National Estuarine Research Reserve System
            Operations--$18 million
            Procurement, Acquisition and Construction--$15 million
    Authorized as part of the Coastal Zone Management Act (CZMA), the 
twenty-five ``living laboratories'' making up the National Estuarine 
Research Reserve System (NERRS) require funding appropriate to the 
importance of estuaries to critical habitat and coastal economies. 
Adequate funding for the NERRS will permit individual reserves to 
better implement strong management, research, education, and 
stewardship activities within surrounding communities, and acquire key 
tracts of land and conservation easements that buffer development 
impacts. This funding would also facilitate implementation of system-
wide monitoring and coastal training programs, and would enable 
expansion in order for the system to represent the suite of 
biogeographic regions that together comprise our nation's coastlines.
    We work closely with New Hampshire's Great Bay, Florida's 
Apalachicola Bay, Alaska's Kachemak Bay, South Carolina's ACE Basin, 
and Mississippi's Grand Bay reserves. As preserve managers, we at the 
Conservancy know first hand that the NERRS implements solid science to 
inform communities about how coastal ecosystems function, how humans 
affect them, and methods for improving their condition.
National Marine Sanctuaries--$38 million
    The Nature Conservancy urges the Committee to fund the National 
Marine Sanctuary Program at their fully authorized level of $38 million 
in fiscal year 2004 and we support the President's funding request for 
$10 million for Procurement, Acquisition & Construction for the 
Sanctuaries. This funding would extend volunteer programs, provide for 
additional monitoring, and would fulfill a national plan for public 
outreach. It would also enable new investments in science needed to 
better manage complex issues surrounding sanctuaries. Finally, 
additional funding will enable implementation of revised and more 
detailed management plans.
    The Conservancy is currently working cooperatively with the NMS 
program and the National Marine Sanctuary Foundation to develop 
effective volunteer programs for all of the Sanctuaries to better 
leverage federal investments with the ``sweat equity'' of those 
thousands of committed volunteers across the country. We are also 
working with the Monterey Bay NMS to determine overlapping goals and 
opportunities for collaboration as the sanctuary reviews its management 
plan. Finally, our most extensive experience has been with the Florida 
Keys NMS where their management plan, developed in cooperation with the 
state of Florida and the Sanctuary Advisory Committee, is being 
implemented.
Coastal and Estuarine Land Conservation Program--$60 million
    The Coastal and Estuarine Land Conservation Program (CELCP) was 
authorized by Congress as part of the Commerce, Justice, State, and 
Judiciary Appropriations Act of 2002. In its first year, this new 
program directed $15.8 million to coastal and estuarine areas with 
significant conservation, recreation, ecological, historical, or 
aesthetic value that are threatened by conversion from their natural 
state to other uses.
    Nowhere in the nation are threats such as sprawl, habitat loss, and 
fragmentation more significant than along our nation's coasts. That is 
why a program providing grants that allow for land acquisition as a 
conservation strategy serves as an important addition to federal 
efforts focused on protecting valuable habitat for the long-term. As a 
result, The Nature Conservancy supports a significant increase in 
funding ($60 million) for the CELCP in fiscal year 2004.
    In addition, we have identified four high-priority projects for 
CELP funding in fiscal year 2004:
  --Crow's Nest (VA)--$4 million
  --Gustavus Land Access and Enhancement (AK)--$1.5 million
  --Amsterdam Beach (NY)--$3 million
  --Ingleside (TX)--$500,000
Fisheries Habitat Restoration--$20 million
    The Nature Conservancy strongly supports NOAA's coastal habitat 
restoration efforts, and recommends funding levels of $20 million for 
Fishery Habitat Restoration. Most of this funding would ensure the 
continued success of NOAA's Community-based Restoration Program (CRP). 
This funding level would enable the CRP to direct more seed money to 
local communities across the country for the restoration of vital 
habitats including wetlands, seagrass beds, mangroves, anadromous fish 
spawning areas, and coastal rivers. Additionally, it would increase the 
CRP's geographic scope and the rate at which it can encourage community 
ownership and restoration of critical and rapidly dwindling habitat. 
This program has not only leveraged up to $10 for every federal dollar 
invested at more than 500 projects, but has also leveraged a 
conservation ethic across the nation.
    As a national partner, the Conservancy has experienced first hand 
how the CRP inspires local efforts to conduct meaningful, on-the-ground 
restoration of freshwater, coastal, and marine habitat. Since 
partnering with the CRP in 2000, we have already directed $1 million to 
community-based projects in Florida, New York, Connecticut, North 
Carolina, Delaware, Virginia, California, and Texas. With one year 
remaining in our national partnership, we are excited about what lies 
ahead.
Pacific Salmon Recovery Program
    The Conservancy considers salmon conservation a critical aspect of 
our work in the Pacific Northwest, Alaska, and the Northeast. Given the 
complex life history of this keystone species--migrating hundreds of 
miles past forests and farms, cities and dams, from fresh to saltwater 
during their lifecycle--successful salmon conservation requires action 
across a broad landscape.
    History has shown that money spent on habitat restoration and 
recovery could have been used more effectively and at less cost to the 
taxpayer if applied at a landscape-scale before systems were altered 
and degraded. However, habitat destruction, reduced streamflows, 
pollution, passage impediments, and overharvest have already played a 
role in the decline of salmon stocks. That is why generous funding to 
conserve and recover salmon in the Pacific Northwest and Alaska ($200 
million for the Pacific Coastal Salmon Recovery Fund; $55 million for 
NMFS Funding for Pacific Salmon Recovery), and in the Northeast ($30 
million for an equivalent Atlantic Coastal Salmon Recovery Fund), is 
now needed.
    In the Pacific Northwest and Alaska, the Pacific Coastal Salmon 
Recovery Fund has enabled states and tribes to support local efforts to 
evaluate, protect, and restore key habitat while enhancing local 
economies. NMFS funding enhances that support with scientific research 
and monitoring, and by spurring new cooperative efforts. In the 
Northeast, a significant amount of collaborative work among federal 
agencies, industry, private landowners, and other stakeholders has 
begun. The time is right to establish a similar approach and 
complementary funding for USFWS and NMFS.
Marine Protected Areas--$5 million
    Marine protected areas (MPAs) are proven tools for rebuilding and 
sustaining fisheries, recovering threatened and endangered species, and 
providing recreational opportunities. The Conservancy has learned this 
first hand through work with scientists, community members, 
international governments, and federal agencies to establish MPAs and 
identify and protect biodiversity within them in places such as the 
Florida Keys, the Exuma Cays Land and Sea Park in the Bahamas, and 
Kimbe Bay in Papua New Guinea.
    The Conservancy recommends that $5 million be appropriated for MPAs 
so that NOAA can continue working with federal and state agencies and 
other partners to assess MPA design and effectiveness as a management 
tool that protects biodiversity while permitting use of the nation's 
valuable marine resources. Increased funding would also expedite 
information collection and collaborative efforts required for 
completion of the first nationwide inventory of MPAs. Additional funds 
would be employed to improve coordination and information sharing at 
regional and national levels; support training and technical assistance 
for communities, users, management agencies, and others; and increase 
public involvement through the MPA web site.
Coral Reef Conservation--$30.25 million (total)
    The Nature Conservancy supports the President's request for $28.25 
million in fiscal year 2004 for activities that benefit coral reefs, 
including:
  --National Ocean Service--$16 million + $2 million
  --National Marine Fisheries Service--$11 million
  --Ocean and Atmospheric Research--$500,000
  --NESDIS--$750,000
    This funding would be used to advance priorities identified by the 
U.S. Coral Reef Task Force including comprehensive mapping and 
monitoring of coral reefs, research into ecological processes upon 
which reefs depend, integration of human activities, and public 
education. With such funding, this scientifically-based effort will 
protect and restore coral reefs in the United States and its 
territories. It will serve as a model in intergovernmental coordination 
and coral reef protection for similar initiatives around the world.
    The Conservancy urges the Committee to add to the President's 
request $2 million for grants to support on-the-ground conservation 
efforts. The availability of a small pot of funds that could be made 
available as grants to community-based efforts to address land-based 
sources of pollution or to support collaborative efforts to identify 
and designate Marine Protected Areas would be of substantial benefit to 
implementing the Coral Reef Task Force Action Plan.
    While NOAA's activities, guided by the Task Force, have made great 
strides in coral reef conservation, the Conservancy would like to see 
more funding dedicated to addressing this issue at an international 
scale. The combined effects of global climate change and human 
activities have led coral reef ecosystem health to decline severely all 
over the world in recent decades. It is now critical to take action 
before the tragedy becomes irreversible. Successful conservation of 
coral reefs will involve a broad-scale, global, and long-term 
commitment.
Estuary Restoration Program--$1.2 million
    The Nature Conservancy supports the President's request of $1.2 
million for NOAA in fiscal year 2004 to carry out their duties related 
to this program.
    The Estuary Restoration Act of 2000 created this program with the 
goal of restoring one million acres of estuary habitat by 2010. Subject 
to annual appropriations by Congress, the legislation authorized $275 
million over five years dedicated to public-private partnerships 
reversing the deterioration of estuaries through restoration of habitat 
that has been degraded by population growth, dams, and pollution. The 
Estuary Restoration Act emphasized the need for a centralized source of 
information on restoration activities, that provides for a consistent 
monitoring methodology that supports an iterative process and 
meaningful measures of success.
International Conservation
            Technical Assistance under CZMA--$1 million
            International Cooperation under NMSA--$500,000
    We recognize the significant accomplishments of the National Ocean 
Service (NOS) over the past several years in developing international 
capacity for integrated coastal management and marine protected area 
management particularly in Asia, the Pacific, and the Caribbean. NOS 
provides critical environmental leadership, for example: in the 
development of the recently ratified Protocol on Specially Protected 
Areas and Wildlife (SPAW) in the wider Caribbean region, its support of 
the International Coral Reef Initiative and the Global Coral Reef 
Monitoring Network, its leadership of IUCN's World Commission on 
Protected Areas (Marine) and especially extensive preparations for the 
marine program of the World Parks Congress in September 2003. We 
encourage increased allocation of resources toward these and other 
international activities with $1 million added to appropriations under 
Section 310, Technical Assistance, of the Coastal Zone Management Act, 
and $500,000 added to appropriations under Section 305, International 
Cooperation, of the National Marine Sanctuaries Act.
                                 ______
                                 

           Prepared Statement of the American Bar Association

    I am Jonathan Ross a lawyer in private practice with the 
Manchester, New Hampshire law firm of Wiggin & Nourie. This testimony 
is submitted at the request of the President of the American Bar 
Association, Alfred P. Carlton, Jr., to voice the Association's views 
with respect to the fiscal year 2004 appropriations for the Legal 
Services Corporation and the Judiciary's Defender Services Program.
    I submit this testimony in my capacity as Chair of the American Bar 
Association's Standing Committee on Legal Aid and Indigent Defendants. 
This Standing Committee serves the ABA and the nation by examining 
issues relating to the delivery of civil legal assistance and criminal 
defender services to the poor. It maintains a close liaison with state 
and local bar association leaders, providing information and developing 
policy and initiatives on civil legal aid and indigent defense.
                       legal services corporation
    The ABA recommends LSC's fiscal year 2004 appropriation be 
increased to $387.7 million.--The ABA is profoundly grateful for the 
Subcommittee's inclusion of the Harkin-Smith-Domenici amendment in the 
Senate's version of the fiscal year 2003 appropriation bill. This 
amendment increased LSC's funding by $19 million and was intended to 
prevent drastic funding cuts to legal aid programs serving 26 states. 
We are also grateful for the Subcommittee's hard work to ensure that 
half of that amount, $9.5 million, was included in the final version of 
the fiscal year 2003 appropriations bill.
    As you know, the Corporation redistributes grants to local legal 
aid programs every 10 years using a formula based on the most recent 
census. This reallocation resulted in significant cuts to service areas 
in these 26 states, including Ohio, Mississippi, Pennsylvania, 
Missouri, Kentucky, Alabama, Texas, Wisconsin, Vermont, Louisiana, 
Illinois, West Virginia, Minnesota and Michigan. Because of the static 
nature of LSC funding and the 5.74 percent increase in the poverty 
population nationwide, even states whose poverty population (and LSC-
eligible clients) remained the same or actually increased may have 
received funding cuts.
    At present, however, no state is able to meet the current demand 
for legal assistance, as programs must continue to turn away eligible 
clients with all but critical legal needs. In addition to the increase 
in the number of eligible clients as a result of the increase in the 
national poverty population, almost every state has already experienced 
or expects significant decreases in supplemental funding provided 
through state legislatures and/or Interest on Lawyer Trust Accounts 
(IOLTA).
    At the same time, various credible studies--state and national--
continue to show that despite the combined efforts of legal aid 
programs and private bar pro bono attorneys, 80 percent of the legal 
needs of those in poverty go unmet. These people are substantially the 
``working poor'' who encounter legal problems relating to family 
relationships, domestic violence, health, employment, housing and other 
basic life issues. Such hardships have only increased in scope and 
frequency since the terrorist attacks and as a result of the faltering 
economy. Now, with the mobilization of U.S. forces for the war in Iraq, 
there has been an increased demand for legal services among our 
servicemen and women, many of whom qualify for legal aid.
    We understand that your Subcommittee faces many difficult funding 
choices right now. However, assuring access to our justice system for 
low-income individuals to resolve their legal problems peacefully is 
essential to preserving the rule of law. At this time, the ABA 
respectfully requests that the Subcommittee fund LSC at $387.7 million 
for fiscal year 2004.
    The LSC has historically been grossly under-funded. In 1996, 
Congress reduced LSC's funding by 30 percent from $415 million to $278 
million and required many reforms in the way the LSC operated and 
restricted the activities of its local program grantees. The LSC has 
fully implemented all the required reforms, insuring that local 
grantees focus on meeting the basic, everyday legal needs of the poor. 
The appropriation has increased modestly since 1996, to $338.8 million 
for fiscal year 2003, but this amount is less than half the funding, in 
constant dollars, that LSC received in 1980.
    We estimate that, with inflation, the amount needed to merely bring 
LSC to pre-1996 levels would be $490 million. The ABA therefore urges 
Congress to restore LSC's funding to $490 million. In view of other 
pressing needs, we recognize that this cannot be accomplished at once, 
and ask the Subcommittee to increase LSC's funding from the fiscal year 
2003 level of $338.8 million to this amount over a three-year period 
starting with a $51.1 million increase in fiscal year 2004.
    At the very minimum, the ABA urges the Subcommittee to provide at 
least $352.4 million for fiscal year 2004, as recently requested by the 
Legal Services Corporation. LSC's request represents an increase 
correlating to the increase in the poverty population reported by the 
2000 census.
    The Legal Services Corporation Plays A Vital Role in the Justice 
System.--For more than a quarter century, the Legal Services 
Corporation has been a lifeline for Americans in desperate need. For 
poor Americans, LSC-funded legal services programs have been there at 
times when they had nowhere else to go. These are just a few examples 
of the millions of people legal aid lawyers help every year:
  --Alexander and his wife had to move to another state for health 
        reasons. They were unable to sell their mobile home, and 
        eventually the lender repossessed the unit. Later, a collection 
        agency notified them that they still owed $12,000 on the note. 
        At age 84, Alexander, who took pride in his good credit rating, 
        wanted to do the right thing. He could not, however, pay the 
        amount owed, nor could he afford an attorney. The local legal 
        services office was able to assist him in obtaining a 
        settlement agreement. He paid the settlement amount and was 
        able to keep his good credit rating. He has returned to the 
        work force part time and is caring for his ailing wife.
  --Mark, 38 years old, was dying from non-Hodgkin's lymphoma. 
        Conventional chemotherapy had helped, but he needed a special 
        type of bone marrow transplant to ensure that the lymphoma 
        would not recur. Without the procedure, his doctors predicted 
        that he would have only one year to live. Medicaid denied the 
        procedure, claiming that this type of transplant was not a 
        covered benefit even though it is considered the current 
        standard of care for the disease. Mark's legal services 
        attorney successfully argued that the denial was improper. The 
        transplant was successful, and Mark is now home and seeking 
        employment.
    The Corporation, formed in 1974 with bipartisan Congressional 
support and the endorsement of the Nixon Administration, was created to 
ensure that all Americans have access to a lawyer and the justice 
system for civil legal issues regardless of their ability to pay. 
Today, this is more important than ever. A weak economy has created 
pressing new legal needs for many Americans who have lost employment or 
suffered other setbacks. According to the 2000 census, more than 36 
million Americans live in poverty, making more than one in six 
Americans eligible for LSC-funded representation.
    The National Legal Aid Program Merits Strong Congressional Support 
Because:
  --LSC-funded programs provide basic legal services for poor Americans 
        in every Congressional District in the country.--LSC disburses 
        95 percent of its annual federal appropriation to 161 local 
        legal aid programs serving low-income individuals and families 
        in every county and Congressional District in the country. 
        Boards consisting of leaders in the local business and legal 
        communities set the priorities for and oversee these programs, 
        which are required by law to provide basic legal services to 
        the poor.
  --LSC-funded legal aid lawyers save and protect American families.--
        Local legal aid programs make a real difference in the lives of 
        millions of low-income American families by helping them 
        resolve everyday legal matters, including family law, housing, 
        and consumer issues, and by helping them obtain wrongly denied 
        benefits such as social security and veterans' pensions. LSC-
        funded programs often provide assistance to those who suddenly 
        qualify and need legal assistance, such as when natural or 
        national disaster strikes; LSC-funded programs were 
        instrumental in assisting September 11 victims and families. 
        Many low-income military families qualify for legal aid, and 
        seek help with such matters as estate planning, consumer and 
        landlord/tenant problems and family law.
  --LSC-funded programs are the nation's primary source of legal 
        assistance for women who are victims of domestic violence.--
        Legal aid programs identify domestic violence as one of the top 
        priorities in their caseloads. While domestic violence occurs 
        at all income levels, low-income women are significantly more 
        likely to experience violence than other women, according to 
        the U.S. Bureau of Justice Statistics. Recent studies also show 
        that the only public service that reduces domestic abuse in the 
        long term is women's access to legal aid.
  --The White House, the Congress and the American people support the 
        LSC.--President Bush supports funding for the LSC, recognizing 
        that ``[f]or millions of Americans, LSC-funded legal services 
        is the only resource available to access the justice system.'' 
        A bipartisan majority in Congress supports LSC; the Harkin-
        Smith-Domenici amendment ultimately added $9.5 million to LSC's 
        fiscal year 2003 budget at a time when many other domestic 
        programs were being cut or flat-funded. The American public 
        agrees that federal tax dollars should fund LSC: a national 
        poll reported in 2000 that 82 percent of those surveyed 
        supported government-funded legal aid.
  --The private bar cannot replace the services provided by LSC-funded 
        programs.--The private bar actively encourages and organizes 
        its members to provide pro bono legal services. Among many 
        other efforts, the ABA's Standing Committee on Legal Aid to 
        Military Personnel helps the military and the Department of 
        Defense improve the effectiveness of legal assistance in civil 
        matters to an estimated nine million servicemen and women and 
        their dependents. However, a well-funded federal legal services 
        program is essential to leverage other resources--human and 
        financial--to help meet the legal needs of the poor. Without 
        adequate federal funding, these non-LSC resources would be both 
        less abundant and less effectively utilized--and, in many 
        cases, would not exist.
            criminal justice act: defender services program
    The ABA supports the request of the U.S. Judicial Conference for an 
hourly rate increase from $90 to $113 for compensation for panel 
attorneys who represent indigent defendants under the Criminal Justice 
Act. This modest increase is needed to continue to attract and retain 
competent panel attorneys. We also support the Judiciary's request for 
funds sufficient to increase the maximum hourly capital panel attorney 
rate from $128 to $157. The current capital panel attorney rate has not 
been raised since 1989, and now does not even cover overhead costs for 
many attorneys doing this most difficult work, work often done under 
highly stressful, emergency conditions. The Florida Supreme Court 
recently concluded that every capital case by definition involves 
``extraordinary circumstances and unusual representation.'' Without a 
fee increase, scores of qualified attorneys will simply stop taking 
capital cases.
                               conclusion
    The American Bar Association urges the Subcommittee to provide 
adequate funding for the Legal Services Corporation and the Defender 
Services Program. These two programs are essential for ensuring ``equal 
access to justice'' for all.
    Thank you for your consideration.
                                 ______
                                 

     Prepared Statement of the National Center for Victims of Crime

    My name is Susan Herman, and I am the executive director of the 
National Center for Victims of Crime. I submit this testimony to urge 
members of the Subcommittee on Commerce, Justice, State and the 
Judiciary to raise the cap on the Victims of Crime Act (VOCA) Fund to 
$685 million for fiscal year 2004. In addition, I urge you to prevent 
the creation of additional earmarks off the top of the VOCA Fund.
    The National Center for Victims of Crime is the leading resource 
and advocacy organization for victims of crime. We are well acquainted 
with the funding needs of the nation's crime victim assistance 
programs. Since its founding in 1985, the National Center has worked 
with public and private non-profit organizations and agencies across 
the country, and has provided information, support, and technical 
assistance to hundreds of thousands of victims, victim service 
providers, allied professionals, and advocates. Our toll-free 
information and referral Helpline keeps us in touch with the needs of 
crime victims nationwide. Through our day-to-day interactions with our 
members and with the 7,800 crime victim service providers in our 
service referral network, we are aware of the work they do and of the 
impact that funding decisions at the federal level have on their 
ability to meet the needs of victims. We also interact with crime 
victim service providers through our Training Institute, which offers 
training on a variety of issues to service providers throughout the 
country. In short, we hear from victims and service providers every day 
about the impact and importance of the VOCA Fund.
    As you know, the VOCA Fund consists of fines and penalties imposed 
on federal offenders. The bulk of the money is distributed each year by 
formula grants to the states to fund both their crime victim 
compensation programs, which pay many of the out-of-pocket expenses 
incurred by victims, and victim assistance programs, such as rape 
crisis centers, domestic violence shelters, victim assistants in law 
enforcement and prosecutor offices, and other direct services for 
victims of crime.
    Last year's $600 million cap on the VOCA Fund translated to a cut 
in funding for crime victim assistance programs of approximately eight 
percent. This eight percent funding decrease resulted from a change in 
the VOCA formula enacted in October 2001 as part of the anti-terrorism 
legislation, the USA PATRIOT Act, Pub. L. 107-56. That change increased 
the amount of VOCA Funds paid to states for their crime victim 
compensation programs, leaving less available for grants to victim 
service agencies.
    The amount of VOCA money a state receives for compensation is 
limited to a percentage of what that state paid out in a given year. 
Previously, states received a reimbursement of 40 percent of what they 
paid out in crime victim compensation. Beginning in fiscal year 2003, 
that amount increased to 60 percent of what the state paid out. The 
increase in VOCA funds that states received for compensation programs 
limited the funds available for crime victim services. The USA PATRIOT 
Act had coupled the formula change with an incremental annual increase 
in the VOCA cap that would have offset the loss of funds for victim 
services. That annual increase mechanism, however, was stricken by 
language in the appropriations measures for fiscal year 2002.
    The impact of that eight percent cut has been significant for 
programs already suffering from reduced private giving and state 
support. From around the country, programs have reported to us that 
they have had to:
  --Lay off staff, or reduce full time staff to part time.--Uniformly, 
        programs reported that they were already operating at bare 
        bones levels. The only area left to cut is staff time, which 
        directly reduces services available to victims. Many programs 
        also reported that there were no similar agencies or services 
        in their area to whom victims could turn. The following 
        response from a Louisiana rape crisis center was typical: ``We 
        have already cut as many positions as we can without shutting 
        down entirely. We counsel victims of sexual assault, and any 
        cut will mean no counseling for those victims.'' In many 
        instances, programs have only one or two paid staff, and the 
        reduction in their time will necessitate elimination of 
        extensive volunteer programs because there will be insufficient 
        professional oversight and coordination.
  --Limit their geographic coverage.--For instance, from Colorado, 
        Michigan, and Virginia we heard from programs that had been 
        serving victims in 5 to 10 counties; now they have had to pull 
        back from service in the outlying regions, leaving those 
        victims without services. Some programs serving rural victims 
        can no longer reimburse mileage or phone costs for volunteer 
        advocates who offer services throughout a large area.
  --Discontinue services for special populations of victims.--In some 
        places, victim assistance programs have recently conducted or 
        been a part of needs assessments and strategic planning 
        efforts, and thus have a clear picture of special victim 
        populations which are not being adequately served. Many 
        services that had been developed for special populations are 
        being eliminated because of reduced funding. One program from 
        Minnesota stated that their ``immigrant and refugee program to 
        sexual assault victims will be cut. The bilingual advocate for 
        this program will most likely be laid off. The outreach to this 
        population in our community has been building for the past 8 
        years. The trust and confidence from the community will be 
        eroded. Most importantly, an underserved community will go 
        unserved.''
  --Discontinue services for secondary victims.--For example, many 
        battered women's programs, which had relied on VOCA funding to 
        support services for the children who witnessed or sustained 
        abuse, are having to restrict and even eliminate those 
        services. A North Carolina shelter told us, ``In [our] county 
        there have been two domestic violence murders in 2003 one of 
        which was a stalking case. The five children involved in those 
        cases need our programs and we may not have the resources to 
        serve them. Then what?''
  --Turn away crime victims.--Victim service providers from Alabama, 
        Massachusetts, and Nevada all reported that the numbers of 
        victims seeking assistance, and the numbers of schools and 
        other organizations seeking outreach programs, have increased 
        at the same time the available funding has decreased. One North 
        Carolina program noted, ``County guidance counselors and 
        medical professionals continue to identify and refer more and 
        more children who are victims of family violence, sexual 
        assault and sexual abuse due to the education provided by this 
        agency to teach them how to recognize child victims/witnesses 
        of domestic violence. Yet, we will not be able to offer our 
        afternoon programming or summer programs to additional children 
        until some of the current children enrolled in the program age 
        out.''
    The effect of this year's cuts have been significant. The National 
Center for Victims of Crime is asking that the VOCA Fund cap be raised 
to $685 million for fiscal year 2004, to help programs make up for the 
loss in funding this year and enable them to begin to expand their 
programs. When we asked victim assistance programs about their spending 
priorities for any increase in funding, they reported the following 
needs:
  --Services to immigrant victims of crime.--All over the country, 
        there are limited services, or even a complete absence of 
        services, for large groups of immigrant victims of crime. Such 
        victims are often linguistically or culturally isolated. 
        Without the availability of interpreters or bi-lingual service 
        providers, such victims cannot access the services that may 
        otherwise be available. Additionally, victims who come from a 
        society where the police are not trusted, or a culture where 
        sexual violence is unmentioned or domestic violence is 
        condoned, often require a different approach to providing 
        services. Effective victim services require ready access to 
        service providers who are culturally knowledgeable and 
        sensitive to these varying needs, and programs in Arizona, 
        Georgia, Michigan, Mississippi, Nebraska, and Wyoming all 
        listed providing services to immigrant victims as a priority.
  --Services to victims in rural jurisdictions.--Too many victims in 
        rural jurisdictions still lack access to basic services. In 
        many parts of the country, victims are hundreds of miles from 
        the nearest rape crisis center or battered women's shelter. 
        Victim service providers in Alabama, Idaho, Kentucky, and 
        Montana all reported a need to expand efforts to cover multi-
        county areas through the creation of satellite offices, the use 
        of volunteers or staff to travel to victims' homes or other 
        locations; or to increase the use of the Internet to serve 
        victims in rural communities.
  --Assistance to victims with disabilities.--One area of greatest need 
        is in reaching and serving crime victims with disabilities: 
        developmentally disabled victims, mentally ill victims, hearing 
        impaired victims, and others whose disability makes them 
        simultaneously more vulnerable to crime and less able to access 
        existing services. Many service providers, including programs 
        in Michigan, Minnesota and Pennsylvania, would like to expand 
        their programs to provide appropriate services to such crime 
        victims.
  --Assistance to elderly victims.--A number of victim assistance 
        programs noted a need to increase their services to elderly 
        victims of crime, who often lack other forms of support and who 
        may require a service provider to visit them in their homes. 
        Victim assistance programs in Ohio, Pennsylvania, Texas and 
        Wyoming all listed services to elder victims as a priority.
  --Assistance to teen victims.--Many victim assistance programs are 
        hoping to extend services to teen victims of crime, especially 
        teen victims of dating violence. Providing prompt services to 
        teen victims can significantly lessen the lifelong impact of 
        crime, and programs in Indiana, Iowa, Minnesota, and Texas all 
        described a need for services to teen victims.
  --Providing more timely services to victims.--Victims in many 
        programs are waiting weeks or months to get into counseling or 
        support groups; victims in the criminal justice system may not 
        be contacted until close to the trial stage. Victim service 
        providers in Colorado, Massachusetts, New York, and Virginia 
        all spoke of the need to hire additional staff to eliminate or 
        significantly reduce such waiting periods for services.
  --Serving victims of non-violent crime.--As the incidence of identity 
        theft and fraud have increased, and the understanding of the 
        impact of non-violent crime on victims has grown, many victim 
        assistance programs, including those in Minnesota, Ohio, and 
        Pennsylvania, expressed a desire to expand their services to 
        include such victims.
  --Technology investments to enhance victim services.--Many victim 
        assistance programs reported that outdated computer equipment 
        limits their efficiency. There is also a great need for case 
        management software and assessment tools to help programs 
        improve and evaluate their effectiveness in serving victims of 
        crime. Programs in Kentucky, Pennsylvania and Texas all noted 
        such needs.
    Finally, while our first priority is to see the cap on the VOCA 
Fund raised to $685 million for fiscal year 2004, we also urge you to 
discontinue earmarks for federal positions off the top of the VOCA 
Fund. New earmarks on the Fund have been enacted over the last several 
legislative sessions, limiting the amount of money ultimately available 
to states to fund local programs. These earmarks provide for victim/
witness coordinators in U.S. Attorneys' offices, for victim assistance 
in the FBI, and for an automated victim notification system at the 
federal level. Such expenditures are expected to be nearly $34 million 
in fiscal year 2003. These earmarks result in a significant decrease in 
funding available to help the vast majority of crime victims--victims 
whose cases are prosecuted and who are served at the state and local 
levels. Such federal positions may be warranted, but surely Congress 
can find other sources of revenue to support federal employees.
    The most important action Congress can take to help this nation's 
victims of crime is to provide the funding for services and 
compensation programs that help them rebuild their lives. Congress' 
creation of the VOCA Fund in 1984 was a landmark action that 
fundamentally changed the way our society responds to victims of crime. 
We urge you to continue this great effort, by raising the cap on the 
VOCA Fund to $685 million, and resisting pressure to earmark the Fund. 
We must continue the progress of our national response to victims of 
crime.
                                 ______
                                 

 Prepared Statement of the California Industry and Government Central 
                California Ozone Study (CCOS) Coalition

    Mr. Chairman and Members of the Subcommittee: On behalf of the 
California Industry and Government Central California Ozone Study 
(CCOS) Coalition, we are pleased to submit this statement for the 
record in support of our fiscal year 2004 funding request of $500,000 
from the National Oceanic and Atmospheric Administration (NOAA) for 
CCOS as part of a Federal match for the $9.1 million already 
contributed by California State and local agencies and the private 
sector. NOAA was under contract for approximately $700,000 to measure 
winds and temperatures during the CCOS field study. Currently, NOAA is 
under contract for $250,000 to participate in the CCOS data analysis 
and modeling. This request will partially replace funding already spent 
for NOAA's participation in CCOS.
    Most of central California does not attain federal health-based 
standards for ozone and particulate matter. The San Joaquin Valley is 
developing new State Implementation Plans (SIPs) for the federal ozone 
and particulate matter standards in the 2002 to 2004 timeframe. The San 
Francisco Bay Area has committed to update their ozone SIP in 2004 
based on new technical data. In addition, none of these areas attain 
the new federal 8-hour ozone standard. SIPs for the 8-hour standard 
will be due in the 2007 timeframe--and must include an evaluation of 
the impact of transported air pollution on downwind areas such as the 
Mountain Counties. Photochemical air quality modeling will be necessary 
to prepare SIPs that are approvable by the U.S. Environmental 
Protection Agency.
    The Central California Ozone Study is designed to enable central 
California to meet Clean Air Act requirements for ozone State 
Implementation Plans (SIPs) as well as advance fundamental science for 
use nationwide. The CCOS field measurement program was conducted during 
the summer of 2000 in conjunction with the California Regional 
PM<INF>10</INF>/PM<INF>2.5</INF> Air Quality Study (CRPAQS), a major 
study of the origin, nature, and extent of excessive levels of fine 
particles in central California. CCOS includes an ozone field study, a 
deposition study, data analysis, modeling performance evaluations, and 
a retrospective look at previous SIP modeling. The CCOS study area 
extends over central and most of northern California. The goal of the 
CCOS is to better understand the nature of the ozone problem across the 
region, providing a strong scientific foundation for preparing the next 
round of State and Federal attainment plans. The study includes six 
main components:
  --Developed the design of the field study
  --Conducted an intensive field monitoring study from June 1 to 
        September 30, 2000
  --Developing an emission inventory to support modeling
  --Developing and evaluating a photochemical model for the region
  --Designing and conducting a deposition field study
  --Evaluating emission control strategies for upcoming ozone 
        attainment plans
    The CCOS is directed by Policy and Technical Committees consisting 
of representatives from Federal, State and local governments, as well 
as private industry. These committees, which managed the San Joaquin 
Valley Ozone Study and are currently managing the California Regional 
Particulate Air Quality Study, are landmark examples of collaborative 
environmental management. The proven methods and established teamwork 
provide a solid foundation for CCOS. The sponsors of CCOS, representing 
state, local government and industry, have contributed approximately 
$9.1 million for the field study. The federal government has 
contributed $3,730,000 to support some data analysis and modeling. In 
addition, CCOS sponsors are providing $2 million of in-kind support. 
The Policy Committee is seeking federal co-funding of $6.25 million to 
complete the data analysis and modeling portions of the study and for a 
future deposition study. California is an ideal natural laboratory for 
studies that address these issues, given the scale and diversity of the 
various ground surfaces in the region (crops, woodlands, forests, urban 
and suburban areas).
    There is a national need to address national data gaps and 
California should not bear the entire cost of addressing these gaps. 
National data gaps include issues relating to the integration of 
particulate matter and ozone control strategies. The CCOS field study 
took place concurrently with the California Regional Particulate Matter 
Study--previously jointly funded through Federal, State, local and 
private sector funds. CCOS was timed to enable leveraging the efforts 
of the particulate matter study. Some equipment and personnel served 
dual functions to reduce the net cost of the CCOS field study. From a 
technical standpoint, carrying out both studies concurrently was a 
unique opportunity to address the integration of particulate matter and 
ozone control efforts. To effectively address these issues requires 
federal assistance.
    For fiscal year 2004, our Coalition is seeking funding of $500,000 
from the National Oceanic and Atmospheric Administration (NOAA). 
Meteorological data were continuously collected during the CCOS field 
program. Extensive meteorological data collected as part of the field 
study can be used by NOAA to strengthen its ongoing research activities 
such as improving meteorological forecasting and providing information 
on weather conditions along the Pacific coast for use in U.S. weather 
models. In addition, CCOS provides data for research on air flows in 
complex terrain. The improved results obtained from this research have 
national applicability.
    Thank you very much for your consideration of our request.
                                 ______
                                 

   Prepared Statement of the Monmouth University School of Science, 
                       Technology and Engineering

      establishment of the center for coastal watershed management
    The Department of the Interior's policies and practices reflect the 
fact that clean water is essential to all Americans. Water resources in 
the United States provide water to drink, water to irrigate crops, 
provide habitat for a diversity of fish and wildlife, as wells as 
provide for recreational opportunities such as fishing, boating, and 
swimming. However, the U.S. Environmental Protection Agency (EPA) has 
acknowledged that a majority of our watersheds have water quality 
problems that include contamination with pathogens or toxic chemicals, 
nutrient enrichment, fish and wildlife habitat loss, and invasive 
species. According the EPA, these problems continue to impair 
watersheds nationwide and prohibit the attainment of water quality 
goals. They conclude by stating that problems are complex and varied, 
and that governments working alone cannot solve all of them.
    The Nation's fish and aquatic resources are among the richest and 
most diverse in the world and annually they provide ecological, social, 
and economic benefits to citizens and visitors. However, despite 
efforts to conserve fish and other aquatic resources, a growing number 
are declining and in need of special protection or management efforts 
in some part of their natural or historic range. According to the U.S. 
Fish and Wildlife Service (FWS), the reasons for these declines are 
linked largely to habitat loss or alteration and the impacts of harmful 
exotic or transplanted species. To move forward in efforts to conserve 
and manage aquatic resources and their habitats across the country, FWS 
acknowledges the need to take an ecosystems approach and form 
partnerships that promote collaboration among governmental agencies, 
organizations, and individuals.
Rationale for a Coastal Watersheds Approach
    New Jersey is a state richly endowed with coastal resources. These 
resources support traditional fisheries and maritime industries as well 
as more contemporary businesses and rapidly growing new concepts in 
residential development. However, because of the rapid growth of both 
resident and tourist populations, the nation's most densely populated 
state faces enormous pressures balancing growth demand with the limited 
nature of its coastal resources.
    The marine ecosystems within the state currently exhibit signs of 
stress and deterioration, as documented in the scientific and popular 
literature. As coastal use and development increase and coastal 
population continues to rise, impacts on the environment will become 
even more severe. Among the most important impacts of concern in the 
coastal zone are degradation and loss of habitats and the deterioration 
of water quality.
    The health and vitality of New Jersey's marine resources are 
dependent upon the ability of governmental decision-making processes to 
protect and enhance the coastal environment and reduce environmental 
risk associated with unwise development and waste disposal practices. 
However, throughout the past decade New Jersey citizens have been 
disillusioned by what many perceive as an apparent inability to 
properly manage the coastal zone even after such events as beach 
closures, nuisance algal blooms, fish kills, contamination of habitats 
and organisms with pathogens and toxic chemicals, sewage treatment 
problems, depletion of fish stocks, and rampant coastal development 
resulting in nonpoint pollution problems in ocean waters, coastal bays, 
their tributaries and watersheds. A significant part of this 
frustration is due to the inability of multiple governmental units to 
collectively respond to very complex environmental phenomena.
              the center for coastal watershed management
Progress To Date
    Projects conducted by the Monmouth University Center for Coastal 
Watershed Management will assist federal, state and local agencies, 
communities, and organizations in achieving their goals and objects as 
they relate to coastal watersheds and their natural and living 
resources.
    During the past year, as plans for the Center for Coastal Watershed 
Management were under development at Monmouth, a number of projects 
dealing with watershed research and education were initiated:
  --Bacterial source tracking (BST) methodologies are being used for 
        identification of specific sources of fecal contamination in 
        local rivers, lakes, and estuaries.
  --Rapid bioassessment (RBA) techniques are being used to characterize 
        several streams and lakes in Monmouth County.
  --Fish communities in Whale Pond Brook, Deal Lake, Wreck Pond and the 
        Manasquan River Estuary are being characterized using passive 
        and active fishery sampling techniques.
  --Local watershed and community groups have been assisted with 
        organization and implementation of stream cleanups and 
        assessments of impairments to the Whale Pond Brook and Poplar 
        Brook watersheds.
  --STE has hosted or conducted numerous seminars and workshops dealing 
        with coastal and watershed issues in conjunction with a variety 
        of groups:
    --Atmospheric Deposition (NJ Sea Grant Program)
    --Nuisance Algal Blooms (NJ Sea Grant Program)
    --Early Life History of Fishes of the Mid-Atlantic (NOAA/NMFS)
    --Watershed Educators Workshop (NJDEP/Monmouth County)
    --Stormwater Management and Restoration Techniques for Coastal 
            Ponds and Lakes (NJDEP/Monmouth County)
    --Volunteer Watershed Monitoring (NJDEP/Monmouth County)
    --Watershed Area 12 Congress (NJDEP/Monmouth County)
    --Water Monitoring Training Course (Monmouth County/YSI, Inc.)
Current and Future Objectives
    In New Jersey, persistent coastal issues remain to be addressed, 
including nonpoint source pollution, headwaters destruction, deposition 
of pollutants into waterways, and habitat degradation. The State of New 
Jersey has acknowledged the need for creative, comprehensive solutions 
to watershed preservation, protection, and management. In 1997, 
Department of Environmental Protection (NJDEP) began implementing a 
statewide watershed management framework to provide a means to further 
restore and maintain the physical, chemical, and biological integrity 
of waters in the state using sustainable management principles that 
allow a more holistic, rather than site-specific, approach to most 
effectively protect water resources. The state's watershed management 
framework is based on three key components: a geographic focus; 
continuous improvement based on sound science; and partnership/
stakeholder involvement.
    The Monmouth University Center for Coastal Watershed Management (MU 
CCWM) will be housed within the School of Science, Technology and 
Engineering. The Center will spearhead the application of science and 
technology to the effective management of watershed resources in New 
Jersey's coastal environment. The Center, in partnership with the 
Monmouth County Health Department and with other regional 
organizations, will serve as a focal point for the development of 
leading edge approaches to the solution of problems facing local 
communities and decision-makers at all levels of government by:
  --Promoting interdisciplinary studies of coastal watersheds by 
        Monmouth University faculty, students, associates, and 
        colleagues; and
  --Fostering collaboration between citizens, watershed and community 
        organizations, governmental agencies, local businesses, the 
        scientific community, and other parties interested in watershed 
        management and restoration.
    Specific objectives of the Monmouth University Center for Coastal 
Watershed Management include:
  --Strengthen teaching, research, and outreach at Monmouth University 
        with emphasis on programs crossing university departmental 
        boundaries as they relate to the environmental, social, and 
        economic aspects of coastal watershed management.
  --Provide a forum for the integration of knowledge from a wide array 
        of technical disciplines in addressing watershed management 
        issues.
  --Establish an analytical capability to provide scientific 
        information necessary for making informed watershed management 
        decisions.
  --Facilitate access to objective and scientifically sound information 
        on effective techniques to protect and restore coastal and 
        urban watersheds.
  --Conduct community outreach programs highlighting the need for 
        greater protection of our waters and reliable and effective 
        ways of protecting and restoring coastal and urban watersheds.
  --Conduct workshops and special programs for pre-college students and 
        educators from local school districts.
  --Conduct continuing professional education programs for practicing 
        professionals in the form of short courses, workshops, and 
        seminars.
  --Involve undergraduate students in faculty-supervised independent 
        research related to ecology, natural resource management, 
        environmental and resource economics, and local environmental 
        issues.
  --Maximize University participation in the local, regional, and 
        statewide watershed initiatives.
                                 ______
                                 

      Prepared Statement of the American Museum of Natural History

About the American Museum of Natural History
    The American Museum of Natural History [AMNH] is one of the 
nation's preeminent institutions for scientific research and public 
education. Since its founding in 1869, the Museum has pursued its 
mission to ``discover, interpret, and disseminate--through scientific 
research and education--knowledge about human cultures, the natural 
world, and the universe.'' It is renowned for its exhibitions and 
collections of more than 32 million natural specimens and cultural 
artifacts. With nearly four million annual visitors--approximately half 
of them children--its audience is one of the largest, fastest growing, 
and most diverse of any museum in the country. Museum scientists 
conduct groundbreaking research in fields ranging from all branches of 
zoology, comparative genomics, and informatics to earth, space, and 
environmental sciences and biodiversity conservation. Their work forms 
the basis for all the Museum's activities that seek to explain complex 
issues and help people to understand the events and processes that 
created and continue to shape the Earth, life and civilization on this 
planet, and the universe beyond.
    Today more than 200 Museum scientists with internationally 
recognized expertise, led by 46 curators, conduct laboratory and 
collections-based research programs as well as fieldwork and training. 
The Museum's research programs are organized under five divisions 
(Anthropology; Earth, Planetary, and Space Sciences; Invertebrate 
Zoology; Paleontology; and Vertebrate Zoology), along with the Center 
for Biodiversity and Conservation (CBC). The Museum also conducts 
graduate training programs in conjunction with a host of distinguished 
universities, supports doctoral and postdoctoral scientists with highly 
competitive research fellowships, and offers talented undergraduates an 
opportunity to work with Museum scientists.
    The Museum's Center for Biodiversity and Conservation, founded in 
1993, is dedicated to enhancing the use of rigorous scientific data to 
mitigate critical threats to global biodiversity. The CBC draws on the 
strengths of the Museum's scientific, education, and exhibition 
departments to integrate this information into the conservation process 
and to disseminate it widely. It forges key partnerships to conduct 
conservation-related field projects around the world, train scientists, 
organize scientific symposia, present public programs, and produce 
publications geared toward scientists, policy makers, and the lay 
public. Each spring, the CBC hosts symposia that focus on conservation 
issues. In 2002, the symposium, ``Sustaining Seascapes: the Science and 
Policy of Marine Resource Management,'' was co-sponsored by NOAA's 
Marine Protected Areas Center, along with other federal and private 
organizations, and examined the large-scale conservation of marine 
ecosystems, giving special consideration to novel approaches to the 
sustainable management of biodiversity and fisheries. The focus of 
2003's symposium, held March 20-21, was on conservation issues related 
to increased ecotourism in Southeast Asia.
    The Museum's vast collections are a major scientific resource, 
providing the foundation for the Museum's interrelated research, 
education, and exhibition missions. They often include endangered and 
extinct species as well as many of the only known ``type specimens''--
examples of species by which all other finds are compared. Within the 
collections are many spectacular individual collections, including the 
world's most comprehensive collections of dinosaurs, fossil mammals, 
Northwest Coast and Siberian cultural artifacts, North American 
butterflies, spiders, Australian and Chinese amphibians, reptiles, 
fishes, and one of the world's most important bird collections. 
Collections such as these are historical libraries of expertly 
identified and documented examples of species and artifacts, providing 
an irreplaceable record of life on earth. They provide vital data for 
Museum scientists as well for more than 250 national and international 
visiting scientists each year.
    An exciting chapter in the Museum's history will occur this spring 
when one of the flagship and most popular halls--the Hall of Ocean 
Life--reopens after an extension renovation. Drawing on the Museum's 
world-renowned expertise in Ichthyology as well as other areas of 
vertebrate as well as invertebrate zoology, the Hall will be pivotal in 
educating visitors about the oceans' key role in sustaining life on our 
planet. It will feature two new ``Spectrum of Life'' walls highlighting 
the extraordinary diversity of marine life, a completely renovated two-
story diorama of the Andros Coral Reef, a spectacular sea floor slab 
from the late Jurassic Period, and panels showcasing fossil specimens 
and some of the earliest signs of life on Earth, as well as the 
beloved, and refurbished, 94-foot-long giant blue whale. The renovated 
Hall of Ocean Life, together with the new Halls of Biodiversity, Planet 
Earth, and the Universe and the rebuilt Hayden Planetarium (part of the 
new Rose Center for Earth and Space), will provide visitors a seamless 
educational journey from the universe's beginnings to the formation and 
processes of Earth to the extraordinary diversity of life on our 
planet.
    With the reopening of the Hall of Ocean Life, the Museum will have 
a singular opportunity for public education about marine environments, 
and it will draw on its vast educational resources to do so. In its 
Halls of Biodiversity, Planet Earth, and Ocean Life, the Museum 
presents current science news through Science Bulletins--multimedia 
productions that bring the latest science news and discoveries to the 
public using high-definition video documentaries, kiosks, and the web. 
The Bulletins will present features on such issues as marine 
biodiversity report, ocean life discoveries, and more. In addition, the 
Museum's Education Department provides standards-based curricular 
materials and on-site programs for more than 400,000 students and 
teachers who visit the Museum in school and camp groups each year, as 
well as professional development programs for teachers, Moveable 
Museums that travel to schools and community sites, a model after-
school program, award-winning online educational resources, and 
lectures, workshops, and field excursions for adult learners. The 
Museum's National Center for Science Literacy, Education, and 
Technology, launched in 1997 in partnership with NASA, employs 
innovative technologies to bring educational materials and programs to 
online audiences nationwide.
              common goals of noaa and the american museum
    Today, as throughout its history, the National Oceanic and 
Atmospheric Administration [NOAA] is committed to describing and 
predicting changes in the Earth's environment and to conservation and 
wise management of the nation's coastal and marine resources. It 
dedicates itself to forecasting environmental changes, providing 
decision makers with reliable scientific information, and fostering 
global environmental stewardship.
    The American Museum shares NOAA's commitment to these environmental 
goals and to the scientific research, technologies, and public 
education that underlie them. Indeed, informed environmental 
stewardship and preservation of our planet's biodiversity and 
resources--in marine, coastal, and other natural environments and 
habitats--are integral to the Museum's most fundamental purposes. 
Museum scientists conduct research worldwide on conservation biology 
and habitat protection. Their investigations advance scientific 
understanding and public awareness of these vital issues. The Museum 
has also long been at the forefront of developing new research modes 
and methods, and today, throughout the science divisions and the CBC, 
AMNH investigators are exploring applications of GIS and remote sensing 
technologies to advance research pertinent to conservation and 
protecting threatened species and habitats.
    The research programs of the CBC and the science divisions are 
enhanced by the Museum's research resources and technological capacity. 
New research tools--including molecular technologies, new collection 
types, innovations in computation, and GIS and remote sensing--are 
revolutionizing the way research can be conducted and data analyzed, as 
well as the way museum collections can be used and accessed by 
scientists, educators, policy makers, and the general public. The 
Museum has significant resources in these areas which it would bring to 
bear in its proposed partnership with NOAA. These include the 
following:
    Molecular Laboratories.--The Museum's molecular systematics program 
is at the leading edge of comparative genomics and the analysis of DNA 
sequences for evolutionary research. It includes two Molecular 
Systematics Laboratories, with sophisticated technologies for 
sequencing and advanced genomics research. In these laboratories, more 
than 40 researchers in molecular systematics, conservation genetics, 
and developmental biology conduct their research on a variety of study 
organisms.
    Frozen Tissue Collection.--The Museum is expanding its collections 
to include preserved biological tissues and isolated DNA in its new 
super-cold storage facility. This collection is an invaluable resource 
for research in many fields, including conservation biology, genetics 
and comparative genomics because it preserves genetic material and gene 
products from rare and endangered organisms that may become extinct 
before science fully exploits their potential. Capable of housing one 
million specimens, it will be the largest super-cold tissue collection 
of its kind. In the past two years, 15,000 specimens not available at 
any other institute or facility have already accessioned. At the same 
time, the Museum is pioneering the development of collection and 
storage protocols for such collections. To maximize use and utility of 
the facility for researchers worldwide, the Museum is also developing a 
sophisticated website and online database that includes collection 
information and digitized images.
    Supercomputing.--Museum researchers now have onsite access to a 
560-processor cluster--the fastest parallel computing cluster in an 
evolutionary biology laboratory and one of the fastest installed in a 
non-defense environment. This computing cluster, constructed in-house 
from scratch, represents one of the key achievements of Museum 
scientists who, over the last eight years, have taken a leadership role 
in developing and applying new computational approaches to deciphering 
evolutionary relationships through time and across species. Their 
groundbreaking efforts in cluster computing, algorithm development, and 
evolutionary theory have been widely recognized and commended for their 
broad applicability for biology as a whole. Indeed, the bioinformatics 
tools these Museum scientists are creating will not only help to 
generate evolutionary scenarios, but also will inform and make more 
efficient large genome sequencing efforts pertinent to biodiversity 
science as well as be applicable in other informatics contexts, in non-
genomics areas of evolutionary biology as well as in other disciplines.
    Remote Sensing and Geographical Information Systems Technologies.--
The CBC houses a Remote Sensing/Geographical Information Systems (RS/
GIS) lab which has had noted success since it was launched in the fall 
of 1998. Wise conservation policy requires effective knowledge of the 
distribution of species and ecological communities at local, regional, 
and global scales. Without this information, it is difficult to decide 
where to allocate scarce conservation resources. Remote sensing 
technologies can provide essential data on such things as land-cover 
and land-use, as well as sea surface temperatures and chlorophyll 
content. GIS makes it possible for scientists to compare and visualize 
the relationships among satellite and legacy data, raw standardized 
samples, and data obtained through ground truthing. Because it provides 
the database backbone than can connect field work to analysis, GIS is 
becoming an indispensable component in environmental data analysis and 
is thus revolutionizing work in conservation.
    The CBC uses its RS/GIS technologies in biodiversity and marine 
reserve research in various ways--for example, to identify sites 
suitable for biological inventory; to provide supplementary 
quantitative and qualitative data in and around study sites (e.g. 
extent of habitat fragmentation); and to develop persuasive visual 
depictions and digital presentations for reports, publications, and 
meetings.
    Building on the scientific strengths and resources outlined above, 
the Museum now proposes to launch, in partnership with NOAA, a basic 
and applied research initiative that employs the latest technologies to 
advance scientific understanding of resource management and stewardship 
issues for marine and coastal environments. The explosion of research 
technologies creates a unique window of opportunity for the Museum to 
develop new ways to integrate these state-of-the-art analytical tools 
into its biological and environmental research, as well as to present 
results to the public in its exhibition halls, websites, and 
educational programs. It is this intersection of research capability 
and technological opportunity that underlies the planned initiative.
    The Museum proposes a multifaceted initiative to include work in 
areas of concern it shares with NOAA, such as the following:
    Conservation research using GIS.--Museum vertebrate and 
invertebrate zoologists carry out ambitious field work and collection 
expansion programs throughout the tropical freshwaters of the globe, 
conduct biotic surveys, and explore marine ecosystems:
  --Ichthyologists, for example, study the evolution, behavior, and 
        conservation of the largest and most diverse populations--and 
        one of the most endangered of all vertebrate groups--the 
        fishes. Their work concerns not only discovery and 
        classification of many still unknown species but also the 
        protection and conservation of many species whose habitats and 
        survival are at risk.
  --Invertebrate zoologists are discovering many species of marine 
        invertebrates. Field research in the Florida Keys, for 
        instance, is documenting for the first time the extraordinary 
        biodiversity of marine mollusks.
    These researchers, in studying endangered ecosystems, marine 
species, and marine reserves, can use GIS to develop finer, tighter, 
more precise datasets. Also, GIS analysis enables them to ask more 
sophisticated and flexible questions, and to discover patterns, series, 
and gradations.
    Biodiversity conservation.--CBC investigators are conducting 
important research field projects relying on the capacities of GIS/RS. 
They include:
  --Marine reserve networks.--Researchers in the CBC's marine program 
        are using GIS to analyze the physical, biological, and cultural 
        processes affecting coral reef systems in the Bahamas. GIS is 
        an indispensable tool in this research, because it allows the 
        researchers to integrate maps with sets of biophysical and 
        socioeconomic data and to create dynamic models for testing 
        hypotheses about marine reserve networks in a spatially 
        realistic framework.
  --Humpback whales in Madagascar.--Collaborating researchers from the 
        American Museum and the Wildlife Conservation Society are using 
        GIS to track the migrations of Humpback whales in the western 
        Indian Ocean region. They are creating a database that contains 
        identification photos, biopsies, DNA sequences, and sighting 
        information for hundreds of individual whales. Being able to 
        identify individuals at the genetic level will enable 
        researchers to unravel the complex migration patterns of 
        Humpbacks with greater accuracy, thus improving conservation 
        practices and increasing understanding of marine sanctuaries, 
        the status of whales, their population structure, abundance, 
        and recent trends in their distribution.
  --Biotic surveys and inventories.--The CBC conducts floral and faunal 
        surveys in ecologically threatened regions of Bolivia and 
        Vietnam. Both countries are extremely rich in biodiversity that 
        is threatened by high rates of deforestation and inadequate 
        conservation planning. These biotic surveys provide essential 
        data on the distribution and abundance of species, thus 
        enabling researchers to analyze the role of climate change on 
        land cover and develop plans to reduce threats to biodiversity. 
        They also create an opportunity for Museum researchers to train 
        local field biologists and conservation managers how to conduct 
        surveys using remote sensing data and biophysical measures and 
        how to apply results to the long-term management and 
        conservation of biodiversity.
    Collections data and access.--Museum researchers can use GIS to 
bring the Museum's vast collections alive and to increase exponentially 
the analyses that researchers can carry out for conservation research 
and decision making. By coupling GIS with the Museum's increasingly 
strong web presence to provide easy access, researchers worldwide will 
be able to pose more sophisticated questions and uncover new 
connections and relationships among the collections data. For example, 
by using georeferenced data, researchers can compare current maps with 
legacy data to trace environmental changes over time.
    Public education and outreach.--As an added benefit of the proposed 
partnership with NOAA, the Museum plans to feature current NOAA-related 
science and discovery in the renovated Hall of Ocean Life as well as in 
its other educational programs and resources. With access to GIS 
applications and datasets, the Science Bulletins, for example, can 
promote public understanding of current science through global earth 
science-related datasets, maps, and more.
    These research applications for GIS and other technologies 
demonstrate the Museum's enormous potential for using cutting-edge 
tools to help advance environmental forecasting, provide decision 
makers with reliable scientific information, and foster global 
environmental stewardship.
    We therefore request $1 million to join in partnership with NOAA to 
advance basic and applied research that will strengthen resource 
management and conservation of marine and coastal environments and 
public understanding of these issues. In so doing, the Museum will 
support its participatory share with funds from nonfederal as well as 
federal sources. By generating critical scientific knowledge about the 
vital role of ocean and marine environments, we can advance our shared 
commitment to environmental stewardship so pivotal to our nation's and 
our planet's health.
                                 ______
                                 

         Prepared Statement of the City of Gainesville, Florida

    Mr. Chairman: On behalf of the City of Gainesville, Florida, I 
appreciate the opportunity to present this written testimony to you 
today. The City of Gainesville is seeking federal funds in the fiscal 
year 2004 Commerce, Justice, State and Judiciary Appropriations bill to 
assist with the following innovative projects the City is undertaking:
  --The Joint Communications Project, to facilitate communication and 
        data sharing between our urban area public safety and court 
        system agencies. The project is an innovative crime data 
        gathering, reporting and training system that will include a 
        Geographic Information System (GIS), interactive Internet/
        Intranet applications, Crime Mapping and automated reporting 
        through the use of laptop computers. The goal is to obtain 
        accurate, timely information that will be shared with the 
        appropriate criminal justice system entities and/or individuals 
        and to focus efforts on training others in this highly 
        technical area of law enforcement.
Joint Communications Project
    The City of Gainesville seeks a federal funding strategy to 
implement an innovative crime data gathering, reporting and training 
system that will include a Geographic Information System, (GIS), 
interactive Internet/Intranet applications, Crime Mapping and automated 
reporting through the use of laptop computers. Though portions of this 
project have been attempted by other agencies, the Gainesville Police 
Department will become one of the first law enforcement agencies in the 
state to gather, analyze and provide information regarding crime and 
quality of life type incidents in such an efficient, comprehensive and 
automated manner.
    The goal is to obtain accurate, timely information that will be 
shared with the appropriate criminal justice system entities and/or 
individuals and to focus efforts on training others in this highly 
technical area of law enforcement. At least one outcome of this effort 
will be the facilitation of communication and data sharing between our 
urban area public safety and court system agencies through the use of 
system-wide technology upgrades. The impact for the entire region is 
considerable, since this county serves as the regional center for much 
of rural north Florida's medical care, disaster management, and 
criminal justice services. The estimated funds needed to continue these 
efforts are $4.77 million.
    The City of Gainesville, located in the north central portion of 
the State of Florida, is a diverse community of 110,000 and serves as 
the county seat for Alachua County and its additional 130,000 
residents. Gainesville is the home of the University of Florida and 
serves as the regional business center for the surrounding, 
predominately rural counties. The community is served primarily by 
three law enforcement agencies, the Gainesville Police Department, the 
University Police Department and the Alachua County Sheriff's Office 
representing approximately 625 sworn men and women. The City of 
Gainesville has been a proven leader for many years in the field of law 
enforcement with innovative programs developed here being adopted by 
agencies from around the nation. Over the past 15 years the City has 
been dedicated to the principles of Community Oriented Policing and is 
one of the few agencies in the nation to apply its concepts department 
wide. The City and County serve as the regional center for much of 
rural north Florida's medical care, disaster management, and criminal 
justice services.
    The need for this system is driven by the lack of availability of 
resources provided to tier 1 (population over 250,000) and tier 2 (seat 
of government) cities that have been funded by prior Federal 
initiatives. Although the region has a total population over 450,000 
and geographic area of 8,500 square miles, it is not within the primary 
grant recipient categories in previous efforts. However, considerable 
efforts have been made to provide resources through other means and 
utilizing existing resources. The estimated funds needed to continue 
these efforts are $4.77 million.
    This community faces problems endemic to communities nationwide. In 
a time where the individual on the street can obtain any amount of 
immediate and up to date information, the law enforcement officer must 
often make decisions based on information that is incomplete or out of 
date. The City of Gainesville has taken steps to attempt to partially 
remedy this situation by combining communications systems with area law 
enforcement in an effort allowing neighboring agencies to at least 
communicate by voice transmission. What we are seeking is the funding 
to take these initial steps to the next level providing the officer on 
the street with clear, complete, and accurate information about the 
situations they encounter. Included in this project is the benefit of 
data sharing between agencies working in this community allowing better 
informed decision making and improved distribution of resources. The 
various portions of this program are designed to work together to 
provide improved, more effective service to the residents of this 
community.
    The project consists of:
  --Equipping law enforcement, fire personnel and emergency medical 
        responders with interoperable mobile data communications 
        system. ($3.54 million), and
  --System wide upgrades to improve data collection, incident 
        assignment and dissemination of data to allow combined 
        operations. ($1.23 million).
    Communications interoperability and accurate, timely data 
collection are crucial to law enforcement and disaster response. Recent 
events such as acts of domestic terrorism, natural disasters, anti-war 
protests and mass casualty tragedies have highlighted the importance of 
coordinated interactions among public safety agencies from all levels 
of government. This ability to interoperate among public safety 
responders can be measured in lives saved. Interoperability consists of 
the ability of public safety personnel from one agency to communicate 
by radio and data transmission with personnel from other agencies on 
demand and in real time. To achieve interoperability requires improving 
public safety wireless communications by addressing each of the five 
areas of interoperability--coordination and partnerships, funding, 
spectrum, standards and technology, and security.
    The Alachua County Sheriff, with funding from the City and County, 
operates a combined communication center constructed in fiscal year 
2000 with $4.2 million in local funding. The center serves five law 
enforcement agencies, eleven fire rescue agencies, the county 
correctional facility, multiple government agencies of the city and 
county, a regional airport, and an industrial fire brigade. The local 
city owned utility, Gainesville Regional Utilities, provides an owned 
and operated 800 Mhz. Trunked Radio System (voice-only) to all of these 
agencies, along with another, the University of Florida's Police 
Department. This project has demonstrated the nadir of the 
interoperability standard promulgated by the FCC and other Federal 
agencies. The infrastructure for digital interoperability has also been 
built into the system, but thus far only one agency, because of its 
small numbers of units, has been able to make that next step into 
wireless data communications. The funds being sought for data 
interoperability will take the system to the next step by enhancing 
joint response capability, information sharing, data acquisition, 
intelligence gathering and dissemination, data security, and agency 
efficiency. While each entity alone and in joint projects such as the 
communications center has attempted to address these shortcomings, the 
high capital cost of these acquisitions is the major stumbling block to 
providing the final step to what is truly the pinnacle of 
interoperability achievement in a medium-sized community (225,000 total 
county population).
    The utilization of a mobile data system has numerous advantages for 
the law enforcement officer as well as for the public. Removing the 
reliance on strictly verbal communication by way of radio and widening 
the information flow through direct data communications results in an 
enhancement of the ability to successfully resolve problems in the 
field. Laptop computers as in-car computer aided dispatch terminals 
significantly increase the ability for public safety officers to 
communicate.
    Computers used in this manner can perform many important tasks. The 
mobile data computers can send and receive information between the 
officer and the dispatcher, including calls for service. Non-emergency 
calls are forwarded from the dispatcher to the appropriate unit without 
the need to transmit the information verbally over the radio, thus 
saving ``air-time'' for use in emergency situations and reducing the 
possibility of misunderstanding or receiving incorrect information. 
This also allows an increase in the amount of information the officer 
in the field has available in responding to situations. Additionally 
there is the potential for a decrease in the need for additional 
dispatchers even if the number of calls for service increases.
    Through the use of mobile data computers officers and supervisors 
can find the location of other officers and check on their current 
status. Eliminating the need for officers to request this information 
from a dispatcher gives all members of the agency a complete picture of 
the availability of officers for calls for service. Officers can also 
refer to information about calls awaiting dispatch and information 
regarding previous calls for service. Officers would be able to view 
past and current activity within his/her assigned area. Obtaining 
pertinent information in a timely manner permits the officer(s) to make 
more informed strategic and investigative decisions. This accessibility 
to information would permit officers to better inform citizens and 
business owners regarding activities. In addition officers would be 
able to communicate vehicle-to-vehicle by sending messages from one 
officer to another. This eliminates the need for officers to use ``air-
time'' with less important transmissions. Law enforcement officers can 
conduct computer checks on wanted persons and stolen vehicles without 
having to tie up a dispatcher. This allows officers to check a large 
number of persons and vehicles, which can significantly increase the 
number of people who are arrested for warrants and the number of 
recovered stolen vehicles. A single dispatcher can only handle one (1) 
request at a time, while the computer system can handle numerous 
requests at the same time.
    In a time where crime knows no geographical boundaries, the ability 
to easily share timely information between differing agencies is of 
great importance. The ability for field officers to share information 
is a growing concern. Incidents spill across jurisdictional boundaries 
and there is an increasing need to share resources between agencies. 
The widening of the data pipeline to the field officer allows more 
flexibility and increases the amount of information readily available. 
The use of mobile data computers would allow increased and easier 
information sharing which should improve the ability of officers to 
respond to most situations.
                                 ______
                                 

              Prepared Statement of the Hoopa Valley Tribe

    He Yung: my name is Clifford Lyle Marshall, Chairman of the Hoopa 
Valley Tribe. The Hoopa Valley Tribe is located in Northern California 
and in the County of Humboldt. Our treaty was signed providing the 
whole Hoopa Valley as a reservation. It was not until 1876 that an 
executive order was signed acknowledging this treaty. Since first 
European contact the culture and tradition remains to this day.
    The culture of the Hoopa Valley People is a way of life. Our 
ceremonial dances are healing or payer dances. These dances are held 
for spiritual meaning performed at sacred places, to balance the world. 
The Hoopa Valley People lived in harmony for over 10,000 years prior to 
European Contact. We had our own laws and rules that our people 
followed to live together and settle controversial issues by a form of 
payment.
    Currently we have a Tribal Court and Tribal Police Department that 
operates on a daily basis and is utilized by the Hoopa and surrounding 
Communities. We do not receive any of the monies for fines or tickets 
issued on the Hoopa Valley Tribal Reservation this money is collected 
by the State of California. This is not helping our community as far as 
administering the law enforcement or Tribal Court Programs. Our 
community looses approximately $750,000 annually in fines that should 
be distributed back to the Hoopa Valley Tribe to offer more services to 
our community. Further, the county refers probationary matters, such as 
counseling and the like, to our Human Services Department without 
paying part of expenses. This is becoming costly and burdensome to the 
Tribe.
    Law Enforcement operations consist of many diverse activities which 
are directed toward the attainment of Department objectives. Activities 
such as patrolling and issuing traffic citations are not objectives in 
themselves, rather, they are methods of achieving the real objectives 
of preventing and deterring crime, arresting criminal offenders, and 
preventing traffic accidents.
    Law Enforcement needs:
  --15 Full Time Officers (at $36,000 per year) = $540,000.00
  --6 Part Time Positions (at $18,000 per year) = $108,000.00
  --7 Dispatchers
  --2 Full-time:  x  $22,880.00 = $160,160
  --5 Part-time  x  $11,440.00 = $57,200
  --Vehicles: 3 at 35,000 = $105,000
  --Gas/maintenance/other = $50,000
  --Communications = $12,000.00
Tribal Court Needs
    A new building. The current building is over 78 years old. We are 
growing as a community and will need to grow to accommodate the needs 
as follows:
  --Automated Case Management System: $26,000
  --Personnel and Automated Court Services: $395,000
  --Law Library: $15,457
  --Structural Modification: $1,336,000.00
  --Tribal Court Improvements: $43,800
                     tribal court needs assessment
    The Hoopa Valley Tribal Court's prospective improvements are listed 
below according to the level of priority within each category. We have 
included a brief summary of information, which follows each list. 
Please note that some of the items are listed below as autonomous 
functions and the court lists them in the interest of demonstrating 
their supplemental impact upon the court's ability to function 
effectively within our jurisdiction.
Unresolved Essential Tribal Court Needs
  --Automated Case Management System $26,000.00
  --Telephone System with Voice Mail
    Our court currently operates on a hard paper file system with very 
little computer management backup. This creates a burden upon the court 
because it compromises the court's ability to effectively manage its 
caseload. As our caseload begins to increase as a result of recent 
legislative activity, the daily operations of the tribal court will 
increasingly begin to diminish in the absence of the above listed 
requirements.
    Our current telephone system is antiquated and problematic. Our 
Court employs the use of a single answering machine, which makes it 
necessary to personally manage all incoming telephone calls, which is 
often an ineffective use of the current clerk's time.
Funding Requirements for Personnel and Ancillary Court Services
            Existing Positions
  --Court Liaison Officer/Bailiff Subsidization $24,000.00
            Proposed Positions
  --Deputy Court Clerk $27,000.00
  --Public Defender $45,000.00
  --Probation Officer $40,000.00
  --Mediator/Mediation Services Provider $70,000.00
  --Associate Judge $60,000.00
  --Legal Aid Provider $36,000.00
  --Guardian Ad Litem $46,000.00
  --Public Guardian $47,000.00
    Our existing personnel have repeatedly proven themselves committed 
both to the Tribal Court and to its community. Although the budget has 
not previously allowed for any substantial increases, the tribal court 
staff deserves to be adequately compensated for their exemplary work. 
The Hoopa Valley Tribal Police Department has recently provided the 
court an opportunity to utilize a Court Liaison Officer who functions 
as a liaison between the court, the law enforcement department, and the 
community. The court would like to retain this myriad of services by 
supplementing the CLO salary in conjunction with the Hoopa Valley 
Tribal Police Department.
Law Library
  --Three Computers $6,000.00
  --One Computer Printer $257.00
  --Subscription to Lexis-Nexis on line legal search engine $600.00
  --Self Help Legal Aid Manuals $8,600.00
    Our Court is required to provide a legal library to the public. 
This library currently consists of the entire Hoopa Valley Tribal Law 
and Order Code and the Indian Law Reporter. These often prove sorely 
inadequate in meeting our public's needs. We would ultimately like to 
provide three computers that would allow citizens to conduct legal 
research via a computer generated legal search engine. We would also 
like to empower our litigants to represent themselves using Self-Help 
manuals that we would provide in our library.
Necessary Structural Modifications
  --Secured Parking Area $10,000.00
  --Court Renovation $126,000.00
  --Juvenile Detention Facility $585,000.00
  --Youth Regional Treatment Facility $615,000.00
    The court staff currently utilizes 90 percent of the court's 
available parking. This creates a problem for persons attempting to 
access the court. Our courthouse also needs a great deal of structural 
renovation. Our courthouse has had very basic maintenance services in 
the 38 years that it has existed. Our building requires a great deal of 
renovation and preventive maintenance in order to secure its continued 
existence for the coming years. We have a new juvenile justice avenue 
available in our court. The effectiveness of this juvenile court would 
be tenfold with the use of ancillary programs such as a detention 
facility and a treatment facility. The court is ready to assist 
juveniles and the families of juveniles in need, and these ancillary 
programs would greatly increase our effectiveness in doing so.
Tribal Court Improvements
    Tables, Chairs, Desks $10,000.00
    Fireproof File Cabinets $800.00
    Metal Detector $5,000.00
    Court Automobile $28,000.00
    Some additional minor improvements such as these listed above would 
assist in the daily functioning of the court. Our courtroom needs 
plaintiff and defendant tables, and we are currently utilizing very old 
court furniture that belongs to the state court. We need additional 
file cabinets with the ability to protect our files from damage, and 
security and convenience necessitate the additional listed items.
                                 ______
                                 
Prepared Statement of the National Association of University Fisheries 
                         and Wildlife Programs
    The National Association of University Fisheries and Wildlife 
Programs (NAUFWP) appreciates the opportunity to submit testimony 
concerning the National Sea Grant Program in the fiscal year 2004 
budget of the National Oceanic and Atmospheric Administration (NOAA). 
NAUFWP represents approximately 55 university programs and their 440 
faculty members, scientists, and extension specialists, and over 9,200 
undergraduates and graduate students working to enhance the science and 
management of fisheries and wildlife resources.
    The Office of Oceanic and Atmospheric Research (OAR) is the main 
research arm of NOAA, contributing to all other Line Offices and 
Strategic Plan goals and providing the scientific basis for national 
policy decisions in key areas. OAR supports a world-class network of 
scientists and environmental research laboratories, and partnerships 
with academia and the private sector. NAUFWP supports the President's 
fiscal year 2004 request of $380.6 million for Oceanic and Atmospheric 
Research.
    The National Sea Grant College Program provides essential academic 
research, education, and extension services for the oceans community. 
Sea Grant research is critical to the maintenance and improvement of 
the nation's marine resources. We were concerned by the 
Administration's proposal in fiscal year 2003 to move the Sea Grant 
College Program to the National Science Foundation (NSF). While the 
NSF's record of accomplishment in basic research is unparalleled, their 
strength is not in the deployment of applied research, education, and 
extension--the very characteristics that have made the National Sea 
Grant College Program so successful. Unfortunately, the Sea Grant 
program has been under funded for many years. Therefore, NAUFWP 
strongly supports the maintenance of the Sea Grant Program in the NOAA 
budget, and urges Congress to appropriate $68.41 million for this 
program in fiscal year 2004.
    NAUFWP supports the National Invasive Species Act Program, and the 
Marine Aquaculture Program, two partnership programs within NOAA that 
provide information to support policy and management decisions, 
increase knowledge of coastal and marine ecosystems, and provide the 
scientific basis for enhancing the Nation's marine economic sector. 
NAUFWP supports the Administration's $1 million increase for the NOAA 
Invasive Species Initiative, and the $2.6 million request for the NOAA 
Marine Aquaculture Program. We urge Congress to appropriate these 
amounts for fiscal year 2004.
    Thank you for considering the views of universities with fisheries 
and wildlife programs. We look forward to working with you and your 
staff to ensure adequate funding for fish and wildlife research, 
education, and conservation.

</pre></body></html>
